APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Fourth Circuit, Owens v. Stirling,
No. 18-8 (July 20, 2020) .............................. App-1
Appendix B
Order, United States Court of Appeals for
the Fourth Circuit, Owens v. Stirling,
No. 18-8 (Aug. 18, 2020) ............................ App-57
Appendix C
Order, United States District Court for
the District of South Carolina, Owens
v. Stirling, No. 0:16-cv-02512-TLW
(May 29, 2018) ........................................... App-58
Appendix D
Medical Clearance for Transfer, South
Carolina Department of Corrections
(July 27, 2006) ......................................... App-169

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
________________
No. 18-8
________________
FREDDIE OWENS,
v.

Petitioner-Appellant,

BRYAN P. STIRLING, Commissioner, South Carolina
Department of Corrections; WILLIE D. DAVIS, Warden
of Kirkland Correctional Institution,
Respondents-Appellees.
________________
Argued: Dec. 11, 2019
Decided: July 20, 2020
________________
Before WILKINSON, KEENAN, and DIAZ,
Circuit Judges.
________________
OPINION
________________
DIAZ, Circuit Judge:
Freddie Eugene Owens was sentenced to death
three times by a South Carolina jury for the 1997
murder of Irene Graves during an armed robbery of
the Speedway convenience store where she worked.
He appeals the district court’s grant of summary
judgment in favor of the respondent state officials

App-2
Bryan P. Stirling and Willie D. Davis (collectively “the
State”) on his petition for writ of habeas corpus,
brought pursuant to 28 U.S.C. § 2254.
Owens argues that counsel in his third capital
sentencing trial provided ineffective assistance by
failing to thoroughly investigate and present available
mitigating evidence and to object on Confrontation
Clause grounds to the trial court’s admission of state
records summarizing a number of his disciplinary
infractions while incarcerated. He also contends that
counsel in both his third capital sentencing trial and
his initial postconviction proceeding were ineffective
by failing to develop evidence of frontal lobe
abnormalities in his brain through comprehensive
neuroimaging.
The state court rejected Owens’s first two claims
on the merits in 2013 and his third claim, which
Owens didn’t raise in his initial petition, as
procedurally defaulted in 2017. The district court
thereafter dismissed Owens’s § 2254 petition, holding
that the state court reasonably applied clearly
established Supreme Court law in rejecting Owens’s
two exhausted claims under Strickland v.
Washington, 466 U.S. 668 (1984), and that Owens
failed to demonstrate cause under Martinez v. Ryan,
566 U.S. 1 (2012), to excuse the procedural default of
his third Strickland claim.
We agree with the district court on all fronts.
Emphasizing our deferential standard of review in
regard to the exhausted claims, we decline to disturb
the state court’s holdings that counsel thoroughly
investigated and presented Owens’s mitigating
evidence and that the Confrontation Clause didn’t

App-3
apply to a business record not prepared specifically for
use at trial. With respect to the defaulted claim, we
accentuate Martinez’s high procedural bar, which
Owens fails to meet because his underlying claim is
insubstantial. In so concluding, we exercise our
discretion to reconsider an issue that we implicitly
resolved in Owens’s favor by granting his certificate of
appealability. Accordingly, we affirm.
I.
We first sketch the long chain of events giving rise
to this capital habeas action, which encompass a
criminal trial, three sentencing trials, three rounds of
direct appeal, and two rounds of state postconviction
proceedings, in addition to the proceedings in the
district court.
A.
Owens’s conviction for murder, armed robbery,
conspiracy to commit armed robbery, and use of a
firearm in the commission of a violent crime traces
back to October 31, 1997. Early that Halloween
evening, Owens was driving around his hometown of
Greenville, South Carolina with his three codefendants—Andre Golden, Nakeo Vance, and Lester
Young—when the foursome conspired to hold up a
series of local businesses. After “casing” several
options, two of them (sans Owens) robbed the Prestige
Cleaners on Lauren’s Road at around 6:45 p.m. Later
in the evening, all four robbed the Conoco Hot Spot
convenience store on Augusta Road.
After midnight on November 1, the four men
conferred on Owens’s front porch about splitting up
and robbing two more businesses near the intersection
of Lauren’s Road and I-85. One was a Waffle House,

App-4
which was assigned to Vance and Young (but which
they found too crowded to carry out their plan). The
other was the Speedway convenience store, which was
assigned to Owens and Golden.
Security footage from inside the store showed two
men wearing makeshift disguises over their heads—
one a ski mask and the other a pair of panty hose—
entering at around 4:00 a.m. The masked men
accosted Graves (a single mother of three who was
working as many jobs), removed what turned out to be
$37.29 from the register, and led Graves at gunpoint
to the back of the store, where the safe was located.
When Graves couldn’t open the safe because she didn’t
know the combination, the man in the ski mask shot
her in the right side of the head with a .32 caliber
pistol, killing her instantly.
B.
Owens and his companions were indicted the
following October, and the State promptly filed a
notice of intent to seek the death penalty for Graves’s
murder. Owens was tried alone for that crime
beginning on February 8, 1999. Lacking forensic
evidence to connect Owens to the scene, the State’s
case rested largely on witness testimony. Golden (who
had since pleaded guilty) testified to the events
described above, including that Owens was the man in
the ski mask who pulled the trigger. Vance also
testified for the State, adding that Owens took credit
for having “shot that bitch in the head” after hopping
in Vance’s getaway car. J.A. 1329. Owens’s thengirlfriend testified that he had confessed to having
shot the clerk to her, too. Owens also confessed to a
detective and an investigator who had been assigned

App-5
to the case and who likewise testified for the State. On
this evidence, a jury returned a guilty verdict on all
counts on February 15.
The sentencing phase of Owens’s trial began two
days later. This phase was separate from the guilt
phase pursuant to South Carolina law, which provides
that “the court shall conduct a separate sentencing
proceeding . . . upon [the] conviction or adjudication of
guilt of a defendant of murder” in all cases where “the
State seeks the death penalty.” S.C. Code Ann. § 16-320(B). If the sentencing jury (or the judge in non-jury
cases) unanimously finds at least one statutory
aggravating circumstance beyond a reasonable doubt
and recommends that a sentence of death be imposed,
“the trial judge shall sentence the defendant to death.”
Id.
§ 16-3-20(C).
The
statutory
aggravating
circumstances include, as relevant here, that the
murder was committed during an armed robbery or
during an armed larceny. See id. § 16-3-20(C)(a)(1)(e),
(f). The statute also sets forth a nonexclusive list of
mitigating circumstances that the jury (or judge) must
be allowed to consider in reaching a sentencing
verdict. See id. § 16-3-20(C)(b).
On the morning of trial, defense counsel notified
the court that they had been served with a
Supplemental Notice of Aggravation the previous
afternoon, which indicated the State’s intent to
introduce—as
evidence
of
Owens’s
future
dangerousness
and
inability
to
adapt
to
incarceration—a statement Owens made that
morning confessing to the murder of a fellow inmate
named Christopher Lee. Defense counsel moved for a
brief continuance to investigate the circumstances of

App-6
the confession, but the court denied the motion. The
sentencing hearing began, evidence of Lee’s murder
was introduced, and the jury returned a unanimous
verdict
finding
the
statutory
aggravating
circumstance of murder while in the commission of
armed robbery and recommending that Owens be
sentenced to death.
On appeal, the Supreme Court of South Carolina
affirmed Owens’s conviction but vacated his capital
sentence and remanded for resentencing, finding that
the trial court had abused its discretion in refusing to
grant a continuance. State v. Owens, 552 S.E.2d 745,
759 (S.C. 2001). The high court reasoned that in light
of “the capital nature of the proceeding” and “the
timing of [Owens’s] statement” regarding Lee’s death,
“due process necessitated a brief . . . continuance to
allow defense counsel the opportunity to interview the
inmates and personnel at the detention center.” Id.
C.
Owens elected a bench trial for his second capital
sentencing proceeding. The trial court sentenced
Owens to death anew, but South Carolina’s high court
again vacated the sentence and remanded for another
resentencing. See State v. Owens, 607 S.E.2d 78, 80
(S.C. 2004). This time, the Supreme Court found that
Owens’s waiver of his right to a jury trial wasn’t
voluntary under South Carolina law because the trial
court had impermissibly injected its personal opinion
into Owens’s decision. Id. at 79-80.
D.
Owens’s third capital sentencing trial forms the
basis of the ineffective-assistance claims raised in his
§ 2254 petition. Owens was represented in that

App-7
proceeding by Everett P. Godfrey, Jr. and Kenneth C.
Gibson (collectively “Sentencing Counsel”), who were
appointed on February 2, 2006, for a trial scheduled to
begin on October 2. Godfrey took immediate
responsibility for Owens’s mitigating evidence, while
Gibson took charge of the guilt- or crime-related
evidence. Closer to trial, once they realized that there
was “a whole lot more” mitigating evidence than guiltrelated evidence to cover, Gibson took on secondary
responsibility for presenting Owens’s mitigation case.
J.A. 2095.
Counsel spent much of the first six months of their
appointment on preliminary tasks, such as performing
legal research, reviewing the case files from Owens’s
previous trials and lawyers, and, closer to summer,
performing general trial preparation. They also twice
visited Owens at Lieber Correctional Institute,
outside of Charleston, and Godfrey visited Owens a
third time in early October, after the trial had been
pushed back.
In mid-August, Godfrey began to assemble a team
of specialists to help investigate and present Owens’s
mitigating evidence. The team, which came together
by September, consisted of five members: clinical
social worker Marjorie Hammock, neuropsychologist
Dr. Tora Brawley, forensic psychiatrist Dr. Donna
Schwartz-Watts, and mitigation investigators Paige
Tarr and Carolyn Graham.
The centerpiece of Owens’s mitigation case,
Hammock had testified in each of his previous
sentencing trials; Godfrey selected her not only
because she “knew the case” and “knew the facts,” J.A.
2195, but because Owens’s previous sentencing

App-8
counsel “was very happy with her” presentation, J.A.
2157. Hammock’s role was to “give the jury an
understanding . . . of [the] things that had gone on” in
Owens’s life, especially with respect to his troubled
“family background,” that “led up to” his offense
conduct. J.A. 2102. Tarr and Graham served as
Hammock’s boots on the ground, “go[ing] out” to “find
witnesses, interview witnesses, [and] identify
issues . . . that . . . might mitigate the circumstances”
of Owens’s conviction. J.A. 2108.
As for Dr. Schwartz-Watts, Godfrey sought her
out because they had worked together on numerous
cases in the past, and he liked the work she had done
in them. The two discussed at length the need to bring
on a neuropsychologist, and Dr. Schwartz-Watts
recommended Dr. Brawley, whom she knew from
previous cases as well.
Like Godfrey, Dr. Schwartz-Watts knew that the
role of neuropsychologist had been fulfilled in the
previous sentencing trial by Dr. James Evans, who
had evaluated Owens by means of a Quantitative
Electroencephalogram (or “qEEG” for short)—a
diagnostic tool that analyzes behavioral-cognitive
function by measuring the brain’s electrical activity—
and testified that Owens has “mild brain dysfunction”
in his frontal lobe. J.A. 76. But Dr. Schwartz-Watts
preferred Dr. Brawley’s more “conservative” approach,
which she found more “reliable” than Dr. Evans’s. J.A.
2382.
Godfrey agreed that Dr. Evans’s use of a qEEG to
assess Owens’s cognitive state—which had to be sent
“out west, like to California,” for diagnosis—”would
[not] play in front of a local jury,” and that it would be

App-9
prudent to take a more cautious approach. J.A. 2196.
Accordingly, when Dr. Brawley performed her
neuropsychological evaluation of Owens on September
12, her “battery” of tests, J.A. 2404, didn’t include a
qEEG, which she too found to be “controversial” and
“experimental,” J.A. 2402.
For her part, Dr. Schwartz-Watts met with Owens
three times before trial. These interviews taught her
that Owens had witnessed and experienced “a lot of
abuse” over the years, though Owens denied having
ever been sexually abused. J.A. 2383. Dr. SchwartzWatts also learned that Owens was “receiving
treatment for a presumed bipolar disorder” and taking
“powerful psychiatric medications,” including an
anticonvulsant called Depakote, while incarcerated at
Lieber. J.A. 2440. Because “this new evidence” meant
that “some of the mitigation that had been completed
in prior trials [would] need to be revamped,” she urged
Godfrey to request a continuance. Id. He did so, and
on October 2 (the date for which the trial was
originally scheduled), the trial court delayed the trial
by five weeks, rescheduling for November 6.
Owens’s third capital sentencing trial took place
from Monday, November 6 to Saturday, November 11,
2006. The State called a dozen witnesses, including
various medical experts, several Greenville county
sheriffs and special investigators, Nakeo Vance,
Owens’s girlfriend at the time of Graves’s murder, and
a state official from Lieber. As in Owens’s previous
sentencing trials, the State’s evidence touched equally
on his offense conduct as his future dangerousness
and inability to adapt to prison.

App-10
Among other things, evidence of the latter
included testimony about Owens’s killing of his fellow
inmate on the eve of his first sentencing trial—the
“elephant in the room,” as Godfrey later referred to it.
J.A. 2147. It also included an official record describing
twenty-eight of the numerous disciplinary infractions
that Owens had received while in the custody of the
South
Carolina
Department
of
Corrections
(SCDOC),which had been prepared by officials “under
a duty to report” the incidents pursuant to state law.
J.A. 1530.
For the defense, Godfrey’s opening remarks stated
that the “evidence in mitigation” would show “how it
is that Freddie grew up,” especially with regard to “the
violence that he ha[d] lived through his entire life,”
such that the jury would “come to know him as a
person.” J.A. 1194. Godfrey highlighted that Owens
suffered from “an impulse control disorder,” J.A. 1196,
but that “within th[e] past year” he had begun “asking
for help . . . . to control his actions,” J.A. 1194. And
while Godfrey warned the jury that the mitigating
evidence often wasn’t “pretty,” he asserted that
Owens’s difficult upbringing, together with his
underlying and long-untreated disorders, revealed
that life was “the proper sentence.” J.A. 1196.
Counsel called five witnesses, starting with
Hammock. While her presentation was more succinct
than in Owens’s previous sentencing hearings,
Hammock covered her psychosocial assessment in
similar terms. Hammock testified that she had
interviewed Owens, his mother, his sisters, one of his
brothers, his stepfather, staff from the South Carolina
Department of Juvenile Justice (SCDJJ) when he was

App-11
incarcerated there, various medical experts, and
others yet; and had reviewed many records.
Hammock explained that Owens was born to an
eighteen-year-old single mother “who had very limited
resources” and “difficulty caring for her family,” J.A.
1552; that there was “a great deal of violence” in both
his family—largely emanating from his father and
stepfather, and often directed at his mother, his
siblings, and himself—and neighborhood alike, id.;
that he and his siblings were put in foster care when
he was four due to “abuse and neglect,” which didn’t
cease after his mother regained custody, id.; that there
was “a considerable amount” of incarceration, mental
illness, and substance abuse in his family, J.A. 1554;
and that he suffered from “significant learning
disabilities” and “educational deficits,” J.A. 1553. She
also stated that Owens was taught to fight “at a very
early age” and developed “the kind of coping strategies
that made him always on the defensive.” J.A. 1553-54.
She concluded by remarking that such troubled
upbringings have been shown to increase the
likelihood that a child will later engage in violent
crime.
Counsel’s second witness was Fain Cones Maag,
Owens’s third-grade teacher. She testified about
Owens’s “sparse”
and violence-ridden home
environment as well, J.A. 1562, relating that bullies
would often chase him around the neighborhood and
that, in response, his stepfather would lock him out in
order to teach him that he “had to fight,” J.A. 1563.
Maag also provided more detail about Owens’s
“learning deficiencies,” including his “tremendous

App-12
trouble” learning to read, J.A. 1562, while adding that
Owens “had some real gifts,” J.A. 1564.
Third up was Dr. Brawley. She testified about the
“battery” of neuropsychological tests she had
conducted to assess “how the different areas of
[Owens’s] brain [were] functioning” and the
conclusions she had drawn from them. J.A. 1573. In
this respect, Dr. Brawley testified that Owens had “a
history of lifelong problems with brain function” and
related “psychiatric issues,” such as impulsivity,
irritability, and depression; “some select areas of
deficit,” particularly in the verbal areas of the brain;
and a history of head injury. J.A. 1581. But on crossexamination, Dr. Brawley clarified that, in her
professional opinion, Owens’s cognitive defects didn’t
“rise to the level of . . . diagnosing him with . . . any
kind of brain syndrome” or “mental illness.” J.A. 158283. She also stated that she didn’t “put a whole lot of
clinical significance” on Owens’s head injuries. J.A.
1582.
Dr. Brawley was followed by Dr. Thomas Cobb, a
forensic psychiatrist with SCDOC who had been
treating Owens at Lieber since August 2005. Dr. Cobb
had diagnosed Owens with an unspecified anxiety
disorder; an unspecified impulse control disorder,
meaning “an inability to not react to something [in a
way] that may cause . . . harm” to oneself or another;
and Antisocial Personality Disorder, which he
attributed to Owens’s stunted emotional development,
and to which he attributed Owens’s impulsivity and
irritability. J.A. 1593. Dr. Cobb explained that he had
prescribed
Owens
the
powerful
psychiatric
medications that Dr. Schwartz-Watts had noticed in

App-13
order to treat these conditions, including Depakote,
which he was using in combination with Risperdal (a
drug commonly used to treat disorders like bipolarism
and schizophrenia) to stabilize Owens’s mood and give
his brain “time to think.” J.A. 1595. He concluded by
opining that these and other medications had worked
some improvement in Owens’s behavior.
Counsel’s fifth and final witness was Dr.
Schwartz-Watts. She opined that Owens’s “long
history of illegal behaviors” was rooted in his welldocumented impulsivity. And because Owens had “a
history of head injury” as well, Dr. Schwartz-Watts
considered whether his impulsivity was the result of
brain damage. But instead of brain damage, she
concluded that Owens’s impulsivity was the product of
three disorders: Attention Deficit Disorder, Dysthymic
Disorder (i.e., chronic depression), and Antisocial
Personality Disorder (in agreement with Dr. Cobb).
Dr. Schwartz-Watts also addressed how the
circumstances of Owens’s “developmental history” as
a young child, including his experiences with abuse,
neglect, and violence, had contributed to these
disorders, and therefore to Owens’s impulsiveness and
proclivity to violence. Id. Finally, Dr. Schwartz-Watts
echoed Dr. Cobb in opining that Owens had improved
since taking the medications that Dr. Cobb had
prescribed, and could continue to receive those
medications while in prison.
Owens’s third capital sentencing trial wrapped up
shortly after Dr. Schwartz-Watts’s testimony, and
that same day, the jury returned a verdict
unanimously finding both of the statutory aggravating
circumstances that the State had charged—”[t]hat the

App-14
murder was committed while in the commission” both
“of robbery while armed with a deadly weapon” and “of
larceny with the use of a deadly weapon”—and
recommending that Owens be sentenced to death. J.A.
1758, 1768, 1771; cf. S.C. Code Ann. § 16-320(C)(a)(1)(e), (f). The trial court entered judgment
accordingly.
This time on direct appeal, the Supreme Court of
South Carolina affirmed Owens’s capital sentence.
State v. Owens, 664 S.E.2d 80, 82 (S.C. 2008). The
United States Supreme Court then denied Owens’s
petition for writ of certiorari. Owens v. South
Carolina, 555 U.S. 1141 (2009).
E.
Owens then filed a pro se petition for postconviction relief in state court. Keir M. Weyble (of
Cornell Law School), who had worked on Owens’s
petition for certiorari, and Emily C. Paavola (then a
fellow of Cornell’s Death Penalty Project) (collectively
“Initial Postconviction Counsel”) were appointed to
represent Owens, and ultimately filed two amended
petitions on his behalf. The operative petition asserted
over a dozen separate grounds of ineffective
assistance, several of which have been consolidated
into the first two claims raised in Owens’s § 2254
petition.
The state postconviction court held an evidentiary
hearing on Owens’s petition. All but one of the
witnesses called at the hearing had participated in one
or more of Owens’s sentencing trials, including
Godfrey and Gibson, Drs. Schwartz-Watts and
Brawley, Owens’s previous counsel, and a mitigation

App-15
investigator named Drucy Glass, who had worked on
the first two trials.
The other witness, called by Initial Postconviction
Counsel, was Dr. James Garbarino, an expert in child
development. Dr. Garbarino, who had interviewed
Owens for four hours, testified about children’s
vulnerability to trauma and other “risk factors” that
have been shown to have a negative impact on a child’s
development and to increase the likelihood that a child
will later engage in violent crime. J.A. 2256. He opined
that Owens “had almost all of the risk factors that [he
had] ever read about.” J.A. 2267. He also related that
Owens had revealed during their interview that he
had been sexually abused several times as a child,
including during his time in SCDJJ custody, though
his official records didn’t document the abuse.
The state court denied Owens’s petition, for
reasons that we discuss below (to the extent relevant
here). See Owens v. State, No. 2009-CP-23-0741 (S.C.
Com. Pl. Feb. 13, 2013). The Supreme Court of South
Carolina denied Owens’s petition for writ of certiorari,
and Owens declined to seek a writ of certiorari from
the United States Supreme Court.
F.
Owens then commenced this federal habeas
action by moving in the district court to stay his
execution and appoint new counsel. The district court
granted the motions, and Owens’s new counsel
(“Federal Habeas Counsel”) filed the operative
petition for writ of habeas corpus pursuant to 28
U.S.C. § 2254.
Federal Habeas Counsel also filed a second
petition for postconviction relief in state court, raising

App-16
eight new ineffective-assistance claims, including the
defaulted claim raised in this appeal. While these new
claims would likely be (and later were) denied on
procedural grounds due to Owens’s failure to raise
them in his initial postconviction petition, Owens
could (and does) attempt to excuse the procedural
default in federal court by showing cause and
prejudice under Martinez and Coleman v. Thompson,
501 U.S. 722 (1991).
In further pursuit of Owens’s neuroimaging claim,
Federal Habeas Counsel obtained a comprehensive
neurobehavioral assessment of his brain from Dr.
Ruben C. Gur, an expert in brain behavior. Dr. Gur’s
assessment comprised structural and functional
neuroimaging using both Magnetic Resonance
Imaging (MRI) and Positron Emission Tomography
(PET) techniques.
Dr. Gur concluded that the neuroimaging showed
“abnormalities indicating brain damage” in regions of
the brain “important for regulating emotions and
behavior,” J.A. 4182, suggesting that Owens’s frontal
lobe was “unable to do its job and act as the brakes on
the primitive emotional impulses” emanating from his
“hyper-activated” amygdala, J.A. 4183. Dr. Gur’s
assessment was in turn reviewed by Dr. Stacey Wood,
a forensic neuropsychologist, whose independent
review and evaluation concurred that Owens “has
significant brain impairment” in his frontal lobe, J.A.
4200, resulting in “neuropsychological deficits related
to . . . executive functioning,” J.A. 4201.
After receiving the results of Drs. Gur’s and
Wood’s assessments, Federal Habeas Counsel filed an
amended § 2254 petition in the district court, adding

App-17
(among others) the defaulted neuroimaging claim.
They then moved to stay the § 2254 action pending the
state court’s resolution of Owens’s second petition,
which the district court granted. The state court
ultimately denied Owens’s second petition as
procedurally defaulted, and Owens didn’t appeal that
denial.
G.
Owens thereafter resumed proceedings in the
district court, where his operative § 2254 petition
asserted five exhausted grounds and seven
unexhausted grounds for relief. The State filed a
(second) motion for summary judgment, which was
initially considered by a magistrate judge. The
magistrate
judge
issued
a
Report
and
Recommendation (“R&R”) advising that the district
court grant summary judgment in favor of the State
and deny Owens’s petition and related motions for an
evidentiary hearing. Owens v. Stirling, No. 0:16-CV2512-TLW-PJG, 2018 WL 3104276, at *1 (D.S.C. Jan.
12, 2018). Owens objected to the R&R, but the district
court adopted it in full. Owens v. Stirling, No. 0:16-CV02512-TLW, 2018 WL 2410641, at *9, *45 (D.S.C. May
29, 2018). The court then denied Owens’s motion to
alter or amend the judgment. Owens v. Stirling, No.
0:16-CV-02512-TLW, 2018 WL 5720445, at *3 (D.S.C.
Nov. 1, 2018).
H.
We docketed Owens’s case on November 16, 2018.
On November 27, we granted Owens’s motion to
substitute counsel. Counsel thereafter sought a
certificate of appealability (“COA”), pursuant to 28
U.S.C. § 2253(c)(1), on the three claims raised here.

App-18
We granted the certificate as requested, indicating
that Owens had “demonstrate[d] ‘a substantial
showing of the denial of a constitutional right’” with
respect to each claim. See Miller-El v. Cockrell, 537
U.S. 322, 327 (2003) (quoting 28 U.S.C. § 2253(c)(1)).
This appeal followed.
II.
Owens’s § 2254 petition presents two exhausted
claims of ineffective assistance, meaning that the
state court rejected them on the merits. First, he
claims that Sentencing Counsel provided ineffective
assistance by failing to adequately investigate and
present available mitigating evidence about his
upbringing, family background, and general social
history. Second, he claims that counsel was ineffective
by failing to raise a readily viable Confrontation
Clause objection to the trial court’s admission of the
State’s record summarizing twenty-eight of his
disciplinary infractions while in custody.
We consider these claims in turn, “reviewing de
novo the district court’s denial of [Owens’s] petition”
with respect to each. Gray v. Zook, 806 F.3d 783, 790
(4th Cir. 2015). But we review the state postconviction
court’s denial of these claims only to the extent of
determining whether it involved an unreasonable
application of the Supreme Court’s clearly established
precedent. And we conclude that it didn’t.
A.
Our standard of review derives from the
Antiterrorism and Effective Death Penalty Act of 1996
(AEDPA), which circumscribes a federal court’s ability
to issue a writ of habeas corpus “on behalf of a person
in custody pursuant to the judgment of a State court.”

App-19
28 U.S.C. § 2254(d). Under AEDPA, a federal court
may not grant habeas relief on a claim that the state
postconviction court rejected on the merits unless that
court’s determination “was based on an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding,” id.
§ 2254(d)(2), or “was contrary to, or involved an
unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of
the United States,” id. § 2254(d)(1).
Owens relies on § 2254(d)(1), contending that the
state court’s decision involved an unreasonable
application of clearly established federal law under
the Supreme Court’s Strickland line of cases. A state
court’s decision involves an unreasonable application
of such clearly established law when the court
“identifies the correct governing legal rule from th[e
Supreme] Court’s cases but unreasonably applies it to
the facts of the particular state prisoner’s case.”
Williams v. Taylor, 529 U.S. 362, 407 (2000)
(O’Connor, J., delivering the opinion of the Court with
respect to Part II).
By “clearly established,” § 2254(d)(1) “refers to the
holdings, as opposed to the dicta, of th[e Supreme]
Court’s decisions as of the time of the relevant statecourt decision.” Id. at 412. And to be “unreasonable,”
the state court’s application of that law must be
“objectively unreasonable,” not simply incorrect.
Barnes v. Joyner, 751 F.3d 229, 238-39 (4th Cir. 2014);
see also Williams, 529 U.S. at 412 (“[A]n unreasonable
application of federal law is different from an incorrect
or erroneous application of federal law.”). Otherwise
stated, “[a] state court’s determination that a claim

App-20
lacks merit precludes federal habeas relief so long as
fairminded jurists could disagree on the correctness of
the state court’s decision.” Harrington v. Richter, 562
U.S. 86, 101 (2011) (cleaned up).
In enacting AEPDA, Congress thus recognized
that federal courts “owe state tribunals significant
deference” with respect to their determination that a
state prisoner isn’t entitled to habeas relief. Bennett v.
Stirling, 842 F.3d 319, 323 (4th Cir. 2016). Indeed,
AEDPA “reflects the view that habeas corpus is a
guard against extreme malfunctions in the state
criminal justice systems, not a substitute for ordinary
error correction.” Harrington, 562 U.S. at 102 (cleaned
up). While our standard of review by no means
“preclude[s] relief” or “impl[ies] abandonment or
abdication of judicial review,” Miller-El, 537 U.S. at
340, it does mean that we may not “second-guess the
reasonable decisions of state courts,” Renico v. Lett,
559 U.S. 766, 779 (2010).
Our deference in this case contains an additional
layer. For where, as here, a state prisoner claims
ineffective assistance of counsel as the basis for
habeas relief, we must review the claim through the
“highly deferential” lens of Strickland as well.
Richardson v. Branker, 668 F.3d 128, 139 (4th Cir.
2012) (cleaned up). AEDPA and Strickland thus
provide “dual and overlapping” lenses of deference,
which we apply “simultaneously rather than
sequentially.” Id. And because “[s]urmounting
Strickland’s high bar is never an easy task,” it is “all
the more difficult” to establish “that a state court’s
application of Strickland was unreasonable . . . under
§ 2254(d).” Morva v. Zook, 821 F.3d 517, 528 (4th Cir.

App-21
2016) (cleaned up). “This double-deference standard
effectively cabins our review” to determining “whether
there is any reasonable argument that counsel
satisfied Strickland’s deferential standard.” Id.
(cleaned up).
To establish ineffective assistance of counsel
under Strickland, a defendant must satisfy two
standards: (1) “that counsel’s performance was
deficient,” and (2) that counsel’s deficient performance
“prejudiced the defense.” 466 U.S. at 687. The first
prong, deficient performance, requires a showing “that
counsel’s representation fell below an objective
standard of reasonableness,” as measured by
“prevailing professional norms” and in light of “all the
circumstances” of the representation. Id. at 688. While
such professional norms may be “reflected in
American Bar Association [ABA] standards and the
like,” such guides are just that—”only guides”—for
determining
what
constitutes
reasonable
representation in a given case, id. at 688, and no fixed
set of rules may “take account of the variety of
circumstances faced by defense counsel,” id. at 688-89.
In assessing counsel’s performance, our scrutiny
“must be highly deferential.” Id. at 689. Because “[i]t
is all too tempting for a defendant to second-guess
counsel’s assistance after conviction or adverse
sentence,” and “all too easy for a court, examining
counsel’s defense after it has proved unsuccessful, to
conclude that a particular act or omission . . . was
unreasonable,” Strickland cautions that “[a] fair
assessment of attorney performance requires that
every effort be made to eliminate the distorting effects
of hindsight . . . and to evaluate the conduct from

App-22
counsel’s perspective at the time.” Id. We must
therefore “indulge a strong presumption that counsel’s
conduct falls within the wide range of reasonable
professional assistance.” Id. In all, the “critical
question”
is whether counsel’s
performance
“amounted to incompetence under prevailing
professional norms, not whether it deviated from best
practices.” Winston v. Pearson, 683 F.3d 489, 504 (4th
Cir. 2012) (cleaned up).
Once a defendant has established that counsel’s
performance was deficient, he must then prove that
counsel’s deficient performance prejudiced his defense
under Strickland’s second prong. In the effective
assistance context, prejudice means “a reasonable
probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different.” Strickland, 466 U.S. at 694. A reasonable
probability, in turn, is one “sufficient to undermine
confidence in the outcome.” Id. In the capital
sentencing context, “the question is whether there is a
reasonable probability that, absent the errors, the
sentencer . . . would have concluded that the balance
of aggravating and mitigating circumstances did not
warrant death.” Id. at 695.
With these dually deferential standards of review
firmly in mind, we turn now to consider Owens’s claim
of ineffective assistance.
B.
Owens contends that Sentencing Counsel was
ineffective by failing to adequately investigate and
present available mitigating evidence about his life
history. Most of his arguments here focus on counsel’s
allegedly “less than complete investigation,” such that

App-23
their choices about which mitigating evidence to
present could not have been the products of
“reasonable professional judgments.” See id. at 691.
Together with evidence that counsel allegedly
possessed but didn’t present, he asserts that a
reasonably complete “mitigation story” would have
“neutralized the State’s aggravating evidence by
explaining [his] behavior through the lens of his past
experiences.” Pet’r’s Br. 48.
The state postconviction court rejected Owens’s
claim, reasoning that counsel “conducted a thorough
investigation into potential mitigating evidence and
chose to present evidence that [they] thought would
favor Owens at trial.” J.A. 3704. While the court
observed that counsel didn’t discover or present every
iota of available mitigating evidence, it concluded that
they developed “a cogent mitigation case through the
testimony of Hammock, Schwartz-Watts, Cobb,
Brawley, and Maag,” which substantially covered all
of the evidence that Owens claims to have been left
out. J.A. 3707. The court also concluded that any
mitigating evidence that counsel failed to investigate
or present wasn’t prejudicial because the additional
evidence presented in the postconviction proceeding
“would [not] have struck a different balance” between
the total aggravating and mitigating evidence. J.A.
3705 (quoting Gray v. Branker, 529 F.3d 220, 238 (4th
Cir. 2008)).
We think that the state court reasonably applied
the Supreme Court’s holdings in determining that
counsel adequately investigated (and competently
presented) Owens’s mitigating evidence. Of course,
the Court has longed recognized that capital

App-24
sentencing counsel have an “obligation to conduct a
thorough
investigation
of
the
defendant’s
background,” Williams, 529 U.S. at 396, in an effort
“to discover all reasonably available mitigating
evidence,” Wiggins v. Smith, 539 U.S. 510, 524 (2003)
(cleaned up). But the issue turns on how “thorough”
the mitigation investigation must be. And here, the
Court’s cases indicate that the investigation need only
be reasonably thorough. See Strickland, 466 U.S. at
690-91 (equating capital sentencing counsel’s duty of
“thorough investigation” to “a duty to make
reasonable investigations” and noting that “[i]n any
ineffectiveness case, a particular decision not to
investigate
must
be
directly
assessed
for
reasonableness in all the circumstances”); cf. Wiggins,
539 U.S. at 533 (“Strickland does not require counsel
to investigate every conceivable line of mitigating
evidence . . . .”).
In Williams, for instance, the Court found (for the
first time in the capital sentencing context) the state
court’s denial of post-conviction relief unreasonable
under § 2254(d)(1) on the ground that counsel had
“failed to conduct” any investigation into the
defendant’s background. See 529 U.S. at 395. There,
counsel overlooked even the most basic available
mitigating
evidence
about
the
defendant’s
“nightmarish childhood,” id., including with respect to
his abusive and neglectful parents, his time in foster
care and the juvenile justice system, his borderline
intellectual disability, and his failure to advance past
sixth grade. Id. at 395-96. Instead, “the sole argument
in mitigation” that counsel advanced was that the
defendant had “turned himself in.” Id. at 398. And that
clearly wasn’t enough.

App-25
The Court reached the same conclusion in
Wiggins, on the basis that capital sentencing counsel
had abandoned their investigation of the defendant’s
background after reviewing just two sources—the
presentence report and certain records from the
Baltimore City Department of Social Services—and
thus failed to discover any evidence of his history of
severe sexual abuse, his diminished mental capacity,
and his frequent periods of homelessness. 539 U.S. at
524-35. Similarly, in Rompilla v. Beard, the Court
found it “obvious” that counsel’s performance “fell
below the level of reasonable performance,” where
they had failed “to look at any part” of the defendant’s
conviction file—”a public document[] readily available
for the asking at the very courthouse where [he] was
to be tried”—despite notice that the state intended to
introduce portions of the file as aggravating evidence.
545 U.S. 374, 383-84 (2005); see also Andrus v. Texas,
--- S. Ct. ----, No. 18-9674, 2020 WL 3146872, at *1
(U.S. June 15, 2020) (per curiam) (finding deficient
performance where counsel “failed even to look for”
evidence of the defendant’s “grim” life history); Porter
v. McCollum, 558 U.S. 30, 40 (2009) (per curiam)
(same where counsel “failed to uncover and present
any evidence of [the defendant’s] mental health or
mental impairment, his family background, or his
military service”).
In Bobby v. Van Hook, by contrast, the Supreme
Court
found
reasonable
the
state
court’s
determination that capital sentencing counsel had
adequately investigated the defendant’s mitigating
evidence under circumstances similar to those present
here. There, the Court emphasized that counsel had
interviewed the defendant’s parents, aunt, and “a

App-26
family friend whom [the defendant] visited
immediately after the crime,” id. at 9; consulted with
two expert witnesses (though not “an independent
mental-health expert,” id. at 6) “more than a month
before trial,” id. at 9; and reviewed the defendant’s
military and medical records, id.
The Court also underscored the evidence that
counsel discovered (and presented at trial) from their
investigation, including that the defendant’s parents
were heavy drinkers and that the defendant himself
“started drinking as a toddler,” id. at 10; that he “grew
up in a combat zone” and “watched his father beat his
mother weekly,” id. (cleaned up); that he “attempted
suicide five times,” id.; and that he suffered from
borderline personality disorder, id. at 11. In light of
such extensive mitigating evidence, the Court
reasoned that counsel’s failure “to find more” wasn’t
clearly deficient. Id. at 11-12.
This court has reached similar conclusions as
well. In Morva, for example, we found reasonable the
state court’s “decision on deficient performance” where
capital sentencing counsel had “hired a mitigation
expert,” interviewed many of the petitioner’s family
members, and presented thirteen witnesses (including
several mental-health experts) who testified about the
defendant’s absent and neglectful parents, his
“nomadic lifestyle and homelessness as a young
adult,” his “ongoing health problems,” and his
“odd . . . beliefs and behavior.” 821 F.3d at 529-30. We
held the same in DeCastro v. Branker, where counsel
had investigated the defendant’s “personal history” by
interviewing the defendant, his mother, and his aunt;
had reviewed his “school and criminal records”; had

App-27
“retained an investigator”; and had obtained a
psychiatric evaluation. 642 F.3d 442, 456 (4th Cir.
2011). And conversely, we’ve gone the other way in
cases where counsel’s investigation was significantly
lacking, such as where counsel altogether “failed to
investigate for mental health evidence.” See Gray, 529
F.3d at 229.
In light of these cases, the state postconviction
court’s conclusion that Sentencing Counsel’s
mitigation investigation was reasonably thorough
doesn’t warrant relief under our dually deferential
standards of review. Indeed, counsel’s efforts to
discover mitigating evidence far exceeded the efforts
made in Williams, Wiggins, Rompilla, and Porter,
more closely resembling (if not exceeding) those made
in Bobby.
Recall that counsel retained two investigators to
help discover Owens’s mitigating evidence, a clinical
social worker to help assemble Owens’s social history,
and two medical experts to help evaluate Owens’s
cognitive functioning. Altogether, this team
interviewed the majority of Owens’s immediate family
members, in addition to others (such as his thirdgrade teacher) who knew him during his formative
years; consulted numerous other experts, including
his treating psychiatrist; and reviewed extensive
family, school, medical, incarceration, and other
records. And it yielded testimony from five witnesses,
who painted a clear picture of Owens’s impoverished,
neglectful, and abusive childhood; his pervasive
exposure to violence, substance abuse, and
incarceration; and his various learning disabilities
and cognitive disorders.

App-28
Moreover, counsel undertook their investigation
with the benefit of two previous trials’ worth of
mitigating evidence to draw from, comprising several
case files and including an array of additional expert
perspectives. In light of all of this, the state court
reasonably determined that “[t]his is not a case in
which the defendant’s attorneys failed to act while
potentially powerful mitigation evidence” was
available, but rather one where their “decision not to
seek more . . . than was already in hand fell within the
range of professionally reasonable judgments.” See
Bobby, 558 U.S. at 11-12 (cleaned up).
We are also mindful that “the more general the
federal rule” in question, “the more leeway state
courts have in reaching outcomes in case-by-case
determinations.” Bennett, 842 F.3d at 322 (quoting
Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)
(alterations adopted)). Whereas the proper application
of a “specific” legal rule “may be plainly correct or
incorrect” in many cases, the contours of “more
general” rules or standards “must emerge in
application over the course of time,” thereby
demanding “a substantial element of judgment” in
many cases. Yarborough, 541 U.S. at 664. Here, we
think it plain that the Supreme Court’s thoroughness
standard is general enough that state postconviction
courts must use substantial judgment in applying it to
cases where counsel’s investigation is neither clearly
adequate nor clearly inadequate. We are therefore
confident that the state court’s judgment is entitled to
deference in this case.
We reject Owens’s counterarguments. In
particular, Owens complains that his lawyers waited

App-29
too long to begin investigating and delegated too much
of the responsibility to their team members. Yet the
nearly two months that counsel and their team spent
investigating far exceeded the one week at issue in
Williams, see 529 U.S. at 363, and roughly equaled the
amount of time in Bobby, see 558 U.S. at 9-10. And
especially because counsel had the benefit of two
trials’ worth of mitigating evidence to build from, the
amount of time they devoted to additional
investigation was reasonably sufficient.
Nor is this a case in which counsel “abdicated
their responsibility” for investigating Owens’s
mitigating evidence. See Winston, 683 F.3d at 505. As
our cases recognize, capital sentencing counsel “often
must necessarily rely on . . . investigators, experts,
and other members of the defense team to gather
essential evidence.” Winston v. Kelly, 784 F. Supp. 2d
623, 632 (W.D. Va. 2011), aff’d sub nom., Winston v.
Pearson, 683 F.3d 489 (2012). The corollary is that
counsel themselves must “be familiar with readily
available documents,” among other evidence,
“necessary to an understanding of [the defendant’s]
case.” Winston, 683 F.3d at 505 (cleaned up).
That’s precisely what happened here. While
counsel employed a team of specialists to gather
Owens’s available mitigating evidence, they closely
supervised the team’s efforts and familiarized
themselves with the findings. Gibson’s and Godfrey’s
time sheets indicate that they each spent many hours,
especially during the two months before trial,
studying their team members’ files (in addition to the
files from Owens’s previous sentencing trials),
discussing trial strategy with them, and preparing

App-30
them for examination. This case is thus unlike
Winston, on which Owens relies and in which counsel
failed to discover that the defendant had an IQ of 66
because they altogether “neglect[ed] to review” the
school records obtained by their boots on the ground.
See id.
We likewise reject Owens’s complaint that counsel
failed to discover an array of available mitigating
evidence. Though Owens contends that counsel
neglected to obtain the social chronology prepared by
Drucy Glass (a mitigation investigator who had
worked with Hammock) during Owens’s previous
sentencing trial, the record indicates the contrary;
indeed, Hammock’s testimony about Owens’s family
history and time in foster care touched upon many of
the details contained in Glass’s chronology and
accompanying
records.
Owens
similarly
mischaracterizes the record in asserting that counsel
failed to investigate the marginal economic conditions
in which his family survived and the violence that
riddled his neighborhood. To the contrary, counsel
elicited testimony from multiple witnesses about both
of these circumstances, which permeated their
presentation.
The record similarly belies Owens’s contention
that Sentencing Counsel failed to look into the horrific
conditions of confinement during his period of
incarceration at SCDJJ or the sexual abuse he
experienced there. Though (as we discuss below)
counsel declined to have Dr. Schwartz-Watts present
much testimony about Owens’s time in juvenile
detention, it’s clear that she investigated the topic by
interviewing Owens and reviewing his SCDJJ records,

App-31
including mental-health records from his treating
psychiatrist. Dr. Schwartz-Watts and Godfrey were
also both aware of the high-profile class-action lawsuit
over the conditions of confinement during Owens’s
time there, which resulted in a judgment against
SCDJJ. 1 And Godfrey himself went to one of the
facilities not only to discuss the lawsuit with the very
lawyer who filed it, but also to observe the “horrible”
conditions for himself. J.A. 2199.
As to sexual abuse, Drs. Schwartz-Watts and
Brawley alike testified that they “specifically” asked
Owens whether he had ever experienced it, whether at
SCDJJ or elsewhere, J.A. 2402, and Dr. SchwartzWatts also looked for evidence of sexual abuse in
Owens’s records. Yet Owens “denied” having been
sexually abused to each of them, J.A. 2383, and none
of his records, including his SCDJJ records, contained
evidence of such abuse. Counsel can thus hardly be
faulted for not discovering evidence that didn’t come
to light until Owens revealed it during his
postconviction interview with Dr. Garbarino.
Owens fares no better in complaining that his
lawyers failed to consult with appropriate experts.
Specifically, Owens suggests that counsel should have
retained an expert like Dr. Garbarino to testify about
The district court ultimately held that SCDJJ’s facilities were
marred by numerous “constitutional and statutory deficiencies”
and ordered the state to adopt a remedial plan. Alexander S. ex
rel. Bowers v. Boyd, 876 F. Supp. 773, 804 (D.S.C. 1995), as
modified on denial of recons. (Feb. 17, 1995); cf. Davis v. Boyd,
No. 96-2540, 1997 WL 355626, at *1 (4th Cir. June 27, 1997) (per
curiam) (discussing some of the remedial measures that the
district court approved on June 28, 1995).
1

App-32
the relation between Owens’s traumatic childhood and
his violent behavior. But the Court has never held that
counsel is obligated to consult experts, let alone a
particular kind of expert, in developing a mitigation
case. While the Court has “assumed that in some cases
counsel would be deemed ineffective for failing to
consult or rely on experts” at all, it has cautioned that
“[r]are are the situations” in which counsel’s “wide
latitude . . . in making tactical decisions will be
limited to any one technique or approach.”
Harrington, 562 U.S. at 106 (cleaned up).
Here, the state postconviction court reasonably
found that counsel consulted an appropriate array of
mental-health experts—at least two of whom, in any
event, did testify (to some extent) about the link
between Owens’s background and his behavior. Even
assuming it would have been “best practices” to
consult a child-development expert as well,
professional norms didn’t compel that approach. See
Winston, 683 F.3d at 504.
To the extent Owens complains that counsel failed
to present mitigating evidence within their
possession, we reject this argument as well. Owens
advances two points in this respect. First, he contends
that counsel should have presented evidence of the
conditions of confinement during his time in SCDJJ
custody. But the state postconviction court reasonably
concluded that counsel’s decision not to present such
evidence was the product of reasonable professional
judgment. Godfrey testified that he didn’t introduce
evidence about the conditions at SCDJJ for two
reasons: because it would have “opened the door” to
evidence of Owens’s “numerous” disciplinary

App-33
violations, J.A. 2201; and because its probative value
would have been “difficult . . . to . . . sell a jury on,”
J.A. 2199. While others might have judged differently,
we think counsel judged with reasonable competence
in avoiding such “double-edged” evidence. See Gray,
529 F.3d at 239.
Second, and more generally, Owens contends that
counsel should have presented his mitigation story in
far greater detail. But regardless of whether such
detail would have made for a more compelling
narrative, the fact that it would have been “merely
cumulative to the evidence actually heard by the
jury . . . undercuts [Owens’s] claim for deficient
performance.” See Morva, 821 F.3d at 530. The
Supreme Court has likewise rejected the notion that
counsel must tell a defendant’s life history with
elaborative detail, reasoning that where (as here)
counsel put forth “substantial mitigation evidence,”
any
cumulative evidence
about the
same
circumstances heard by the jury offers “an
insignificant benefit, if any at all.” See Wong v.
Belmontes, 558 U.S. 15, 23 (2009) (per curiam); cf.
Bobby, 558 U.S. at 11 (“[T]here comes a point at which
evidence from more distant relatives can reasonably
be expected to be only cumulative . . . .”).
The cases on which Owens relies in this respect
are distinguishable because none rested on merely
“superficial” or “generalized” presentations. See Pet’r’s
Br. 43. Rather, in each of them, our sister circuits
emphasized that the jury had “heard nothing” at all
about substantial mitigating evidence. Outten v.
Kearney, 464 F.3d 401, 421 (3d Cir. 2006); see also
Powell v. Collins, 332 F.3d 376, 399-400 (6th Cir.

App-34
2003) (counsel “fail[ed] to make even a limited
investigation”); Cargle v. Mullin, 317 F.3d 1196, 122122 (10th Cir. 2003) (counsel overlooked “significant
mitigating information,” including that the defendant
had learning difficulties and that his father was
abusive); Neal v. Puckett, 286 F.3d 230, 240 (5th Cir.
2002) (en banc) (counsel failed to discover similar
“readily available” mitigating facts because they had
no “time or money” to do so); Jermyn v. Horn, 266 F.3d
257, 308-09 (3d Cir. 2001) (counsel “fail[ed] to
investigate the circumstances of [the defendant’s]
childhood,” including “allegations of childhood
abuse”). The same cannot be said here.
Finally, we think the state postconviction court
also reasonably concluded that any deficiency in
Sentencing Counsel’s investigation or presentation
wasn’t prejudicial in light of the total balance of
aggravating and mitigating evidence. As the court
observed, the State presented overwhelming evidence,
not only that Owens satisfied both statutory
aggravating circumstances charged, but also of his
future dangerousness and inability to adapt to
incarceration. Weighed against such aggravating
evidence, the additional mitigating evidence that
Owens contends counsel should have discovered and
presented—nearly all of which, as noted, was either
doubled-edged or cumulative—would indeed “have
offered an insignificant benefit, if any at all.” See
Wong, 558 U.S. at 23. We thus defer to the state court
on this ground as well.
C.
Owens next contends that Sentencing Counsel
were ineffective by failing to object on Confrontation

App-35
Clause grounds to the trial court’s admission of the
State’s record summarizing twenty-eight of his
disciplinary infractions while in SCDOC custody.
Owens argues that counsel should have so objected
because the Supreme Court clearly established his
right to confront the authors of his disciplinary record
in Crawford v. Washington, 541 U.S. 36 (2004), Davis
v. Washington, 547 U.S. 813 (2006), and MelendezDiaz v. Massachusetts, 557 U.S. 305 (2009). And he
asserts that the state court unreasonably applied
these cases in concluding to the contrary.
The Confrontation Clause provides that “[i]n all
criminal prosecutions, the accused shall enjoy the
right . . . to be confronted with the witnesses against
him.” U.S. Const. amend. VI. The “ultimate goal” of
this safeguard being “to ensure reliability of evidence,”
the Confrontation Clause “commands, not that
evidence [necessarily] be reliable, but that reliability
be assessed in a particular manner: by testing in the
crucible of cross-examination.” Crawford, 541 U.S. at
61. Under the Supreme Court’s seminal decision in
Crawford, the Confrontation Clause accomplishes this
goal by barring the admission of “[t]estimonial” out-ofcourt statements made by declarants unavailable for
trial unless the defendant “had a prior opportunity to
cross-examine” the declarant. Id. at 59.
The state court held that Owens was “unable to
establish deficient performance” on this claim because
the disciplinary record was a “non-testimonial
business record[]” that did “not implicate the
Confrontation Clause.” J.A. 3700-01. And the court
reasoned that the business record was nontestimonial
because it wasn’t “prepared in anticipation of

App-36
producing testimony at [Owens’s] trial, but rather in
accordance with South Carolina statutory law for the
administration of prison affairs.” J.A. 3701-02 (citing,
inter alia, S.C. Code Ann. § 24-21-70). The court also
held that any deficiency in counsel’s failure to object
wasn’t prejudicial in light of the “overwhelming
evidence of Owens’[s] future dangerousness, bad
character, and inability to adapt to prison life,”
including testimony about many of the same
disciplinary infractions. J.A. 3703.
We believe the state court’s decision reasonably
applied the standard that a plurality of the Supreme
Court articulated in Melendez-Diaz for determining
whether a business record implicates the
Confrontation Clause. Melendez-Diaz was the first
case in which the Court applied Crawford’s novel
“testimonial” standard to a document and potential
business record. The records at issue there were
certain “certificates of analysis,” which the plurality
likened to affidavits, “showing the results of [a]
forensic analysis” performed on a white substance
(which proved to be cocaine) that police had seized
from the defendant’s vehicle. See Melendez-Diaz, 557
U.S. at 308 (plurality opinion). In holding that there
was “little doubt” these affidavits fell within the “‘core
class of testimonial statements’” first outlined in
Crawford, id. at 310 (quoting 541 U.S. at 51), the
Court emphasized that their “sole purpose” under
state law “was to provide prima facie evidence” in the
defendant’s criminal trial, id. at 311 (cleaned up); see
also United States v. Cabrera-Beltran, 660 F.3d 742,
752 (4th Cir. 2011) (noting that the Court’s holding
“relied heavily on the fact that the affidavits at issue
were specifically created for trial purposes”).

App-37
The limited effect of Melendez-Diaz’s holding with
respect to business records is evident where the
plurality rejected the defendant’s argument that the
affidavits were categorically nontestimonial because
they “qualif[ied] as traditional . . . business records”
under Fed. R. Evid. 803(6). See 557 U.S. at 321. In this
respect, the plurality held that even assuming the
affidavits were business records, such records are
nonetheless “testimonial” for purposes of the
Confrontation Clause “if the regularly conducted
business activity is the production of evidence for use
at trial.” Id. In other words, while business records
“are generally admissible absent confrontation . . .
because—having been created for the administration
of an entity’s affairs and not for the purpose of
establishing or proving some fact at trial—they are not
testimonial,” that isn’t so where the business records
were “prepared specifically for use at petitioner’s
trial.” Id. at 324. 2
In light of that reasoning, we have understood
Melendez-Diaz to establish the principle that a
business record is “testimonial” only if the record was
created primarily for the purpose of “proving some fact
at trial.” See Cabrera-Beltran, 660 F.3d 752 (quoting
Before Crawford, the Court’s prevailing interpretation of the
Confrontation Clause exempted extra judicial statements by
unavailable declarants as long as they bore “adequate indicia of
reliability.” See Ohio v. Roberts, 448 U.S. 56, 66 (1980) (cleaned
up), abrogated by Crawford, 541 U.S. 36. Because adequate
indicia of reliability could be established where the statements
fell “within a firmly rooted hearsay exception,” id., the right of
confrontation didn’t attach to business records under Roberts, cf.
Fed. R. Evid. 803(6) (setting forth the traditional business
records exception to the rule against hearsay).
2

App-38
Melendez-Diaz, 557 U.S. at 324). Our sister circuits
have tended to agree. See, e.g., United States v. Garcia,
887 F.3d 205, 213 (5th Cir. 2018); United States v.
Lorenzo-Lucas, 775 F.3d 1008, 1010 (8th Cir. 2014);
United States v. James, 712 F.3d 79, 94-96(2d Cir.
2013);United States v. Cameron, 699 F.3d 621, 640
(1st Cir. 2012);United States v. Smith, 640 F.3d 358,
363 (D.C. Cir. 2011); United States v. Yeley-Davis, 632
F.3d 673, 679 (10th Cir. 2011); United States v.
Orozco-Acosta, 607 F.3d 1156, 1163 (9th Cir. 2010).
Indeed, even an apparent majority of the Supreme
Court—including the late Justice Scalia, who
authored the plurality opinion in Melendez-Diaz—has
since adhered to the view that business records “are
testimonial and require confrontation” only when they
were “prepared specifically for use at a criminal trial.”
See Michigan v. Bryant, 562 U.S. 344, 392 (2011)
(Scalia, J., dissenting); id. at 358, 359 (plurality
opinion) (noting that “when a statement is not
procured with a primary purpose of creating an out-ofcourt substitute for trial testimony,” its admissibility
“is the concern of state and federal rules of evidence,
not the Confrontation Clause”); see also Bullcoming v.
New Mexico, 564 U.S. 647, 669-70 (2011) (Sotomayor,
J., concurring in part and concurring in the judgment)
(“Melendez-Diaz explained that . . . documents kept in
the regular course of business may ordinarily be
admitted at trial despite their hearsay status, except
if the regularly conducted business activity is the
production of evidence for use at trial.” (cleaned up)).
In light of this broad consensus, the state court
reasonably applied the Supreme Court’s holdings in
stating that a business record isn’t testimonial unless

App-39
it was “prepared in anticipation of producing
testimony
at
trial”
rather than for the
“administration” of the entity’s “affairs.” J.A. 3701-02.
The court also reasonably determined that Owens’s
disciplinary record was prepared “for the
administration of prison affairs” rather than “in
anticipation of producing testimony” in any of his
trials. Id.
Specifically, South Carolina law provides that, for
any prisoner confined in the state penitentiary, the
Department of Corrections “must keep a record of the
industry, habits, and deportment of the prisoner, as
well as other information requested by the board [of
probation] or the director [of the department] and
furnish it to them upon request.” S.C. Code Ann. § 2421-70. As Owens concedes, the record was thus
prepared in the ordinary course of the prison’s
business, pursuant to its obligation under state law “to
furnish upon request records of an inmate’s
deportment.” Pet’r’s Br. 63. And while Owens points
out that the record could be admitted in a criminal
trial, see State v. Whipple, 476 S.E.2d 683, 687-88 (S.C.
1996), that alone doesn’t suffice to trigger the
protection of the Confrontation Clause under the
Supreme Court’s clearly established law. 3
Owens’s counterarguments are unavailing. Above
all, Owens is wrong to assert that Melendez-Diaz
3 Because we uphold the state postconviction court’s reasoning
under § 2254(d)(1), we needn’t address the parties’ additional
dispute over whether the Confrontation Clause applies to capital
sentencing trials such as Owens’s, in which the jury is invited to
find additional aggravating facts that would support a death
sentence.

App-40
clearly established the principle that any declaration
“made under circumstances which would lead an
objective witness reasonably to believe that the
statement would be available for use at a later trial”
is testimonial. See 557 U.S. at 310 (quoting Crawford,
541 U.S. at 52). While the plurality did quote that
broader “‘formulation[] of th[e] core class of
testimonial statements’” from Crawford in passing, id.
(quoting 541 U.S. at 51), its holding (to reiterate)
rested on the fact that the affidavits were prepared for
“the sole purpose” of being used at trial, id. at 311. And
while some judges have suggested that the broader
formulation should apply to business records, see
James, 712 F.3d at 108 (Eaton, J., concurring), such a
view is far from clearly established.
Owens further misses the mark in attributing this
broader definition to Crawford itself. To the contrary,
Crawford referred to statements “made under
circumstances which would lead an objective witness
reasonably to believe that the statement would be
available for use at a later trial,” 541 U.S. at 52
(cleaned up), as merely one of the “[v]arious
formulations of th[e] core class of ‘testimonial’
statements” proposed in that case by the parties and
their amici, id. at 51. But Crawford declined to adopt
any of those formulations as law, reasoning that the
statements at issue “qualif[ied] under any definition.”
Id. at 52.
Similarly, in contending that Davis stands for the
principle that any statement whose “primary
purpose . . . is to establish or prove past events
potentially relevant to a later prosecution” is
testimonial, 547 U.S. at 822, Owens divorces the

App-41
Court’s language from its narrow context. Like
Crawford, Davis involved the kind of statements that
traditionally implicated the Confrontation Clause—
those made by an eyewitness to a crime “in response
to police interrogation.” See id. Read in this context,
the language on which Owens relies serves only to
differentiate amongst such statements based on
whether or not they were made “to enable police
assistance to meet an ongoing emergency.” See id. at
828.
Indeed, because Crawford and Davis both dealt
only “with ordinary witnesses,” neither case clearly
established more than the proposition “that formal
statements made by a conventional witness—one who
has personal knowledge of some aspect of the
defendant’s guilt—may not be admitted without the
witness appearing at trial to meet the accused face to
face.” See Melendez-Diaz, 557 U.S. at 330-31
(Kennedy, J., dissenting). Accordingly, because none
of these cases hold that Owens’s disciplinary record,
as a business record, implicates the Confrontation
Clause, the state court reasonably concluded that
Sentencing Counsel’s failure to raise such an objection
wasn’t deficient.
We likewise conclude that the state court
reasonably determined that any deficiency in
counsel’s failure to so object wasn’t prejudicial in light
of the overwhelming evidence of Owens’s future
dangerousness and inability to adapt to incarceration.
Such evidence included testimony not only about
Owens’s killing of his fellow inmate on the eve of his
first sentencing trial, but also about many of the same
infractions summarized in the disciplinary record. In

App-42
this respect, several of counsel’s own witnesses,
especially Dr. Cobb, opened the door to testimony
about Owens’s ongoing disciplinary problems upon
cross-examination
by
testifying
about
his
improvements. It’s thus debatable at best that
Owens’s disciplinary record prejudiced the outcome of
his third sentencing trial.
To sum up, the district court properly concluded
that the state postconviction court reasonably applied
the Supreme Court’s precedents in denying each of
Owens’s exhausted Strickland claims. We turn now to
consider his unexhausted Strickland claim.
III.
Owens’s procedurally defaulted claim of
ineffective assistance brings us back to the
investigation of his mitigation case. Here, Owens
requests an evidentiary hearing in the district court
on the merits of his claim that Sentencing Counsel was
ineffective by failing to obtain a comprehensive
neuroimaging evaluation, which revealed evidence of
structural and functional brain damage in 2016. Yet
because Owens neglected to present this claim in his
initial postconviction petition, he must demonstrate
cause and prejudice under Martinez and Coleman to
obtain a hearing. And despite implying the contrary
conclusion when we granted the COA, we agree with
the district court that Owens fails to demonstrate
cause because his underlying claim is insubstantial.
We therefore deny his request.
A.
We start by describing the cause-and-prejudice
standard, which reflects the well-established principle
that “[f]ederal habeas courts reviewing the

App-43
constitutionality of a state prisoner’s conviction and
sentence are guided by rules designed to ensure that
state-court judgments are accorded the finality and
respect necessary to preserve the integrity of legal
proceedings within our system of federalism.” See
Martinez, 566 U.S. at 9. Chief among such rules is “the
doctrine of procedural default, under which a federal
court will not review the merits of claims, including
constitutional claims, that a state court declined to
hear because the prisoner failed to abide by a state
procedural rule.” Id. As a result, a state court’s
“invocation of a [state] procedural rule to deny a
prisoner’s claims precludes federal review of the
claims” so long as the state procedural rule is
“adequate to support the judgment,” is “firmly
established,” and has been “consistently followed.” Id.
Of course, “[t]he doctrine barring procedurally
defaulted claims from being heard is not without
exceptions.” Id. at 10. As relevant here, in Coleman
the Supreme Court held that where “a state prisoner
has defaulted his federal claims in state court
pursuant to an independent and adequate state
procedural rule,” a federal habeas court may
nonetheless entertain the claim if “the prisoner can
demonstrate cause for the default and actual prejudice
as a result of the alleged violation of federal law.” 501
U.S. at 750. The Court also held that a state prisoner
may establish cause by establishing that his attorney’s
assistance was “constitutionally ineffective under the
standard established in Strickland v. Washington.” Id.
at 752 (cleaned up). But the Court proceeded to curtail
the effect of these rules by further holding that
ineffectiveness on the part of a state prisoner’s counsel
in a postconviction proceeding doesn’t qualify as cause,

App-44
reasoning that because the Sixth Amendment doesn’t
obligate states to provide counsel beyond direct
review, the prisoner “bears the risk” of any errors by
postconviction counsel. Id. at 754.
In Martinez, however, the Court found it
necessary to “qualif[y]” Coleman’s holding that
postconviction counsel’s errors don’t qualify as cause
to excuse a procedural default. 566 U.S. at 9. After all,
not only do such errors literally cause the default, but
there would otherwise be no remedy available to
review the prisoner’s claims. See id. at 10-11. Martinez
thus announced the following “narrow exception,” id.
at 9: “Where, under state law, claims of ineffective
assistance of trial counsel must be raised in an initialreview collateral proceeding, a procedural default will
not bar a federal habeas court from hearing a
substantial claim of ineffective assistance at trial if, in
the initial-review collateral proceeding, there was no
counsel or counsel in that proceeding was ineffective,”
id. at 17.
Otherwise stated, a state prisoner may establish
cause under Martinez by showing (1) that the
defaulted ineffective-assistance-of-trial-counsel claim
is “substantial,” (2) that counsel in the initial state
collateral-review proceeding was ineffective or absent,
and (3) that state law required the ineffectiveassistance-of-trial-counsel claim to be raised in the
initial collateral-review proceeding as opposed to on
direct review. See Trevino v. Thaler, 569 U.S. 413, 423
(2013). A “substantial claim” is one that has “some
merit,” a standard that the Martinez Court likened to
the one that governs the issuance of COAs under 28
U.S.C. § 2253(c)(2). See Martinez, 566 U.S. at 14

App-45
(citing Miller-El, 537 U.S. 322); cf. Miller-El, 537 U.S.
at 327 (noting that a prisoner must “demonstrate ‘a
substantial showing of the denial of a constitutional
right’” (quoting 28 U.S.C. § 2253(c)(2)).
A few of our sister circuits have remarked an
apparent incongruity lurking in the Martinez
standard. To establish that postconviction counsel’s
errors “caused prejudice under Strickland,” a state
prisoner would have to show that counsel “could have
obtained a different result had he presented the nowdefaulted
ineffective-assistance-of-trial-counsel
claim.” Workman v. Superintendent Albion SCI, 915
F.3d 928, 938 (3d Cir. 2019). To do that, however, a
state prisoner would have to show that the defaulted
claim is itself meritorious. Id. at 938-39; accord Brown
v. Brown, 847 F.3d 502, 513 (7th Cir. 2017). In other
words, Martinez appears to require a state prisoner to
prevail on the merits of his underlying claim merely
“to excuse the procedural default” and “obtain
consideration on the merits.” Workman, 915 F.3d at
939.
These sister circuits have understandably
“rejected that notion.” See id. at 940. Instead, they
have reasoned that a state prisoner satisfies Martinez
by showing, first, that initial postconviction counsel
performed deficiently, under the first prong of
Strickland, by failing to exhaust the underlying
ineffective-assistance-of-trial-counsel claim, but not
that said counsel’s deficient performance was
prejudicial, under the second prong of Strickland; and
second, that the underlying claim is substantial, or
has some merit, with respect to both prongs of
Strickland. Id.; accord Brown, 847 F.3d at 513.

App-46
We agree with our sister circuits that this rule “is
sensible, workable, and a proper reading of Martinez.”
Workman, 915 F.3d at 941. Accordingly, to establish
cause to excuse the procedural bar to his underlying
ineffective-assistance-of-Sentencing-Counsel claim,
Owens must show (1) that the underlying claim is
substantial and (2) that Initial Postconviction
Counsel’s failure to raise it was deficient. 4 We turn
now to this inquiry.
With respect to the first of these showings, Owens
echoes the petitioner in Brown by contending that we
“have already determined that his defaulted
ineffective assistance of trial counsel claim is
substantial under Martinez” by granting his COA with
respect to it. See 847 F.3d at 515. If so, that begs the
question of whether we are bound by that prior
determination under the “law of the case” doctrine,
which “posits that when a court decides upon a rule of
law, that decision should continue to govern the same
issues in subsequent stages in the same case,”
Christianson v. Colt Indus. Operating Corp., 486 U.S.
800, 816 (1988) (cleaned up), including with respect to
“an earlier decision of a panel of an appellate court,”
United States v. Houser, 804 F.2d 565, 567 (9th Cir.
1986).
We recently held that South Carolina law satisfies the
remaining element of Martinez by requiring ineffectiveassistance claims to be raised on collateral review, Sigmon v.
Stirling, 956 F.3d 183, 198 (4th Cir. 2020), and the State doesn’t
argue otherwise here. Additionally, because we find that Owens
fails to establish cause under Martinez, we needn’t address
whether he satisfies the prejudice prong of Coleman. Cf.
Martinez, 566 U.S. at 18 (stating that “the question of prejudice”
remained open on remand).
4

App-47
Our sister circuit sidestepped this issue in Brown,
finding that Martinez didn’t elucidate the nature of its
substantiality standard and noting that other circuits
have offered “limited further guidance.” See 847 F.3d
at 515; cf. Martinez, 566 U.S. at 21 n.2 (Scalia, J.,
dissenting) (“The Court does not explain where this
substantiality standard comes from . . . .”). The court
observed that, while Martinez cited to Miller-El in
discussing its substantiality standard, it did so with
an ambiguous “cf.” signal, and without clarifying how
the two standards relate to each other. See Brown, 847
F.3d at 515. So the court opted to “conduct a separate
and deeper review of the record, beyond [its] grant of
a [COA],” and reaffirm thereby that the underlying
claim was “substantial” under Martinez. Id.
The only other circuit that appears to have
identified this issue likewise declined to resolve it. See
Dansby v. Hobbs, 766 F.3d 809, 840 n.4 (8th Cir. 2014)
(assuming the two standards are identical but positing
that the denial of certain underlying claims as
insubstantial under Martinez “may be construed as
the revocation of the COA as to those claims”). Yet
while other circuits haven’t squarely addressed it,
several have suggested that Martinez incorporated the
standard for issuing a COA under § 2253(c)(2) into its
definition of substantiality. See Workman, 915 F.3d at
937-38; Flores v. Stephens, 794 F.3d 494, 505 (5th Cir.
2015).
For our part, we think the Supreme Court’s cases
with respect to § 2253(c)(1) bear out Owens’s assertion
that the Martinez substantiality standard is identical
to the one we implicitly resolved in his favor by
granting the COA. As the Court “reiterate[d]” in

App-48
Miller-El,
a
prisoner
satisfies
§ 2253(c)(1)’s
substantiality standard “by demonstrating that
jurists of reason could disagree with the district
court’s resolution of his constitutional claims.” 537
U.S. at 327 (citing Slack v. McDaniel, 529 U.S. 473,
484 (2000)). And in Slack, the Court held how that
standard (which derives from the Court’s pre-AEDPA
decision in Barefoot v. Estelle, 463 U.S. 880 (1983))
applies to a claim that the district court “dismissed on
procedural grounds.” 529 U.S. at 484. In that instance,
a COA may issue only if the prisoner shows “that
jurists of reason would find it debatable” both
“whether the district court was correct in its
procedural ruling” and “whether the petition states a
valid claim of the denial of a constitutional right.” Id.
In other words, Slack requires a prisoner to
demonstrate a “substantial underlying constitutional
claim[]” to warrant a COA under § 2253(c)(1). Id.
(emphasis added).
That the underlying constitutional claim “is a
substantial one” is precisely the showing that Owens
must now make (again) to show cause under Martinez.
See 566 U.S. at 14. Simply put, both standards turn on
whether the claim underlying the procedural default
is “substantial.” And while Martinez phrases that
inquiry in terms of the claim’s having “some merit,”
see id., whereas Slack phrases the inquiry in terms of
“reasonable jurists” being able to debate the claim’s
validity, see 529 U.S. at 484, we see little daylight
between those formulations. If reasonable jurists
could debate the merits of the underlying claim, then
it must have (at least) some merit.

App-49
That said, we don’t think this apparent
redundancy between the Martinez and § 2253(c)(1)
substantiality
standards
precludes
us
from
reconsidering the merit of Owens’s underlying claim
at this stage of the case. As the Supreme Court has
recognized, the law of the case doctrine “merely
expresses the practice of courts generally to refuse to
reopen what has been decided, not a limit to their
power.” Messenger v. Anderson, 225 U.S. 436, 444
(1912). The doctrine is therefore “discretionary” rather
than “mandatory,” and admits of a variety of
exceptions. See CNF Constructors, Inc. v. Donohoe
Const. Co., 57 F.3d 395, 398 n.1 (4th Cir. 1995); accord
Houser, 804 F.2d at 567. In the context of an earlier
decision of a panel of an appellate court, our sister
circuits have acknowledged the ability to reconsider a
ruling “on the same issue presented in the same action
if a showing is made which compels us to reconsider
our prior decisions.” See Houser, 804 F.2d at 568. We
too have done so in the context of “a prior ruling of a
motion panel,” which is essentially what we have here.
See CNF Constructors, 57 F.3d at 398 n.1.
In the Martinez context, we think ourselves
warranted in reconsidering the substantiality of the
underlying claim for three reasons. First and
foremost, the substantiality standard implicates our
very “jurisdiction to consider [Owens’s] appeal,” an
issue that circuit courts have tended to view as
immune from the law of the case doctrine in light of
our “duty . . . to dismiss whenever it becomes
apparent that we lack jurisdiction.” See Houser, 804
F.3d at 568-69 (cleaned up); accord CNF Constructors,
57 F.3d at 397 n.1; Johnson v. Burken, 930 F.2d 1202,
1205 (7th Cir. 1991); EEOC v. Neches Butane Prods.

App-50
Co., 704 F.2d 144, 147 (5th Cir. 1983); Green v. Dep’t
of Commerce, 618 F.2d 836, 839 n.9 (D.C. Cir. 1980).
True, the standard is jurisdictional in the technical
sense only with respect to the Slack iteration, since
§ 2253(c)(1) provides that “an appeal may not be
taken” from a final order dismissing a § 2254 petition
“[u]nless a circuit justice or judge issues a certificate
of appealability.” 28 U.S.C. § 2253(c)(1). Yet the
Martinez iteration might be viewed similarly as
“quasi-jurisdictional” insofar as no federal court may
consider the merits of a defaulted claim until the
procedural bar is excused. See Martinez, 566 U.S. at 910; cf. Champagne v. Schlesinger, 506 F.2d 979, 982
(7th Cir. 1974) (noting that “exhaustion is a quasijurisdictional problem”). And whether framed as
rescinding the COA (as suggested by our sister circuit
in Dansby) or simply denying the claim under
Martinez, our ability to reconsider the issue leads to
the same result.
Second, as is often the case with the ruling of a
“preliminary” panel, “practical realities” required us
to rule on the COA “without the benefit of full briefing
and oral argument,” which prevented the relevant
arguments from being “fully present[ed]” to us. See
CNF Constructors, 57 F.3d at 397 n.1. Indeed, we
granted the COA based solely on Owens’s opening
brief, without the benefit of any briefing by the State
(not to mention oral argument). See Local R. App. P.
22. And reflecting the “provisional” nature of that
ruling, our order was not only unpublished but also
“without opinion,” which furthers weighs against its
tying our hands under Martinez. See EEOC, 704 F.2d
at 147. Thus, while a merits panel “does not lightly”
revisit an earlier panel decision “during the course of

App-51
the same appeal,” we have more leeway to do so here,
where the issue didn’t receive a “[f]ull review” until
after the COA had issued. See Houser, 804 F.2d at 568.
And third, the very fact that Martinez directs us
to address an issue we already confronted when
deciding whether to grant a COA leaves us no doubt
that we may reconsider the substantiality of the
underlying claim. By citing Miller-El in discussing its
cause standard, Martinez demonstrated (at the very
least) the Court’s awareness that a prisoner must
first, before any argument as to procedural default,
make the requisite showing to obtain a COA. See 566
U.S. at 14. Yet Martinez nowhere suggests that cause
is predetermined as soon as a COA is granted. Indeed,
because such an effect would render the first step of
the Martinez standard superfluous, the law of the case
doctrine seems antithetical to its operation. We
therefore view our duty under Martinez to consider the
substantiality of the underlying claim, even after
granting a COA, as affording us another (and fuller)
opportunity to do so.
Accordingly, we turn now to reconsider—without
regard to our grant of a COA—whether Owens’s
underlying claim is substantial under Martinez. 5

C.

Upon reconsideration, we are satisfied that the
district court properly found that Owens’s underlying
Our holding in this respect is consistent with our decisions in
two recent cases, where we found (without being called to address
the issue resolved here) that an underlying Strickland claim was
insubstantial under Martinez despite having granted a COA. See
Sigmon, 956 F.3d at 193, 199; Moore v. Stirling, 952 F.3d 174,
181, 185-86 (4th Cir. 2020).
5

App-52
claim—that Sentencing Counsel rendered ineffective
assistance by failing to have him neuroimaged for
evidence of structural and functional brain damage—
is insubstantial. See Owens, 2018 WL 2410641, at *3335.
As noted with respect to Owens’s very first claim,
Sentencing Counsel’s obligation to conduct a thorough
investigation of his mitigating evidence certainly
extended to evidence that could “cast light on [his]
mental condition.” See Rompilla, 545 U.S. at 382; see
also Wiggins, 539 U.S. at 534-35 (counsel “failed to
discover and present” evidence of Wiggins’s
“diminished mental capacities”); Williams, 529 U.S. at
396 (counsel “failed to introduce available evidence
that Williams was borderline mentally retarded”
(cleaned up)). But the issue again turns on how
thorough the investigation had to be under prevailing
professional norms. And here, while counsel may have
rendered ineffective assistance had they failed “to
investigate [Owens’s] mental condition as a mitigating
factor” altogether, see Caro v. Woodford, 280 F.3d
1247, 1254 (9th Cir. 2002) (cleaned up), or failed “to
provide mental health experts with information
needed to develop an accurate profile of [his] mental
health,” see id., or even overlooked “red flags pointing
up a need to test further,” see Rompilla, 545 U.S. at
392 (cleaned up), on this record, there is no merit to
the claim that they were ineffective by not obtaining a
comprehensive neuroimaging evaluation.
Our analysis of Owens’s first claim illustrates
that counsel thoroughly investigated his mental
condition as a mitigating factor; indeed, along with his
impoverished and violence-ridden upbringing, it was

App-53
the predominant factor in their mitigation case. Recall
that counsel began their representation with the
benefit of two previous trials’ worth of mitigating
evidence, including myriad mental health records and
expert opinions. They then enlisted their own team of
experts—including a neuropsychologist, forensic
psychiatrist, and clinical social worker—to take that
information, find more of it, and independently assess
Owens’s mental condition. These experts, who were
well aware of the indicia of mental impairment,
probed the mental health histories of Owens and his
family members, consulted with treating doctors and
other medical experts, and conducted their own suite
of evaluations. And finally, counsel presented the
opinions of their mental health experts, who testified
collectively to the effect that, while Owens suffered
from a variety of disorders and deficiencies that made
him more prone to engage in violent crime, he didn’t
suffer from brain damage or mental illness.
Owens fails to show that reasonable jurists could
debate whether such a thorough investigation of his
mental condition fell short of an objective standard of
reasonableness. Not only did counsel take extensive
measures to investigate Owens’s behavioral cognition
for mitigating evidence, their mental health experts
reached conclusions that belied the need for
comprehensive neuroimaging—which no expert
suggested during Owens’s case until his federal
habeas proceedings.
And much as Owens might disagree with those
conclusions in retrospect, he provides no reason to
believe that they were professionally unreasonable.
Thus, because Strickland “does not require counsel to

App-54
investigate every conceivable line of mitigating
evidence,” Wiggins, 539 U.S. at 533, the fact that
Sentencing Counsel didn’t see fit to pursue a
comprehensive neurobehavioral assessment doesn’t
amount
to
“incompetence
under
prevailing
professional norms,” Winston, 683 F.3d at 504
(cleaned up).
Relatedly, Owens falls short of establishing that
counsel missed any red flags pointing to the need to
obtain neuroimaging or otherwise further investigate
for evidence of structural and functional brain
damage. Owens’s reliance on his prescription for
Depakote in this respect—the only red flag he
identifies on appeal—is misplaced.
Specifically, Owens relies on Dr. Wood’s opinion
that neuroimaging “should have at the very least been
considered,” J.A. 4203, due to the “history of seizure
disorders” indicated by Owens’s “treatment with
Depakote,” J.A. 4202. He also points to Dr. Brawley’s
affidavit swearing that, had she “been given
information regarding previous seizure activity” while
preparing for trial, this “would have cause[d] [her] to
recommend a full neurological evaluation.” J.A. 4231.
Yet the record belies the premise that Owens’s
treatment with Depakote at Lieber was indicative of
seizure activity. To the contrary, as Dr. Cobb testified
himself in Owens’s third sentencing trial, he had
prescribed Depakote (in combination with Risperdal)
only to help stabilize Owens’s moods and “slow [his]
brain down.” J.A. 1594-95. Dr. Cobb also testified that
Depakote is commonly prescribed to treat mood
disorders like bipolarism, for which Dr. SchwartzWatts herself discovered that Owens had been

App-55
receiving treatment at Lieber, and thus not only
seizure disorders. In light of these explanations, we
discern no indication that Sentencing Counsel
overlooked evidence of seizure activity.
Finally, we agree with the district court that
Sentencing Counsel’s decision not to call Dr. Evans as
a witness also bears on the analysis. As the
neuropsychology expert in the previous sentencing
trial, Dr. Evans testified that Owens had mild brain
dysfunction in his frontal lobe. That testimony
generally echoes the results of Dr. Gur’s
comprehensive neuroimaging assessment. And the
technique that Dr. Evans used to reach his results
(qEEG) bears similarity to the techniques used by Dr.
Gur (PET and MRI); all three may even be considered
subsets of “neuroimaging” technologies. See Laura
Stevens Khoshbin & Shahram Khoshbin, Imaging the
Mind, Minding the Image: An Historical Introduction
to Brain Imaging and the Law, 33 Am. J.L. & Med.
171, 176-77 (2007).
Sentencing Counsel thus already had “similar
evidence” at their fingertips to that which Owens
contends they should have developed through
neuroimaging. See Owens, 2018 WL 2410641, at *35.
But when presented with the claim (which Owens
didn’t raise in his § 2254 petition) that counsel was
ineffective by declining to present Dr. Evans’s
testimony, the state court properly denied it on the
ground that counsel’s decision to go with Dr. Brawley’s
testimony reflected a professionally reasonable
strategy to take a more conservative approach to the
neurological mitigating evidence.

App-56
As Godfrey testified during Owens’s initial
postconviction proceeding, he was concerned that
avant-garde diagnostic techniques wouldn’t play in
front of a local Greenville jury. He was also aware that
any evidence of brain damage would be double-edged
and might well do more harm than good for Owens’s
mitigation case, because it would bespeak his inability
to become less violent. Since this “sound trial strategy”
would apply with comparable force to similar evidence
based on Dr. Gur’s neuroimaging evaluation, see
Strickland, 466 U.S. at 689 (quoting Michel v.
Louisiana, 350 U.S. 91, 101 (1955)), it presents an
additional reason why Owens’s underlying claim is
insubstantial. 6
*

*

*

For the foregoing reasons, we hold that the state
postconviction court reasonably denied Owens’s
exhausted Strickland claims on the grounds that
capital sentencing counsel thoroughly investigated
and presented his available evidence in mitigation,
and didn’t neglect a viable Confrontation Clause
objection to his disciplinary record. We also hold that
the district court properly denied Owens’s defaulted
Strickland claim as insubstantial under Martinez.
Therefore, the judgment of the district court is
AFFIRMED.

6 Because we conclude that Sentencing Counsel didn’t perform
deficiently in failing to obtain comprehensive neuroimaging, we
needn’t address whether Owens’s underlying claim is substantial
with respect to the prejudice prong of Strickland. We also needn’t
address whether Initial Postconviction Counsel performed
deficiently in failing to exhaust Owens’s underlying claim.

App-57
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
________________
No. 18-8
________________
FREDDIE OWENS,
v.

Petitioner-Appellant,

BRYAN P. STIRLING, Commissioner, South Carolina
Department of Corrections; WILLIE D. DAVIS, Warden
of Kirkland Correctional Institution,
Respondents-Appellees.
________________
Filed: Aug. 18, 2020
________________
Before WILKINSON, KEENAN, and DIAZ,
Circuit Judges.
________________
ORDER
________________
The court denies the petition for rehearing.
Entered at the direction of the panel: Judge
Wilkinson, Judge Keenan, and Judge Diaz.
For the Court
/s/ Patricia S. Connor, Clerk

App-58
Appendix C
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF SOUTH CAROLINA
________________
No. 0:16-cv-02512-TLW
________________
FREDDIE OWENS,
v.

Petitioner,

BRYAN P. STIRLING, Commissioner, South Carolina
Department of Corrections; WILLIE D. DAVIS, Warden
of Kirkland Correctional Institution,
Respondents.
________________
Filed: May 29, 2018
________________
ORDER
________________
This is a capital habeas corpus action brought
pursuant to 28 U.S.C. § 2254 by Petitioner Freddie
Owens against Respondents Bryan P. Stirling and
Willie D. Davis (collectively, the State). For the
reasons set forth below, the Court grants the State’s
motion for summary judgment and denies Owens’
habeas petition.

App-59
I.

Factual and Procedural History
A. Trial and First Sentencing

Irene Graves was murdered on November 1, 1997
during an armed robbery of the Speedway convenience
store where she worked in Greenville County, South
Carolina. Owens was indicted in October 1998 for
murder, armed robbery, possession of a firearm during
the commission of a violent crime, and criminal
conspiracy. He was represented by John M. Rollins Jr.
and Karl B. Allen in a jury trial that began on
February 8, 1999. The jury returned a guilty verdict
on all counts.
During the trial’s sentencing phase, after hearing
evidence and argument, the jury returned a
recommendation of death on the murder conviction,
finding as an aggravating circumstance that the
murder was committed while in the commission of a
robbery while armed with a deadly weapon. The
presiding judge sentenced Owens to death for murder,
thirty years consecutive for armed robbery, five years
concurrent for possession of a weapon during a violent
crime, and five years concurrent for criminal
conspiracy.
B. First Direct Appeal
Owens timely appealed and was represented on
appeal by Rollins, Allen, and Katherine Carruth Link,
Assistant Appellate Defender with the South Carolina
Office of Appellate Defense. On appeal, he raised
issues relating to the trial court’s jurisdiction,
evidentiary rulings, the denial of a new trial, and
sentencing. On September 4, 2001, the South Carolina
Supreme Court affirmed his convictions, but vacated
his sentence for possession of a firearm during

App-60
commission of a violent crime, reversed his death
sentence, and remanded for a new sentencing
proceeding. State v. Owens (Owens I), 552 S.E.2d 745,
759-61 (S.C. 2001), overruled on other grounds by
State v. Gentry, 610 S.E.2d 494 (S.C. 2005).
C. Second Sentencing
On remand, Owens was represented by Alex
Kinlaw Jr. and Steve W. Sumner. At this sentencing,
he waived his right to a jury and proceeded with a
bench sentencing. After hearing evidence and
argument, the presiding judge sentenced Owens to
death.
D. Second Direct Appeal
Owens timely appealed and was represented on
appeal by Joseph L. Savitz III, Acting Chief Attorney
with the South Carolina Office of Appellate Defense.
The sole issue on appeal involved the propriety of the
circuit judge’s colloquy with Owens regarding his jury
waiver. On December 20, 2004, the South Carolina
Supreme Court again reversed his death sentence and
remanded for a new sentencing proceeding. State v.
Owens (Owens II), 607 S.E.2d 78, 80 (S.C. 2004).
E. Third Sentencing
On remand, Owens was represented by Everett P.
Godfrey Jr. and Kenneth C. Gibson. 1 This time, he
proceeded before a jury, and after hearing evidence
and argument, the jury returned a recommendation of
death as to the murder conviction, finding as
1 The claims Owens raises in this habeas action all involve the
third sentencing, so any references throughout this opinion to
“sentencing counsel” refer to Godfrey and Gibson, unless
otherwise noted.

App-61
aggravating circumstances that the murder was
committed while in the commission of a robbery while
armed with a deadly weapon and that the murder was
committed while in the commission of a larceny with
the use of a deadly weapon. On November 11, 2006,
the presiding judge once again sentenced Owens to
death.
F. Third Direct Appeal

Owens timely appealed and was represented on
appeal by Savitz and LaNelle C. DuRant, both with
the South Carolina Commission on Indigent Defense,
Division of Appellate Defense. Appellate counsel
raised the following issues:
1. The trial judge abused his discretion when
he summarily disqualified a potential juror,
Sonya Ables (Juror Number 1), solely because
she “went to [her] pastor and talked to him
about [the death penalty],” as he incorrectly
believed “there is a case right on point, that if
a woman talks to her priest after she’s been
called as a juror about capital punishment,
she is disqualified under the law.”
2. The trial judge committed reversible error
by admitting Owens’ prison disciplinary
records, as they violated the rule against
hearsay, as well as the Sixth and Fourteenth
Amendments.
3. The trial judge committed reversible error
by allowing the Solicitor to argue in closing
that the conditions of life imprisonment in
general justified a death sentence for Owens,
as this argument injected an arbitrary factor

App-62
into the jury sentencing considerations in
violation of S.C. Code Section 16-3-25(C)(1).
ECF No. 16-4 at 222. On July 14, 2008, the South
Carolina Supreme Court affirmed his death sentence.
State v. Owens (Owens III), 664 S.E.2d 80, 82 (S.C.
2008). He then submitted a petition for rehearing,
which was denied.
After the denial of Owens’ petition for rehearing,
his new counsel, John H. Blume and Keir M. Weyble,
filed a petition for a writ of certiorari from the United
States Supreme Court. On January 21, 2009, the
Supreme Court denied the petition. Owens v. South
Carolina, 555 U.S. 1141 (2009).
G. First PCR Action
Owens then submitted a pro se petition for postconviction relief (PCR) on January 29, 2009. Weyble
and Emily C. Paavola were appointed to represent
Owens in the PCR proceeding. They submitted on his
behalf an amended petition and then a second
amended petition raising the following claims:
10(a)
Applicant was denied the right to
effective assistance of counsel as
guaranteed by the Sixth and Fourteenth
Amendments to the United States
Constitution and by Article I, §§ 3 and 14
of the South Carolina Constitution
during jury selection at his 2006 capital
re-sentencing proceeding.
11(a)
Supporting Facts: Trial counsel’s
performance during jury selection was
both deficient and prejudicial. See
Strickland v. Washington, 466 U.S. 668

App-63
(1984). Counsel’s acts
included the following:

or

omissions

1)

Counsel
failed
to
object
to
statements by the solicitor, and
similar instructions by the trial
court, that the State may only seek
death
where
aggravating
circumstances are present, which
improperly suggested to potential
jurors
that
the
aggravating
circumstances had already been
found.

2)

Counsel failed to object when the
trial judge erred by disqualifying a
potential juror, Sonya Ables (Juror
Number 1), solely because she “went
to [her] pastor and talked to him
about [the death penalty],” as the
trial judge incorrectly believed
“there is a case right on point, that if
a woman talks to her priest after
she’s been called as a juror about
capital
punishment,
she
is
disqualified under the law.”

10(b)
Applicant was denied the right to
effective assistance of counsel as
guaranteed by the Sixth and Fourteenth
Amendments to the United States
Constitution and by Article I, §§ 3 and 14
of the South Carolina Constitution,
during his 2006 capital sentencing
proceeding.

App-64
11(b)
Supporting Facts: Trial counsel’s
performance during jury selection was
both deficient and prejudicial. See
Strickland v. Washington, 466 U.S. 668
(1984). Counsel’s acts or omissions
included the following:
1)

Counsel failed to object and/or
request proper instructions from the
court when the State played a crime
scene
video
without
further
explanation or analysis. 2006 Tr. at
1076. The crime scene video shows
two masked men, but their faces are
not identifiable. One of the masked
men is primarily shown in the video.
He stands behind the counter, points
a gun at the clerk, and appears to
shoot the clerk before the two men
run out of the convenience store.
Applicant’s codefendant, Steven
Golden, testified at Applicant’s
previous trials that it was he
(Golden) who is primarily visible in
the video. The State then offered an
analysis as to why it believed the
fatal shot came from the other man
standing off-camera. The jury at
Applicant’s 2006 resentencing heard
no analysis about who appears in the
video. They were simply instructed
that Applicant had already been
found guilty of murder, and then
they were shown the video without
explanation. The trial judge at the

App-65
2006 re-sentencing instructed the
jurors that they could consider
whether Applicant had “minor
participation” in the crime as a
mitigating circumstance. 2006 Tr. at
1592.
But,
without
further
instruction, the video misled the jury
to believe that there was conclusive
video-graphic
evidence
that
Applicant fired the fatal shot,
thereby foreclosing consideration of
both the “minor participation”
mitigating circumstance, and the
related possibility that Applicant,
though perhaps present, had not
been the triggerman.
2)

Counsel failed to object to improper
and prejudicial opinion testimony
from Officer Joe Wood that Applicant
gave him “cold chills,” and the
solicitor’s reliance on that testimony
in closing argument. 2006 Tr. at
1093 and 1559.

3)

Counsel failed to object to victim
impact testimony regarding the
effect of the victim’s death on the
victim outreach coordinator. 2006
Tr. at 1274. Such testimony was
outside the scope of proper victim
impact evidence, and counsel’s
failure to lodge an appropriate
objection was unreasonable and
prejudicial. Counsel also failed to

App-66
object to hearsay testimony from the
victim
outreach
coordinator
concerning statements that the
victim’s children made to her after
the victim’s death. 2006 Tr. at 12681271. These statements violated the
evidentiary rules of South Carolina,
as well as the confrontation and the
due process clauses of the state and
federal constitutions.
4)

Counsel failed to preserve the state
and federal constitutional issues
related to the admission of a list of
disciplinary infractions by failing to
object on the basis of the
Confrontation Clause and due
process. On appeal, the South
Carolina Supreme Court held that
counsel’s objection was inadequate to
preserve the federal constitutional
issues and thus, the issue was
procedurally barred. See State v.
Stone, 655 S.E.2d 487, 488-89 (S.C.
2007). Counsel’s failure to lodge an
appropriate objection was deficient
and prejudicial.

5)

Counsel failed to present readily
available mitigating evidence that
had already been developed at
Applicant’s previous trial and first
resentencing
proceeding.
Ms.
Marjorie
Hammock
previously
testified in much greater detail to

App-67
Applicant’s
life
history
and
background. Further, Dr. Jim Evans
previously testified that Applicant
has
brain
dysfunction
and
difficulties with attention and
impulse control. Counsel failed to
have Ms. Hammock testify to all of
the details that were available
concerning Applicant’s life history,
and counsel failed to call Dr. Evans
to testify at all.
6)

Counsel failed to investigate and
present mitigating evidence of
Applicant’s
experiences
while
incarcerated in the Department of
Juvenile Justice, and the impact of
those
experiences
upon
his
character,
conduct,
and
psychological condition.

7)

Counsel failed to ensure that jurors
did not see Applicant in restraints.

8)

Counsel failed to object to the
solicitor’s improper and prejudicial
closing argument. For example,
counsel failed to object to the
solicitor’s statements that the
prosecution seeks death only rarely,
even in eligible cases, and this case
was one of those rare cases: “Only
limited circumstances are allowed
for us to seek the death penalty, and
rarely do we seek the death penalty
in all those cases that are eligible. In

App-68
only certain cases do we seek the
death penalty.” 2006 Tr. at 1552; see
also, 2006 Tr. at 1555 (“There are
mean and evil people in the world
who do not deserve to continue to live
with the rest of us, regardless of how
confined they may be. The law limits
the right to seek the death penalty to
a very select number of cases, very
few, and we seek the death penalty
only in a few, but the circumstances
where we seek it is available mean
and evil people who commit
atrocious acts of murder; the worst of
the worst. That is what the death
penalty is reserved for. Those whose
behavior sets them apart even from
the criminal world, and that is
Freddie Owens, and this murder and
his behavior are one of those cases”).
Counsel further failed to object when
the solicitor argued that the jury
should sentence Applicant to death
because his life would be easy in
prison. See, e.g., 2006 Tr. at 1561
(“[b]ig prison is like a little city. In
prison he will have all the necessities
in life. . . . He will have clothing that
they provide, and he will have
contact with his family, and TV at
times, and he will have family
business. Not much more than a
change of address for Freddie
Owens. So don’t think putting

App-69
Freddie Owens in prison for the rest
of his life is going to be a significant
punishment for him”). Counsel also
failed to object when the solicitor told
the jury that he personally wanted
the death penalty and would not be
“satisfied with a life sentence.” 2006
Tr. at 1555. Counsel thus failed to
preserve for appeal whether the
improper arguments violated the
Sixth, Eighth and Fourteenth
Amendments and the corresponding
provisions of the South Carolina
Constitution and South Carolina
law, including S.C. Code Ann. § 16-325(C) (2003).
10(c)
Applicant’s death sentence was
obtained in violation of the Sixth, Eighth
and Fourteenth Amendments to the
United States Constitution, and the
corresponding provisions of South
Carolina law, because the jurors saw
Applicant in restraints.
11(c)
The above ground states the relevant
facts.
10(d)
Applicant was denied the right to
effective assistance of counsel as
guaranteed by the Sixth and Fourteenth
Amendments to the United States
Constitution and by Article I, §§ 3 and 14
of the South Carolina Constitution,
during the appellate phase of his 2006 resentencing proceeding.

App-70
11(d)
Supporting facts: Appellate counsel’s
performance on appeal was both deficient
and prejudicial. See Strickland v.
Washington, 466 U.S. 668 (1984); Evitts
v. Lucey, 469 U.S. 387 (1985). Appellate
counsel failed to assert that it was error
for the trial court to deny Applicant’s
request to ask potential jurors if they
would have a bias in favor of police
officers because of their previous work in
that field.
ECF Nos. 16-4 at 409, 16-5 at 1-6. After briefing and
an evidentiary hearing, the PCR court denied his
petition on February 13, 2013. ECF No. 16-14 at 14070. He then filed a motion to alter or amend, which
was also denied.
H. First PCR Appeal
Owens, through Weyble and Paavola, then filed a
petition for a writ of certiorari to the South Carolina
Supreme Court, raising the following issues:
I.

Whether Petitioner’s right to effective
assistance of counsel was violated as a
result of trial counsel’s failure to
investigate and present available and
compelling mitigating evidence from
Petitioner’s entire life history?

II. Whether Petitioner’s right to effective
assistance of counsel was violated as a
result of trial counsel’s failure to raise
readily available challenges to a variety
of evidence offered by the prosecution in
support of its case for a sentence of
death?

App-71
III. Whether Petitioner’s rights under the
Eighth and Fourteenth Amendments and
S.C. Code Ann. § 16-3-25(C)(1) were
violated as a result of the prosecutions’
improper closing argument and improper
statements during jury selection, and
whether Petitioner’s right to effective
assistance of counsel was violated as a
result of trial counsel’s failure to object to
the same?
IV. Whether Petitioner was prejudiced as a
result of the cumulative effect of trial
counsel’s multiple deficient acts and
omissions?
ECF No. 15-9 at 9. On June 17, 2015, the South
Carolina Supreme Court denied his petition. He filed
a petition for rehearing, which was also denied.
I.

Federal Habeas Action

Owens commenced the instant action on July 27,
2015 by filing a motion for a stay of execution and a
motion to appoint counsel. ECF No. 1. The Court
stayed Owens’ execution pending appointment of
counsel and the filing of a habeas petition. ECF No. 9.
On July 11, 2016, Owens’ appointed counsel filed a
petition for a writ of habeas corpus pursuant to 28
U.S.C. § 2254. ECF No. 83. The Court then stayed his
execution pending resolution of his habeas petition.
ECF No. 100. On September 8, 2016, he filed an
amended petition. ECF No. 117. On October 18, 2016,
the magistrate judge stayed the case pending
resolution of a second PCR action that he filed in state
court. ECF No. 124.

App-72
J.

Second PCR Action

On July 20, 2016, shortly after Owens filed his
federal habeas petition, he filed a second PCR action
in state court, raising the following claims:
(a) Trial and collateral counsel were
ineffective to the prejudice of the
applicant by failing to investigate,
develop and present evidence of
institutional negligence which would
have mitigated the State’s theory that
the in-custody death of Mr. Lee
conclusively
established
future
dangerousness and the only sentencing
option for the petitioner was death.
Evidence from expert witnesses available
at the time of the petitioner’s sentencing
trial demonstrated that institutional
negligence in failing to classify, and
detain the petitioner in accordance with
that classification, was the proximate
cause of the death of Mr. Lee. 5th, 6th,
8th and 15th Amendments to the
Constitution of the United States of
America; Skipper v South Carolina, 476
US 1 (1986).
(b) Trial and collateral counsel were
ineffective to the prejudice of the
applicant by failing to investigate,
develop and present objective and
scientific evidence of structural and
functional brain damage resulting from
early childhood trauma and materially
limiting the applicant’s ability to make

App-73
informed decisions, learn from past
behavior, and control impulses resulting
from recurrence of situation prompts in
daily living which were the same or
similar to those of his early childhood.
5th, 6th, 8th, and 14th Amendments to
the Constitution of the United States of
America; Wiggins v Smith, 539 US 510
(2003).
(c) Trial and collateral counsel were
ineffective to the prejudice of the
applicant by failing to investigate,
develop and present objective and
scientific evidence of structural and
functional brain damage resulting from a
history of epileptic grand mal seizures
and its impact upon the applicant’s
cognitive functioning and resulting
culpability for the crime of conviction. All
in violation of the Fifth, Sixth, Eighth,
Fourteenth
Amendments
to
the
Constitution of the United States of
America; and clearly established federal
law as announced by the Supreme Court
of the United States in Wiggins v Smith,
539 US 510 (2003).
(d) Trial and collateral counsel were
ineffective to the prejudice of the
applicant by failing to object to the court’s
recurring jury charge that a finding of life
without parole must be unanimous when
that charge was not in the sentencing
statute, was false, materially misleading,

App-74
coercive, abusive and irrelevant to the
sentencing function. (5th, 6th 8th and
14th Amendments to the Constitution of
the United States of America; (Winkler v
South Carolina not yet decided)
(e) Trial and collateral counsel were
ineffective to the prejudice of the
applicant by failing to investigate,
develop and present mitigation evidence
that the applicant suffered from repeated
early childhood trauma and sexual
abuse. These abusive experiences
resulted in organic brain injury,
ambiguous sexual identity, and created
within the applicant a sensitivity to
common adult situational prompts that,
in his case, lead to a recurrence of the
earlier trauma and extreme preemptive
fear aggression as the only behavioral
response known to the applicant. 5th,
6th, 8th, and 14th Amendments to the
Constitution of the United States of
America; Rompilla v Beard, 545 US 374
(2005).
(f) Trial, direct appellate and collateral
counsel were ineffective to the prejudice
of the applicant by failing to include as
reversible error an objection to the trial
court’s decision to allow testimony of incustody administrative rules violations
as aggravation evidence supporting a
sentence of death when those violations
were disproportionate to the crime for

App-75
which the jury was sentencing the
petitioner, did not result in injury, were
in
part
administrative
violations
common to every inmate and were not
characterological of the petitioner’s
propensity for future violence.
(g) Trial counsel duly requested that the
State disclose all evidence which might
be favorable to the defense. Nonetheless,
the State failed to disclose evidence that
impeaches material witnesses against
the applicant in violation of the Fifth,
Eighth and Fourteenth Amendments to
the Constitution of the United States of
America; Brady v Maryland, 373 US 83
(1963) and Wearry v Cain, 136 S. Ct. 1002
(2016).
Collateral
counsel
were
ineffective to the prejudice of the
applicant in failing to recognize that the
State did not disclose material items that
would have substantially improved the
mitigation case and changed crossexamination tactics had the materials
been timely disclosed.
(h) Trial and collateral counsel were
ineffective to the prejudice of the
applicant by failing to challenge the
State’s decision to seek the death penalty
as the decision was motivated by
arbitrary factors since the crime was
disproportionate to the rare and
exceptional case as required by the
narrowing features of Furman v Georgia

App-76
and Gregg v Georgia and the Fifth, Sixth,
Eighth and Fourteenth Amendments to
the Constitution of the United States of
America.
ECF No. 113-1 at 4-5. The PCR court denied his
petition on April 10, 2017. He did not file a direct
appeal. See ECF No. 143.
K. Resumption of Federal Habeas Action
After being informed of the conclusion of Owens’
second PCR action, the magistrate judge lifted the
stay in this case and briefing recommenced. ECF
No. 146. In his amended petition, he raises the
following issues, quoted verbatim:
EXHAUSTED GROUNDS FOR FEDERAL
HABEAS RELIEF
(1) Trial counsel was ineffective at
Petitioner’s
2006
sentencing
proceeding for failing to investigate
and
present
available
and
compelling mitigating evidence.
(2) Trial counsel was ineffective at
Petitioner’s
2006
sentencing
proceeding for failing to object to the
list of prison disciplinary infractions
on Confrontation Clause and Due
Process, Eighth Amendment and
Proportionality Grounds.
(3) Trial counsel was ineffective at
Petitioner’s
2006
sentencing
proceeding for failing to object or
request proper instructions from the

App-77
court regarding the crime scene
video.
(4) Trial counsel was ineffective at
Petitioner’s
2006
sentencing
proceeding for failing to object to
irrelevant,
inflammatory,
and
prejudicial testimony from both
Officer Joe Wood, who testified
Petitioner gave him “cold chills,” and
Juliana Christy, a victims’ advocate
who testified this case was “the
hardest case she ever had to work
on” in fifteen years at the Greenville
County Sheriff’s Department.
(5) Petitioner’s rights under the Eighth
and Fourteenth Amendments were
violated as a result of the
prosecution’s
improper
closing
argument and improper statements
during jury selection, and trial
counsel was ineffective for failing to
object to the same.
UNEXHAUSTED
GROUNDS
FEDERAL HABEAS RELIEF

FOR

Martinez v. Ryan, 132 S. Ct. 1302 (2012)
(6) Trial and collateral counsel were
ineffective to the prejudice of the
applicant by failing to investigate,
develop and present evidence of
institutional negligence which would
have mitigated the State’s theory
that the in-custody death of Mr. Lee
conclusively
established
future

App-78
dangerousness
and
the
only
sentencing option for the petitioner
was death. Evidence from expert
witnesses available at the time of the
petitioner’s
sentencing
trial
demonstrated that institutional
negligence in failing to classify, and
detain the petitioner in accordance
with that classification, was the
proximate cause of the death of Mr.
Lee. 5th, 6th, 8th and 14th
Amendments to the Constitution of
the United States of America;
Skipper v South Carolina, 476 US 1
(1986).
(7) Trial and collateral counsel were
ineffective to the prejudice of the
applicant by failing to investigate,
develop and present objective and
scientific evidence of structural and
functional brain damage resulting
from early childhood trauma and
materially limiting the applicant’s
ability to make informed decisions,
learn from past behavior, and control
impulses resulting from recurrence
of situation prompts in daily living
which were the same or similar to
those of his early childhood. 5th, 6th,
8th, and 14th Amendments to the
Constitution of the United States of
America; Wiggins v Smith, 539 US
510 (2003).

App-79
(8) Trial and collateral counsel were
ineffective to the prejudice of the
applicant by failing to object to the
court’s recurring jury charge that a
finding of life without parole must be
unanimous when that charge was
not in the sentencing statute, was
false,
materially
misleading,
coercive, abusive and irrelevant to
the sentencing function. (5th, 6th 8th
and 14th Amendments to the
Constitution of the United States of
America; (Winkler v South Carolina
not yet decided)
(9) Trial and collateral counsel were
ineffective to the prejudice of the
applicant by failing to investigate,
develop and present mitigation
evidence that the applicant suffered
from repeated early childhood
trauma and sexual abuse. These
abusive experiences resulted in
organic brain injury, ambiguous
sexual identity, and created within
the applicant a sensitivity to
common adult situational prompts
that, in his case, lead to a recurrence
of the earlier trauma and extreme
preemptive fear aggression as the
only behavioral response known to
the applicant. 5th, 6th, 8th, and 14th
Amendments to the Constitution of
the United States of America;

App-80
Rompilla v Beard, 545 US 374
(2005).
(10) Trial, direct appellate and collateral
counsel were ineffective to the
prejudice of the applicant by failing
to include as reversible error an
objection to the trial court’s decision
to allow testimony of in-custody
administrative rules violations as
aggravation evidence supporting a
sentence of death when those
violations were disproportionate to
the crime for which the jury was
sentencing the petitioner, did not
result in injury, were in part
administrative violations common to
every inmate and were not
characterological of the petitioner’s
propensity for future violence.
(11) Trial counsel duly requested that the
State disclose all evidence which
might be favorable to the defense.
Nonetheless, the State failed to
disclose evidence that impeaches
material witnesses against the
applicant in violation of the Fifth,
Eighth and Fourteenth Amendments
to the Constitution of the United
States of America; Brady v
Maryland, 373 US 83 (1963) and
Wearry v Cain, 136 S. Ct. 1002
(2016). Collateral counsel were
ineffective to the prejudice of the

App-81
applicant in failing to recognize that
the State did not disclose material
items that would have substantially
improved the mitigation case and
changed cross-examination tactics
had the materials been timely
disclosed.
(12) Trial and collateral counsel were
ineffective to the prejudice of the
applicant by failing to challenge the
State’s decision to seek the death
penalty as the decision was
motivated by arbitrary factors since
the crime was disproportionate to
the rare and exceptional case as
required by the narrowing features
of Furman v Georgia and Gregg v
Georgia and the Fifth, Sixth, Eighth
and Fourteenth Amendments to the
Constitution of the United States of
America.
ECF No. 117 at 6-7. The State filed a return to the
amended petition and a second motion for summary
judgment. ECF Nos. 147, 148. Owens filed a response
in opposition to the summary judgment motion, ECF
No. 174, and the State filed a reply, ECF No. 184.
On January 12, 2018, the magistrate judge issued
a Report and Recommendation (R&R), in which she
recommended granting the State’s summary
judgment motion and denying Owens’ petition. ECF
No. 193. Owens filed objections to the R&R, ECF
No. 199, and the State filed a reply to those objections,
ECF No. 202. Additionally, the State filed its own

App-82
objections to the R&R, 2 ECF No. 198, and Owens filed
a reply to those objections, ECF No. 201.
This matter is now ripe for decision.
II. Standards of Review
A. Report and Recommendation
The magistrate judge issued her R&R in
accordance with 28 U.S.C. § 636(b)(1) and Local Civil
Rule 73.02(B)(2)(c) (D.S.C.). The R&R is only a
recommendation to the Court and has no presumptive
weight. The responsibility to make a final
determination rests with the Court. See Mathews v.
Weber, 423 U.S. 261, 270-71 (1976). The Court
conducts a de novo determination of any portion of the
R&R to which a specific objection is made, and the
Court may accept, reject, or modify, in whole or in
part, the magistrate judge’s recommendation, or may
recommit the matter to the magistrate judge with
instructions. 28 U.S.C. § 636(b)(1). In the absence of
an objection, the Court is not required to give any
explanation for adopting the recommendation. See
Camby v. Davis, 718 F.2d 198, 200 (4th Cir. 1983).
B. Summary Judgment
Summary judgment is appropriate when the
materials in the record show that “there is no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a). The Court must view the evidence in the light
2 The State does not object to the R&R’s ultimate conclusion
and instead merely objects to the extent that there were
additional facts and law that were not included in the R&R.
Because the State does not object to the ultimate conclusion, the
Court will not separately address those objections.

App-83
most favorable to the non-moving party and draw all
justifiable inferences in his favor. Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 255 (1986). A fact is material
if it “might affect the outcome of the suit under the
governing law.” Id. at 248.
The party seeking summary judgment bears the
initial burden of demonstrating to the Court that there
is no genuine issue of material fact. See Celotex Corp.
v. Catrett, 477 U.S. 317, 323 (1986). Once the movant
has made this threshold showing, in order to survive
summary judgment, the nonmoving party must
demonstrate that specific, material facts exist that
give rise to a genuine issue. See id. at 324.
C. Habeas Corpus Review
1.

Deference to state courts

Any claim in a § 2254 petition that was
adjudicated on the merits in a state court proceeding
may not be granted unless the state court’s
adjudication of the claim
(1) resulted in a decision that was contrary
to, or involved an unreasonable
application of, clearly established
Federal law, as determined by the
Supreme Court of the United States; or
(2) resulted in a decision that was based on
an unreasonable determination of the
facts in light of the evidence presented in
the State court proceeding.
28 U.S.C. § 2254(d).
To meet this standard, the state court must have
“arrive[d] at a conclusion opposite to that reached by
[the United States Supreme] Court on a question of

App-84
law or . . . decide[d] a case differently than [the United
States Supreme] Court has on a set of materially
indistinguishable facts.” Williams v. Taylor, 529 U.S.
362, 413 (2000). This is a “highly deferential standard
for evaluating state-court rulings, which demands
that state-court decisions be given the benefit of the
doubt.” Cullen v. Pinholster, 563 U.S. 170, 181 (2011)
(citations omitted). “If this standard is difficult to
meet, that it because it was meant to be.” Harrington
v. Richter, 562 U.S. 86, 102 (2011).
2.

Ineffective assistance of counsel

Criminal defendants have a constitutional right
to the assistance of counsel. U.S. Const. amend. VI.
“[T]he right to counsel is the right to the effective
assistance of counsel.” Strickland v. Washington, 466
U.S. 668, 686 (1984) (citation omitted).
To prevail on an ineffective assistance claim, a
petitioner must show that (1) counsel’s acts or
omissions fell below an objective standard of
reasonableness; and (2) there is a reasonable
probability that, but for counsel’s errors, the result of
the proceeding would have been different. See id. at
687-88, 694. Failure of proof on either prong ends the
matter. United States v. Roane, 378 F.3d 382, 404 (4th
Cir. 2004). There is “a strong presumption that
counsel’s conduct falls within the wide range of
professional assistance,” and a petitioner has the
burden of overcoming this presumption. Strickland,
466 U.S. at 689. “Even under de novo review, the
standard for judging counsel’s representation is a
most deferential one. Unlike a later reviewing court,
the attorney observed the relevant proceedings, knew
of materials outside the record, and interacted with

App-85
the client, with opposing counsel, and with the judge.
It is all too tempting to second-guess counsel’s
assistance after conviction or adverse sentence.”
Harrington, 562 U.S. at 105 (citing Strickland, 466
U.S. at 689). “The question is whether an attorney’s
representation amounted to incompetence under
prevailing professional norms, not whether it deviated
from best practices or most common custom.” Id.
(citing Strickland, 466 U.S. at 690). An ineffective
assistance of counsel allegation requires the
submission of specific facts in support of the claim. See
United States v. Witherspoon, 231 F.3d 923, 926 (4th
Cir. 2000).
When Strickland is applied in the federal habeas
context, it is an even taller hurdle to overcome. “The
standards created by Strickland and § 2254(d) are
both highly deferential, and when the two apply in
tandem, review is doubly so.” Harrington, 562 U.S. at
105 (citations omitted). “When § 2254(d) applies, the
question is not whether counsel’s actions were
reasonable. The question is whether there is any
reasonable
argument
that
counsel
satisfied
Strickland’s deferential standard.” Id. However, if the
petitioner demonstrates that there is no reasonable
argument that counsel satisfied Strickland, then relief
would be appropriate.
3.

Exhaustion and procedural default

A habeas petitioner may not obtain relief in
federal court unless he has exhausted his state court
remedies. 28 U.S.C. § 2254(b)(1)(A). “To satisfy the
exhaustion requirement, a habeas petitioner must
fairly present his claim to the state’s highest court.”
Matthews v. Evatt, 105 F.3d 907, 911 (4th Cir. 1997),

App-86
abrogated on other grounds by Miller-El v. Dretke, 545
U.S. 231 (2005). “To exhaust a claim, the petitioner
must present the state court with ‘both the operative
facts and the controlling legal principles.’” Gray v.
Zook, 806 F.3d 783, 798 (4th Cir. 2015) (quoting
Winston v. Kelly, 592 F.3d 535, 549 (4th Cir. 2010)).
A petitioner’s failure to raise in state court a claim
asserted in a § 2254 petition “implicates the
requirements in habeas of exhaustion and procedural
default.” Gray v. Netherland, 518 U.S. 152, 161 (1996).
“[A] habeas petitioner who has failed to meet the
State’s procedural requirements for presenting his
federal claims has deprived the state courts of an
opportunity to address those claims in the first
instance,” and has therefore procedurally defaulted
those claims. Coleman v. Thompson, 501 U.S. 722, 732
(1991). “[T]he procedural bar that gives rise to
exhaustion provides an independent and adequate
state-law ground for the conviction and sentence, and
thus prevents federal habeas corpus review of the
defaulted claim, unless the petitioner can demonstrate
cause and prejudice for the default.” Gray, 518 U.S. at
162.
In general, a federal court will not entertain a
procedurally defaulted claim as long as the state’s
procedural requirement barring the court’s review is
adequate to support the judgment and independence
of federal law. See Martinez v. Ryan, 566 U.S. 1, 9-10
(2012). However, “[t]he doctrine barring procedurally
defaulted claims from being heard is not without
exceptions. A prisoner may obtain federal review of a
defaulted claim by showing cause for the default and
prejudice from a violation of federal law.” Id. at 10.

App-87
A federal habeas petitioner cannot claim
ineffective assistance of counsel in state postconviction proceedings to establish cause for default
because there is no constitutional right to counsel in
state post-conviction proceedings. See Coleman v.
Thompson, 501 U.S. 722, 752 (1991). However,
Martinez recognized a “narrow exception” to Coleman,
specifically that “[i]nadequate assistance of counsel at
initial-review collateral proceedings may establish
cause for a prisoner’s procedural default of a claim of
ineffective assistance at trial.” 566 U.S. at 9. The
Fourth Circuit has summarized the exception
recognized in Martinez as follows:
[A] federal habeas petitioner who seeks to
raise an otherwise procedurally defaulted
claim
of
ineffective-assistance-of-trialcounsel before the federal court may do so
only if: (1) the ineffective-assistance-of-trialcounsel claim is a substantial one; (2) the
“cause” for default “consists of there being no
counsel or only ineffective counsel during the
state collateral review proceeding”; (3) “the
state collateral review proceeding was the
initial review proceeding in respect to the
ineffective-assistance-of-trial-counsel claim”;
and (4) state law “requires that an ineffectiveassistance-of-trial-counsel claim be raised in
an initial-review collateral proceeding.”
Fowler v. Joyner, 753 F.3d 446, 461 (4th Cir. 2014)
(internal brackets omitted) (quoting Trevino v. Thaler,
569 U.S. 413, 423 (2013)). Essentially, if initial-review
collateral counsel was constitutionally ineffective in
failing to raise the constitutional ineffectiveness of

App-88
trial counsel, that ineffectiveness by collateral counsel
may excuse the petitioner’s procedural default of a
substantial claim of trial counsel’s ineffectiveness.
III. Discussion
Owens raised twelve grounds for relief in his
habeas petition. The Court will address each one.
A. Ground 1 - Failure to investigate and
present mitigating evidence
Ground 1 of the amended petition is as follows:
Trial counsel was ineffective at Petitioner’s
2006 sentencing proceeding for failing to
investigate and present available and
compelling mitigating evidence.
ECF No. 117 at 6. Evaluating this claim requires
consideration of the evidence sentencing counsel did
present and what Owens says they should have
presented.
1.

Overview of mitigation case

Owens’ mitigation case consisted of testimony
from five individuals: (1) Marjorie Hammock, a social
historian; (2) Fain Maag, Owens’ third-grade teacher;
(3) Dr. Tora Brawley, a neuropsychologist; (4) Dr.
Thomas Cobb, a forensic psychiatrist; and (5) Dr.
Donna Schwartz-Watts, a forensic psychiatrist.
a.

Marjorie Hammock

Hammock testified about Owens’ troubled
upbringing, including that he was born to an 18-yearold woman who was unable to properly care for Owens
and his four siblings, that he witnessed and personally
experienced significant violence at the hands of his
biological father and then his step-father, that a

App-89
number of his family members (both male and female)
were very violent and served time for violent offenses,
that he was removed from his house at a young age
and placed in the foster system for a period of time
because of abuse and neglect, that he was taught to be
violent in order to survive, that he had learning
disabilities that resulted in significant school
difficulties, that his family lived a marginal existence
in terms of economics and education, and that there is
a correlation between this type of upbringing and a
person who was raised in that environment turning to
violence. She also explained Owens’ family tree in
some detail, pointing out that a significant number of
his family members had been incarcerated, that there
was alcohol and drug abuse throughout the family,
and that the family members had very low levels of
education. See ECF No. 16-3 at 466-84.
b.

Fain Maag

Maag testified about her experiences with Owens
as his third-grade teacher. She told a story about how,
on his first day of school, he threw a desk across the
room and asked her what she was going to do about it.
She also described how he had a very difficult time on
the playground—his peers, recognizing that he was
smaller than they were, would chase him around and
he would run to her for help. She also testified about
him frequently being chased home from school and
that his step-father would lock him out of the house,
telling him that he had to fight the other boys so he
would grow up to be a man. His problems at home
were well-known to her, as she described never having
a parent-teacher conference, bringing him a turkey on
Thanksgiving, and giving him Christmas gifts. She

App-90
further testified about his learning deficiencies,
particularly his difficulty reading and poor social
skills. However, she did note that he was “one heck of
a runner,” that he was an artist, and that he used
words quite well, even though he did not necessarily
spell them correctly. See ECF No. 16-3 at 485-89; ECF
No. 16-4 at 4-5.
c.

Dr. Tora Brawley

Dr. Brawley testified about her evaluation of
Owens’ mental abilities. She testified that his verbal
memory and verbal learning were below what she
would expect, and that he had a documented learning
disability, problems with impulsivity, and poor
attention. However, she noted that he had improved
his IQ score by a significant margin through his own
efforts. She testified that many of his problems were
documented as early as elementary school and that
there were indications that he had lifelong problems
with depression. She explained that childhood
depression can manifest itself as aggression,
irritability, impulsivity, and resistance. She also
referred to a head injury he suffered as a child, though
she could not specifically point to any brain
malfunction as a result of that injury. See ECF No. 164 at 6-18.
d.

Dr. Thomas Cobb

Dr. Cobb testified about his impressions of Owens
after treating him over the course of about one year
while he was at Lieber Correctional Institution within
the South Carolina Department of Corrections (SCDC)
system. Dr. Cobb testified that his first interaction
with Owens was when he reached out to Dr. Cobb for
help because Owens had been getting in a lot of

App-91
trouble in prison and wanted help staying out of
trouble. Dr. Cobb said that Owens was a likeable
person, was very intellectual and philosophical, and
was someone Dr. Cobb enjoyed talking to. He
discussed some of the troubling aspects of Owens’
childhood, including that he had a rough childhood
and that most or all of his family members were
incarcerated.
Dr. Cobb diagnosed Owens with Impulse Control
Disorder (Not Otherwise Specified) and Anxiety
Disorder (Not Otherwise Specified), and Dr. Cobb
explained to the jury what those diagnoses meant. He
also explained the medications that he prescribed for
Owens for the purpose of allowing his mind to stay
calm and give him time to think before reacting. Dr.
Cobb felt that this treatment was helpful and that
Owens’ prognosis would continue to improve if he
stayed on the medication. However, Dr. Cobb
acknowledged on cross-examination that, after the
medication regime started and after he had been
treating Owens for about six months, he possessed in
his cell a 12-inch shank and then, six weeks later, an
8½-inch shank. See ECF No. 16-4 at 18-38.
e.

Dr. Donna Schwartz-Watts

Finally, Dr. Schwartz-Watts testified about her
evaluation of Owens. She spent about ten hours with
him over the course of three visits. She also reviewed
a great number of his records, including the following:
Department of Juvenile Justice (DJJ) treatment
records, disciplinary reports, and write-ups; SCDC
disciplinary reports; and medical records (both while
in custody and out of custody). She also spoke with a
number of people in his life, including his mother,

App-92
Maag, Dr. Brawley, Dr. Cobb, the forensic
psychiatrists at DJJ, and some of his past doctors.
Dr. Schwartz-Watts discussed some of Owens’
traumatic childhood experiences, including that he
suffered physical abuse, that he witnessed his
grandmother shoot a family member, that he
frequently did not go to school because he wanted to
stay home to check on his mother (who was physically
abused by his father and step-father), and that he
witnessed his step-father chase his mother through
the house with a machete.
Regarding Owens’ time at DJJ, Dr. SchwartzWatts noted that, even though he had significant
disciplinary problems, he did well with the ROTC
program and was promoted to the highest rank
available at his campus.
Dr. Schwartz-Watts diagnosed Owens with
Attention Deficit Disorder (ADD), Dysthymic Disorder
(chronic depression), and Antisocial Personality
Disorder. Regarding the ADD diagnosis, she testified
that he began the testing process for ADD while a
child, but he never completed the full assessment and
was never given any medication for it. She concluded
that the ADD symptoms were in partial remission,
noting that he could now pay attention and had taught
himself Arabic, Swahili, and sign language, and was
studying French. She also said that he was reading
scholarly works and was teaching other inmates how
to read. Regarding the depression diagnosis, she said
that he had experienced symptoms of depression
beginning at least in 1995 when he was at DJJ and
that he began receiving treatment for major
depression in 1997. But when he transferred to SCDC

App-93
upon turning 18 years old, he was not continued on his
medications even though he had significantly
improved on them and wanted to continue taking
them. He also asked SCDC for psychiatric help at that
time, but did not receive it. However, he had improved
since he began receiving treatment from Dr. Cobb. She
said that Owens was still impulsive, but not as much
as he had been in the past. Finally, she testified that
he would be able to receive appropriate treatment
while in SCDC custody. See ECF No. 16-4 at 38-79.
2.

Owens’ claims

Owens asserts that there were two primary areas
of mitigation that sentencing counsel should have
presented: (1) a more extensive presentation by
Hammock, the social historian; and (2) evidence
regarding his experiences while in DJJ.
The gist of Owens’ complaint regarding
sentencing counsel’s mitigation presentation is that it
was too short and left out many important details. He
notes in particular that Hammock’s testimony was
significantly shorter than it had been in the two prior
sentencing proceedings. In support of his argument,
he relies in large part on the PCR testimony of Dr.
James Garbarino, who was admitted as an expert on
the psychological effects of trauma and violence on
youths. He based his testimony and opinions on
various reports and other paperwork, as well as a fourhour conversation with Owens. Dr. Garbarino testified
on multiple topics, including the general effects of
chronic trauma on children and risk factors that
increase a person’s propensity to engage in violence.
As to Owens in particular, Dr. Garbarino testified that
Owens’ risk factors included parental abandonment

App-94
and neglect, living in a violent neighborhood, an
extensive family history of violence, school difficulties
and learning disabilities, exposure to drug and alcohol
abuse, and experiencing and witnessing sexual abuse.
Dr. Garbarino testified in significant detail about
Owens’ childhood and young adult life, which included
a number of incidences of physical and sexual abuse
that Owens allegedly suffered as a child and while
incarcerated in local jails, DJJ, and SCDC. However,
Dr. Garbarino acknowledged on cross-examination
that there was no corroborating evidence to support
the sexual abuse allegations. In particular, there was
no indication in any of his custodial records that
Owens reported these alleged assaults to anyone. See
ECF No. 16-6 at 181-286.
3.

PCR order

In the PCR order, the judge concluded that Owens
could not establish ineffective assistance of counsel
because sentencing counsel “properly conducted a
thorough investigation into potential mitigating
evidence and chose to present evidence that it thought
would favor Owens at trial.” ECF No. 16-14 at 161.
The PCR court found legitimate reasons that
Hammock’s testimony was shorter than in the prior
sentencing hearings, including that part of her prior
testimony was no longer relevant. Id. at 162. The PCR
court further found that Owens was not prejudiced by
any omissions from her testimony, as the other
witnesses addressed those topics that she did not.
As to the evidence regarding Owens’ experiences
at DJJ, the PCR court noted that “[a]lthough Owens
met with six defense attorneys, two mitigation
investigators, one private investigator, and a number

App-95
of mental health experts before meeting with
Garbarino in 2009, he failed to inform any of these
individuals of this alleged abuse.” ECF No. 16-14 at
164. The PCR court further noted that there were no
records to support the allegations of abuse. Id. The
PCR court also credited sentencing counsel’s
testimony about why they did not want to present
mitigation evidence regarding Owens’ time at DJJ,
specifically finding that doing so “would have come at
the great cost of opening the door for the State to
introduce evidence that would characterize Owens as
a consistently violent criminal who would be a future
danger to society and who would not adapt well to
prison.” Id. at 166.
4.

R&R

In the R&R, the magistrate judge concluded that
the PCR court’s analysis regarding Hammock’s
testimony did not involve an unreasonable application
of federal law on either Strickland factor. In
particular, the magistrate judge noted that sentencing
counsel’s PCR testimony “reveal[ed] careful planning,
which incorporated Hammock’s own analysis of how
effective her past testimony had been.” ECF No. 193
at 22. The magistrate judge further concluded that “it
was not unreasonable for the PCR court to conclude
that ‘Owens’ trial counsel made the strategic decision
not to elicit testimony from Hammock that was no
longer relevant.’” Id. at 23 (quoting ECF No. 16-14 at
162). The magistrate judge also found that “there is
support in the record for the PCR court’s finding that
sentencing counsel presented a cogent mitigation case
through their five witnesses.” Id. at 28. Finally, the
magistrate judge found that “[t]he PCR court did not

App-96
unreasonably misapply federal law in finding [Owens]
was not prejudiced by any alleged failure on
sentencing counsel’s part.” Id. at 29.
Regarding the DJJ evidence, the magistrate judge
again concluded that the PCR court’s analysis did not
involve an unreasonable application of federal law
regarding either Strickland factor. The magistrate
judge recognized that sentencing counsel were aware,
at least to some extent, of Owens’ experiences while in
DJJ, noting sentencing counsel’s testimony at the PCR
hearing that “[w]e were clearly looking at that. Dr.
Schwartz-Watts had his DJJ records. [Owens] was at
DJJ at a time when DJJ in Columbia was a mess.” Id.
at 31 (quoting ECF No. 16-6 at 105). The magistrate
judge also noted sentencing counsel’s testimony that
he reviewed Owens’ DJJ records, but that he viewed
them as a “two-edge sword” because he “wasn’t
particularly happy with the reason why he was in
DJJ.” Id. (citing ECF No. 16-6 at 106-07).
The magistrate judge also recognized some
apparent confusion in the PCR order regarding its
discussion of Dr. Garbarino’s testimony, 3 but
determined that the PCR order’s conclusion was not
based solely on that finding and that the overall
conclusion was amply supported by the record. Id. at
32-34. Thus, the magistrate judge concluded that “the
PCR court’s ultimate conclusion that sentencing
counsel were not deficient was not ‘based on an
unreasonable determination of the facts in light of the
3 The PCR order repeatedly refers to allegations of ineffective
assistance based on a decision not to present Dr. Garbarino’s
testimony at sentencing, but he was not involved in the case at
the time of sentencing; he only became involved at the PCR stage.

App-97
evidence presented in the State court proceeding.’” Id.
at 34 (quoting 28 U.S.C. § 2254(d)(2)).
5.

Objections

In Owens’ objections, he argues that the R&R
erroneously concluded that sentencing counsel were
not ineffective. He asserts that there was “reasonably
available and readily accessible” evidence that should
have been presented at sentencing that “was lurid,
compelling and humanizing.” ECF No 199 at 4.
Specifically, he argues that sentencing counsel should
have presented evidence regarding his homosexual
prostitution and sexual abuse, as well as physical
abuse he suffered in utero and as a child.
Owens relies in large part on Dr. Garbarino’s PCR
testimony. But, as noted above, Dr. Garbarino only
became involved in the case after sentencing, so his
testimony would not have been available to sentencing
counsel. Thus, it appears that Owens’ argument is
that the facts underlying Dr. Garbarino’s testimony,
not his testimony itself, should have been offered in
mitigation.
Owens also references an incident in September
1997 (shortly after his release from SCDC custody, but
before the Graves murder) where Reverend Thomas
Davenport “was cruising the street looking for sex
with a male,” and was shot twice in the head from
inside his vehicle, implicitly by Owens. Reverend
Davenport survived the shooting. Owens says that an
arrest warrant that was issued for him for that
incident was closed after his arrest for the Graves
murder. He says that sentencing counsel should have
investigated this incident further for presentation at
sentencing. Id. at 9.

App-98
He summarizes his objection by asserting that he
was prejudiced by sentencing counsel’s failure to
introduce a more vivid picture of his life history
because doing so would have created a reasonable
probability that at least one juror would have voted for
a life sentence.
6.

Analysis

At the outset, the Court notes the deferential
standard of review in this matter as set forth in the
caselaw. The question before the Court is not whether
sentencing counsel could have or should have
presented a more detailed mitigation presentation.
The question the caselaw raises is “whether there is
any reasonable argument that counsel satisfied
Strickland’s deferential standard” by presenting the
mitigation case that they did. Harrington, 562 U.S. at
105. The Court answers that question in the
affirmative.
As the magistrate judge recognized, sentencing
counsel’s investigation “reveal[ed] careful planning,
which incorporated Hammock’s own analysis of how
effective her past testimony had been.” ECF No. 193
at 22. While Hammock’s testimony was not as detailed
as it had been in the prior two sentencings, she and
other witnesses covered the same ground that she had
covered in her prior testimony. 4 The jury heard about
many different aspects of Owens’ life, including the
violence he personally suffered and witnessed, the
lengthy and violent criminal records of his family
members, being taught at a young age to handle his
4 The longer, more detailed presentations at the two prior
sentencing proceedings also resulted in death sentences.

App-99
problems through violence, his learning disabilities
and school difficulties, his mental health issues, and
the correlation between these types of issues and a
person resorting to violence in adulthood. The fact
that sentencing counsel could have introduced some
additional details that would have painted an even
more vivid picture of his life does not mean that their
decision not to introduce those additional details “so
undermined the proper functioning of the adversarial
process that the trial cannot be relied on as having
produced a just result.” Strickland, 466 U.S. at 686;
see also Moody v. Polk, 408 F.3d 141, 154 (4th Cir.
2005) (“[P]rejudice does not exist simply because more
corroborating
evidence
could
have
been
presented. . . . Given that the prosecutor did not
present any evidence to contradict the evidence of
abuse, there is simply no reasonable probability that
the jurors doubted the existence of abuse and would
have come to a different verdict had they been
presented further evidence that abuse in fact
occurred.”).
Owens focuses a significant portion of his
briefings on the argument that counsel should have
presented evidence regarding the sexual abuse he
allegedly suffered in his early adolescence and while
in DJJ. However, he does not dispute that there was
no record of these assaults in any of his records and
that he denied being a sexual assault victim when
asked. As the magistrate judge recognized, “[i]t is
difficult to fathom how counsel could have been
deficient for failing to search for or present evidence
about incidents that Owens never shared with them
or his mitigation team and that they had no reason to

App-100
know of otherwise even after an extensive and
thorough investigation.” ECF No. 193 at 34.
Owens asserts that the R&R would “demand proof
in the form of an institutional incident report from
DJJ or the statement of an eyewitness of this sexual
assault before considering that it unreasonably
determined this matter factually,” and that it “would
mandate that [he] hector and cajole his capital counsel
and explain to them what they could find and where
to find it in presenting his mitigational case.” ECF
No. 199 at 6-7. He also asserts that “the PCR Court
unreasonably applied relevant law by requiring [him]
to provide written documentation of his own sexual
abuse at DJJ.” Id. at 6. These statements are not
supported by the analysis in the R&R and PCR order.
The R&R appropriately recognized that
sentencing counsel cannot be faulted for failing to
undercover evidence that they had no reason to believe
existed—there was no evidence of sexual abuse in his
records and Owens denied experiencing it when
questioned by the mitigation team. Far from requiring
the submission of written documentation or requiring
him to “hector and cajole” sentencing counsel, id. at 7,
the R&R and PCR court properly refused to blame
sentencing counsel for failing to uncover something
that he denied occurred and for which there was no
evidence in his records, aside from sentencing
counsel’s general knowledge that all was not well at
DJJ during that time period. See Strickland, 466 U.S.
at 691 (“The reasonableness of counsel’s actions may
be determined or substantially influenced by the
defendant’s own statements or actions. . . . And when
a defendant has given counsel reason to believe that

App-101
pursuing certain investigations would be fruitless or
even harmful, counsel’s failure to pursue those
investigations may not later be challenged as
unreasonable.”).
The fact that Owens told Dr. Garbarino about
these experiences at a much later time is not relevant
to the analysis. The Court acknowledges Owens’
argument that there may well be factors that would
make it difficult for a person in his position to admit
having been sexually assaulted, but that cannot form
the basis of a finding of ineffective assistance of
counsel. A habeas petitioner cannot withhold relevant
information from his counsel and mitigation team, and
then spring it upon the court in a habeas petition in
an attempt to overturn his sentence. See DeCastro v.
Branker, 642 F.3d 442, 456 (4th Cir. 2011) (“[T]he
state court did not act unreasonably in refusing
Petitioner’s attempt to upend his conviction and
sentence based on the information that he failed to
timely provide to counsel.”).
Owens also discusses the shooting of Reverend
Davenport, asserting that this information should
have been presented to the jury. As mentioned above,
this shooting resulted in an arrest warrant being
issued for Owens, but ultimately no charge or
conviction, as the case was apparently dropped after
he was arrested for the Graves murder. It is not clear
why he believes that he would have been less likely to
receive a death sentence if he had admitted to the
attempted murder of a clergyman during the short
period between his release from prison and the Graves

App-102
murder. 5 There is certainly a “reasonable argument
that counsel satisfied Strickland’s deferential
standard” in not putting this matter in front of the
jury. Harrington, 562 U.S. at 105.
For these reasons, Owens has failed to establish
that the PCR court’s denial of his claims in Ground 1
was contrary to or involved an unreasonable
application of clearly established federal law, or was
the result of unreasonable factual findings. See 28
U.S.C. § 2254(d); Harrington, 562 U.S. at 101.
Accordingly, the Court concludes that he has not met
his burden and is therefore not entitled to relief on
Ground 1.
B. Ground 2 - Failure to object to admission
of prison disciplinary infractions
Ground 2 of the amended petition is as follows:
Trial counsel was ineffective at Petitioner’s
2006 sentencing proceeding for failing to
object to the list of prison disciplinary
infractions on Confrontation Clause and Due
Process,
Eighth
Amendment
and
Proportionality Grounds.
ECF No. 117 at 6.
1.

Owens’ claims

At sentencing, the State attempted to introduce,
through an SCDC records custodian, a list of Owens’
prison disciplinary infractions. Sentencing counsel
objected based on the trustworthiness of the records,
but did not raise a Confrontation Clause objection. The
5 Owens refers to the shooting as an “amazing bit of insight into
[his] alter life.” ECF. No. 199 at 9.

App-103
trial court excluded a number of the infractions and
some specific details of others, but ultimately allowed
the State to introduce a list of twenty-eight infractions
that included such incidents as “throws hot water on
an inmate”; “stabs correctional officer Smith in the
face with a shank”; “stabs Undra Golden in the
shower”; possessing a shank on seven other occasions;
and multiple other assaults on officers, staff, and
inmates. ECF No. 16-3 at 458-60. Owens asserts that
sentencing counsel were ineffective in failing to object
based on Confrontation Clause grounds, and that if
sentencing counsel had objected, this evidence would
have been excluded, which would have resulted in a
different outcome at sentencing.
2.

PCR order

In the PCR order, the judge concluded that Owens
could not establish either deficient performance or
prejudice. ECF No. 16-14 at 157-160. As to deficient
performance, the court concluded that the records
were admissible under the business records exception
to the hearsay rule and that non-testimonial business
records do not implicate the Confrontation Clause. Id.
at 157-58. The court concluded that these records
“were not prepared in anticipation of producing
testimony at trial, but rather in accordance with South
Carolina statutory law for the administration of
prison affairs.” ECF No. 16-14 at 158-59. The PCR
court also cited Crawford v. Washington, 541 U.S. 36
(2004) for the proposition that business records are
non-testimonial and therefore not subject to
confrontation. Id. at 158 (citing Crawford, 541 U.S. at
56). As to prejudice, the court concluded that a
Confrontation Clause objection would have been

App-104
overruled and that it was harmless error in any event
because “the State introduced overwhelming evidence
of Owens’ future dangerousness, bad character, and
inability to adapt to prison life.” Id. at 160.
3.

R&R

In the R&R, the magistrate judge concluded that
Owens failed to show that the PCR court unreasonably
applied federal law in finding the disciplinary records
to be non-testimonial in nature and therefore exempt
from Confrontation Clause scrutiny. ECF No. 193 at
38-39. The magistrate judge noted that the PCR court
cited South Carolina statutory and case law requiring
SCDC to maintain inmate records to support the
argument that the primary purpose of the records was
not to “creat[e] an out-of-court substitute for trial
testimony.” Michigan v. Bryant, 562 U.S. 344, 358
(2011). The magistrate judge further noted that
Owens did not point to any Supreme Court case to the
contrary. Thus, the magistrate judge concluded that
the PCR court did not unreasonably apply federal law
in determining that the prison disciplinary records
were non-testimonial in nature. ECF No. 193 at 40.
As to the PCR court’s alternative finding that the
disciplinary records were cumulative to other evidence
already admitted, the magistrate judge found that
there was support in the record for that conclusion. In
particular, Major Thierry Nettles at Lieber
Correctional Institution testified that Owens was
“assaultive, destructive, and damaging . . . bar none,
my most problematic inmate,” and Dr. SchwartzWatts testified regarding his extensive history of
prison disciplinary infractions and she was questioned
about the details of some of them. Id. at 40-41.

App-105
Finally, the magistrate judge concluded that, even
if de novo review applied, Owens still would not be
entitled to relief because the Confrontation Clause
does not apply at sentencing, including capital
sentencing. Id. at 41 (citing United States v. Umaña,
750 F.3d 320, 346 (4th Cir. 2014)).
4.

Objections

In Owens’ objections, he relies in large part on the
Supreme Court’s decision in Melendez-Diaz v.
Massachusetts, 557 U.S. 305 (2009) for the proposition
that the prison disciplinary records were testimonial
in nature and, thus, even if they qualified as business
records for hearsay purposes, they were still
inadmissible under Crawford. He also quotes at
length the opinion dissenting from the denial of
rehearing en banc in Umaña. Owens asserts that he
was prejudiced by the admission of these records
because “the jury was allowed to consider highly
prejudicial evidence that he had no opportunity to
subject to adversarial testing.” ECF No. 199 at 19. He
does not address the R&R’s conclusion that there is
support in the record for the PCR court’s alternative
finding that the disciplinary records were “cumulative
proof of aggravating factors.” ECF No. 16-14 at 160.
5.

Analysis

In arguing that his prison disciplinary records
were testimonial in nature, Owens relies in large part
on Melendez-Diaz, but that case is distinguishable.
Melendez-Diaz involved a question of whether, in a
drug case, state prosecutors could prove that the
substance at issue was cocaine by relying on affidavits
from forensic analysts, or whether the analysts were
subject to confrontation. 557 U.S. at 307. The Supreme

App-106
Court concluded that the affidavits were testimonial,
and the preparers therefore subject to confrontation,
because they were “‘made under circumstances which
would lead an objective witness reasonably to believe
that the statement would be available for use at a later
trial,’” and the sole purpose of the affidavits was to
provide evidence of the composition, quality, and
weight of the substance. Id. at 311 (quoting Crawford,
541 U.S. at 52).
By contrast, the prison records in this case were
not prepared for the purpose of establishing Owens’
guilt for the offenses for which he was charged. As the
PCR court concluded, these records were prepared “in
accordance with South Carolina statutory law for the
administration of prison affairs.” ECF No. 16-14 at
158-59. Furthermore, the R&R correctly notes that
both the Supreme Court and Fourth Circuit have held
that there is no confrontation right at sentencing, even
in capital cases. 6 See Williams v. New York, 337 U.S.
241, 246-48 (1949); Umaña, 750 F.3d at 346. Thus,
this Court concludes that there is a “reasonable
argument that counsel satisfied Strickland’s
deferential standard.” Harrington, 562 U.S. at 105.
In addition, Owens failed to object to the
magistrate judge’s conclusion that the PCR court did
not make an unreasonable factual determination in
concluding that the list of prison disciplinary
infractions was cumulative. Because of the lack of
objection, the Court is not required to give an
6 Owens relies on the opinion dissenting from denial of
rehearing en banc in Umaña, but that position has not prevailed
on a majority of the Fourth Circuit or the Supreme Court, which
denied certiorari in Umaña. 135 S. Ct. 2856 (2015).

App-107
explanation for adopting the recommendation, see
Camby, 718 F.2d at 200, but the Court notes that there
is support in the record for the PCR court’s and the
magistrate judge’s conclusions.
For these reasons, Owens has failed to establish
that the PCR court’s denial of his claims in Ground 2
was contrary to or involved an unreasonable
application of clearly established federal law, or was
the result of unreasonable factual findings. See 28
U.S.C. § 2254(d); Harrington, 562 U.S. at 101.
Accordingly, the Court concludes that he has not met
his burden and is therefore not entitled to relief on
Ground 2.
C. Ground 3 - Failure to object or request
proper instructions regarding the crime
scene video
Ground 3 of the amended petition is as follows:
Trial counsel was ineffective at Petitioner’s
2006 sentencing proceeding for failing to
object or request proper instructions from the
court regarding the crime scene video.
ECF No. 117 at 6.
1.

Owens’ claims

At Owens’ sentencing, the State introduced,
through the testimony of a responding officer, a
convenience store video, which showed two armed,
masked individuals entering the convenience store
and Graves being shot. Owens summarizes the video
as follows:
The video does indeed show two masked men
dressed in dark clothing entering the
Speedway store, but it is impossible to

App-108
determine their identities. After the two men
enter, the video focuses primarily on a single
man standing in front of the counter, directly
opposite Ms. Graves and pointing a gun at her
head. The second man is not visible for most
of the remainder of the video. The man
opposite the counter continues pointing his
gun at Ms. Graves and then she falls
backwards to the floor before the two men run
away out of the store.
ECF No. 117 at 73 (citation omitted). At Owens’ first
two sentencing proceedings, his codefendant testified
that he, not Owens, was the person primarily visible
in the video, and the State introduced evidence
showing that the fatal shot came from the person
standing off-camera. The co-defendant did not testify
at the third sentencing proceeding.
In his PCR application, Owens raised this issue
by arguing that sentencing counsel were ineffective in
“fail[ing] to object and/or request proper instructions
from the court when the State played a crime scene
video without further explanation or analysis.” ECF
No. 16-5 at 2. In his habeas petition, he argues that
sentencing counsel were ineffective in “fail[ing] to
object to [the responding officer’s] testimony, seek an
explanatory instruction or otherwise convey to the
jury that no jury or judge had ever found that [Owens]
was the triggerman.” ECF No. 117 at 74. He asserts
that, because the jurors had been told that he had
been convicted of murder and that they would be
seeing video evidence, they assumed that he was the
person primarily visible in the video. Id. at 73. He also
notes that the jurors in the third resentencing were

App-109
not told that the jury from the guilt phase could have
found him guilty without first determining that he
was the triggerman. Id. He asserts that “[t]he video’s
admission, under these particular circumstances and
without further instruction, was misleading and
prejudicial, and it undermined the jurors’ ability to
meaningfully consider that [he] may not have been the
shooter.” Id. at 75. He claims that there was no
forensic evidence establishing that he fired the fatal
shot and that the only other evidence that he was the
triggerman was the “prior self-interested testimony”
of his co-defendant and his “jilted ex-girlfriend.” Id. at
79.
Additionally, in his petition, Owens argues that
sentencing counsel had an obligation to affirmatively
respond to the State’s implication that he was the
triggerman. See id. at 80 (“The state’s presentation of
aggravating testimony—even of such little evidentiary
value, as described here—triggers counsel’s obligation
to rebut if there is a means by which to do so.”).
2.

PCR order

In the PCR order, the judge concluded that
sentencing counsel were not ineffective in failing to
object to the State playing the video because “there
was nothing improper about the State’s publication of
the crime scene video to the jury.” ECF No. 16-14 at
150. The court noted that “[t]he video was relevant to
the aggravating factors alleged by the State, the
circumstances of the crime, and the character of the
defendant, all of which are proper factors for a
sentencing jury in a capital trial to consider.” Id. at
150-51. Thus, the court concluded that sentencing
counsel were not ineffective in failing to object to the

App-110
video because there was no reasonable basis for an
objection. Id. at 151.
As to any possible instruction from the judge
regarding the video, the PCR court concluded that
“any jury instruction that the court could have given
regarding the contents of the video would have
required the court to comment upon the facts of the
case, which would have been improper.” Id. The court
also noted that sentencing counsel testified at the PCR
hearing “that they knew that an instruction clarifying
the content of the crime scene video would have
violated South Carolina law and that a request for any
such instruction would be denied.” Id.
The PCR court also concluded that Owens was
unable to show that he was prejudiced by sentencing
counsel’s failure to object or request an instruction. Id.
The court noted that the jury “heard testimony that
Owens was the triggerman, that he shot Graves while
standing behind the counter and near the safe, and
that he shot Graves because she would not open the
safe.” Id. The court concluded that in light of all the
evidence presented, he could not prove that there was
a reasonable probability that he would have received
a life sentence had sentencing counsel objected or had
the sentencing judge instructed the jury as to its
contents. Id. at 152.
3.

R&R

In the R&R, the magistrate judge found that the
PCR court did not make unreasonable factual findings
or unreasonably apply federal law when it denied
Owens’ claims on this ground. ECF No. 193 at 46-47.
In responding to his argument that the PCR court
unreasonably found that sentencing counsel testified

App-111
that they “knew” that a request for a clarifying
instruction about the video would have been denied,
the magistrate judge determined that “the PCR court
reasonably concluded that sentencing counsel were
not deficient for failing to object because there was no
proper objection to be made . . . .” Id. at 44. The
magistrate judge also determined that the record
supported the PCR court’s conclusion that Owens had
not demonstrated that there was a reasonable
probability that he would have received a life sentence
had the State not played the video or had the judge
instructed the jury as to its contents. See id. at 45-46.
Additionally, the magistrate judge concluded
that, to the extent Owens’ argument exceeded the
claim that had been raised to and ruled on by the PCR
court, the argument was procedurally barred. Id. at
46. Thus, the magistrate judge determined that his
argument that sentencing counsel had an obligation to
rebut the State’s evidence that he was the triggerman
was procedurally barred and that he had neither
alleged nor demonstrated cause and prejudice to
excuse the procedural bar. Id.
4.

Objections

Owens’ objections are consistent with the
arguments he raised in his petition. See ECF No. 199
at 23-27. He did not specifically address the
magistrate judge’s conclusion that any argument that
sentencing counsel had an obligation to rebut the
State’s evidence that he was the triggerman was
procedurally barred.
5.

Analysis

Regarding the video being shown to the jury,
Owens must show that the PCR court made

App-112
unreasonable factual findings or unreasonably applied
federal law in concluding that sentencing counsel were
not ineffective in failing to object to the video being
shown. He has not met that burden, as the PCR court
correctly concluded that there was nothing improper
about the video because it was relevant to the issues
before the jury and there was no other reasonable
basis for an objection. See ECF No. 16-14 at 150-51.
Accordingly, there is at least a “reasonable argument
that counsel satisfied Strickland’s deferential
standard” in not making such an objection.
Harrington, 562 U.S. at 105.
Similarly, regarding any instruction from the
judge about the video, Owens cannot show that
sentencing counsel were ineffective in failing to
request some sort of clarifying instruction. The PCR
court correctly noted any such instruction would have
been improper. ECF No. 16-14 at 151 (citing S.C.
Const. art. V, § 21).
Owens makes much of the fact that the PCR court
states that sentencing counsel testified at the PCR
hearing that they “knew” that a request for such an
instruction would have been denied, even though they
actually testified that they had not considered making
such a request at the sentencing hearing. See ECF
No. 16-6 at 28-29, 81. However, they did testify at the
PCR hearing that they were aware that it would have
been improper for the judge to have commented on the
video. See id. at 61, 128. Contrary to Owens’
argument, it is irrelevant that the PCR order was
somewhat imprecise in implying that they had made
a strategic decision to not object because they knew at
the time that it would have been denied. The bottom

App-113
line is that a request for the judge to comment on what
the video showed would have been denied based on
South Carolina law, and it is not ineffective assistance
to fail to recognize an opportunity to make a request
that would be denied.
Owens also failed to demonstrate that the PCR
court made unreasonable factual findings or
unreasonably applied federal law in concluding that
he could not prove that he was prejudiced by the
failure to object to the introduction of the video or the
failure to request a clarifying instruction about the
video. The PCR court noted that the jury “heard
testimony that Owens was the triggerman, that he
shot Graves while standing behind the counter and
near the safe, and that he shot Graves because she
would not open the safe.” ECF No. 16-14 at 151. He
questions the reliability of the testimony implicating
him as the triggerman by his “self-interested” codefendant and his “jilted ex-girlfriend,” but his own
evaluation of their reliability does not make the PCR
court’s findings unreasonable. The Court cannot
conclude that the PCR court made unreasonable
factual findings or unreasonably applied federal law
in reaching the conclusion that he failed to
demonstrate prejudice. See Cullen, 563 U.S. at 181
(noting the “highly deferential standard for evaluating
state-court rulings, which demands that state-court
decisions be given the benefit of the doubt”).
Finally, to the extent that Owens is arguing that
sentencing counsel had an affirmative obligation to
rebut the State’s implication that he was the
triggerman,
the
magistrate
judge
correctly
determined that such an argument is procedurally

App-114
barred because it was not raised to the PCR court and
Owens has failed to demonstrate cause and prejudice
to excuse the default. See Gray, 518 U.S. at 162.
Furthermore, as the magistrate judge noted, it is not
clear from Owens’ petition what evidence he believes
sentencing counsel should have presented to rebut the
State’s argument that he was the triggerman. See
ECF No. 193 at 46 n.14.
For these reasons, Owens has failed to establish
that the PCR court’s denial of his claims in Ground 3
was contrary to or involved an unreasonable
application of clearly established federal law, or was
the result of unreasonable factual findings. See 28
U.S.C. § 2254(d); Harrington, 562 U.S. at 101.
Accordingly, the Court concludes that he has not met
his burden and is therefore not entitled to relief on
Ground 3.
D. Ground 4 - Failure to object to testimony
from Officer Wood and Juliana Christy
Ground 4 of the amended petition is as follows:
Trial counsel was ineffective at Petitioner’s
2006 sentencing proceeding for failing to
object to irrelevant, inflammatory, and
prejudicial testimony from both Officer Joe
Wood, who testified Petitioner gave him “cold
chills,” and Juliana Christy, a victims’
advocate who testified this case was “the
hardest case she ever had to work on” in
fifteen years at the Greenville County
Sheriff’s Department.
ECF No. 117 at 6.

App-115
1.

Owens’ claims

Owens argues that sentencing counsel were
ineffective in failing to object to certain testimony from
Officer Joe Wood, who was one of the investigators on
the Graves murder, and Juliana Christy, a victims’
advocate with the Greenville County Sheriff’s
Department.
a.

Officer Wood

Wood testified about his interview with Owens
after he was arrested for the Graves murder. Wood
testified, in relevant part, as follows:
Q: We were at the point where you told Mr.
Owens that what he was telling you was not
adding up, or something to that effect?
A: That’s correct.
Q: And did he say anything to you in response
to that?
A: He did.
Q: What did he say?
A: He said “the only thing I’m here for is to
eat, sleep, shit and piss. I don’t give a shit. I
was born to be in jail.”
Q: After he made that comment, did you make
any other comment to him?
A: Yes, ma’am.
Q: What was that?
A: I asked him at that point if he was aware
that his mother was—had indicated that she
was going to turn him in.
Q: Did he respond to that?

App-116
A: He did.
Q: What did he say?
A: He said “if my mom says anything, tell her
I said adios, to kiss her ass too. She can kiss
my ass too. Tell Ian and the rest of them
assholes to fuck themselves. If I go to jail, I go
to jail. I don’t give a shit.”
Q: After he made that comment, did you say
anything to him or did he make any further
comments to you about himself?
A: He was pretty much just talking and I was
writing as fast as I could, because I wanted to
make sure that I got everything written
down. He pretty much just continued on from
that point and he said “people tend to think I
have a sick and evil mind, but I have a very
educated mind. I would like to take the blame
for all of this, but I’m not going to take it all
myself. I made my mark on Hall Street after
I got out of jail selling lots of drugs. I made
lots of money. Yeah, I want to be remembered
as the one who killed the most people in
Greenville. I’m a real menace.”
Q: Mr. Wood, what was Freddie Owens
demeanor during this conversation that you
had with him?
A: He was cocky. He had a don’t-care attitude.
He smiled a lot when he was saying this.
Q: How did he make you feel?
A: He’s one of two people out of probably 25
years in homicide that I have interviewed
that actually gave me cold chills.

App-117
ECF No. 16-3 at 164-65.
Owens argues that sentencing counsel were
ineffective in failing to object to the “how did he make
you feel?” question and the “cold chills” answer, as he
asserts that this allowed “an arbitrary, speculative,
inflammatory and irrelevant consideration into the
jury’s sentencing decision.” ECF No. 117 at 84. He also
asserts that sentencing counsel were ineffective in
failing to object to the prosecutor’s reference to the
“cold chills” testimony in his closing argument. Id. at
85.
b.

Juliana Christy

Christy testified about the morning she told
Graves’ two young children that their mother had
been killed. She explained how she went to their house
to notify the children, how the children reacted upon
hearing about their mother’s death, and how they had
to go off with their grandmother, whom they barely
knew. ECF No. 16-3 at 340-46. At the conclusion of
Christy’s testimony, she testified, in relevant part, as
follows:
Q: Now, Ms. Christy, how long have you been
a victim advocate?
A: 15 and a half years.
Q: And in that 15 years, how many cases have
you been involved in in which you assisted
victims or their families on crimes?
A: Thousands.
Q: And how would you describe this event in
your career?

App-118
A: This was the hardest, hardest case I have
ever had to work on. I have never had to do
death notification before, or since, and this is
definitely the hardest case I have. It affected
me the most deeply, and still does.
ECF No. 16-3 at 347.
Owens argues that sentencing counsel were
ineffective in failing to object to Christy’s testimony
describing the event in the context of her career, as he
asserts that “[her] testimony relayed the impact that
Ms. Graves’ death had on her own life and career,”
which is not permissible victim impact evidence
pursuant to Payne v. Tennessee, 501 U.S. 808 (1991).
ECF No. 117 at 88. He also asserts that she
improperly provided opinion testimony by saying that
this case was worse than any other she had handled.
Id. at 89. Finally, he asserts that this testimony was
more prejudicial than probative. Id.
2.

PCR order

In the PCR order, the judge concluded that Owens
could not establish either deficient performance or
prejudice as to the testimony from Wood or Christy.
As to Wood, the PCR court concluded that his
entire testimony was admissible because it was
introduced as evidence of Owens’ character and future
dangerousness. ECF No. 16-14 at 153. And because it
was admissible, it was properly relied on by the State
in closing. Id. Thus, the PCR court concluded that
sentencing counsel were not deficient in failing to
object to its admission. Id. Additionally, the PCR court
concluded that, based on the entirety of the State’s
evidence, he could not prove that there was a
reasonable probability that he would have received a

App-119
life sentence had sentencing counsel objected. Id. at
153-54.
As to Christy, the PCR court concluded that her
entire testimony was also admissible because it was
offered to show the harm that Owens caused by
murdering Graves and it was relevant to a
determination of his moral culpability. Id. at 154-55.
As to the Rule 403 argument, the PCR court concluded
that her testimony was properly admitted for the
purposes permitted by Payne. See id. at 156. Finally,
the PCR court concluded that he could not show
prejudice because even if she had not testified, the
State would have presented other evidence of the
effect of Graves’ murder on her children, and Christy’s
testimony was cumulative of other testimony in
evidence. See id. at 156-57.
3.

R&R

In the R&R, the magistrate judge concluded that
Wood’s testimony about Owens giving Wood “cold
chills” can reasonably be interpreted as a description
of a physical sensation that Owens’ statements
prompted in Wood, rather than an opinion. ECF
No. 193 at 48. The magistrate judge further
determined that “[i]t was not unreasonable for the
PCR court to find that Wood’s testimony concerning
Owens’s statements and demeanor constituted
character evidence, and the ‘cold chills’ statement was
part of that character evidence.” Id.
As to Christy’s testimony, the magistrate judge
found that “a reasonable interpretation” of it was that
“it served as further evidence of how deeply Graves’s
death impacted her children.” Id. at 50. The
magistrate judge concluded that the PCR court did not

App-120
make unreasonable factual findings or unreasonably
apply federal law in making that finding. Id.
The magistrate judge also found that, even if
sentencing counsel could have been successful in
objecting to Wood’s or Christy’s testimony, Owens had
to demonstrate to the PCR court that sentencing
counsel’s
failure
to
object
rendered
their
representation constitutionally insufficient, and that
he failed to meet that burden. Id. at 51.
Finally, the magistrate judge concluded that the
PCR court did not make unreasonable factual findings
or unreasonably apply federal law in concluding that
Owens could not show that he was prejudiced by these
asserted errors. See id. at 52-53.
4.

Objections

In his objections, Owens argues that Wood’s “cold
chills” testimony was “irrelevant, inflammatory, and
prejudicial.” ECF No. 199 at 28. Owens asserts that
sentencing counsel should have known that this
testimony was coming and objected to it because Wood
made the same comment at the first two sentencings.
Id. at 28-29. Owens argues that the PCR court did not
explain how this testimony constituted non-opinion
evidence or reflected his character, and that “the R&R
confabulates a physical sensation with the ability to
use that same sensation as a pathway to character
evidence.” Id. at 29-30.
In his objections regarding Christy’s testimony,
Owens asserts that Payne does not allow the
testimony that she gave, and that she should not have
been permitted to testify about the impact the death
notification had on her own life and how it compared
to other cases she has handled.

App-121
5.

Analysis

Regarding Wood’s testimony, Owens must show
that the PCR court made unreasonable factual
findings or unreasonably applied federal law in
concluding that counsel were not ineffective in failing
to object to Wood’s “cold chills” testimony. Owens has
not met that burden, as it was not unreasonable for
the PCR court to conclude that the questioned portion
of Wood’s testimony constituted character evidence.
As the State argued, Wood hearing Owens describe
himself as “a real menace” and that he wanted “to be
remembered as the one who killed the most people in
Greenville,” and then saying that these statements
gave Wood, a veteran homicide detective, cold chills
conveyed to the jury that he treated Owens’ words as
serious statements, not bravado. It is reasonable to
conclude that Wood likely would not have felt that way
if he thought Owens was embellishing his criminal
exploits. Thus, the PCR court correctly concluded that
there was nothing improper about Wood’s testimony,
and there is at least a “reasonable argument that
counsel satisfied Strickland’s deferential standard” in
not objecting to it. Harrington, 562 U.S. at 105.
Regarding Christy’s testimony, the Court agrees
with the magistrate judge that the PCR court did not
make unreasonable factual findings or unreasonably
apply federal law in finding it admissible. While the
particular question at issue asked about the impact of
“this event” on her career, ECF No. 16-3 at 347, it was
clear from the context of the question that “this event”
referred to the death notification, not the murder
itself. She was not testifying about the impact the
murder had on her; she was testifying about the

App-122
terrible impact the murder had on Graves’ young
children, who did not testify at the sentencing. The
context of her testimony made it clear that when
Christy said this case was harder for her than any
other case she had handled, she felt that way because
of the profound impact that the notification had on the
children.
The fact that Christy’s testimony was a step
removed from the direct testimony of a family member
that the Supreme Court permitted in Payne does not
change the analysis. In his objections, Owens says
that Christy, because she was not a member of Graves’
family, “was therefore not within the narrow class of
witnesses Payne permits to provide a quick glimpse of
the victim’s life.” ECF No. 199 at 32 (italics added).
Payne, however, contains no such limitation. Though
the victim impact testimony in that case happened to
come from the victim’s mother, Payne, 501 U.S. at 81415, the Supreme Court’s decision did not hinge on that
fact. The Court merely held that the Eighth
Amendment “erects no per se bar” on a state
“permit[ting] the admission of victim impact evidence
and prosecutorial argument on that subject.” Id. at
827. Owens does not cite any case law for the
proposition that the testimony has to come directly
from the affected family member.
Furthermore, to the extent Owens argues that
Christy’s testimony was inadmissible because she
mentioned the impact it had on her, that argument is
untenable. Even if her testimony should not have
ventured into the impact the death notification had on
her, he cannot show any prejudice from its admission.
It is not reasonable to conclude that the jury, having

App-123
just heard the heart-wrenching story about how
Graves’ young children reacted to the news of her
death, would have been influenced in any meaningful
way by a sheriff’s office employee also being upset
about it.
For these reasons, Owens has failed to establish
that the PCR court’s denial of his claims in Ground 4
was contrary to or involved an unreasonable
application of clearly established federal law, or was
the result of unreasonable factual findings. See 28
U.S.C. § 2254(d); Harrington, 562 U.S. at 101.
Accordingly, the Court concludes that he has not met
his burden and is therefore not entitled to relief on
Ground 4.
E. Ground 5 - Failure to object to improper
closing argument and statements during
jury selection
Ground 5 of the amended petition is as follows:
Petitioner’s rights under the Eighth and
Fourteenth Amendments were violated as a
result of the prosecution’s improper closing
argument and improper statements during
jury selection, and trial counsel was
ineffective for failing to object to the same.
ECF No. 117 at 6.
1.

Owens’ claims

Owens alleges that the solicitor made a series of
statements in his closing argument that violated
federal and state law. In his second amended PCR
application, Owens challenged the following
statements:

App-124
(1) “Only limited circumstances are allowed
for us to seek the death penalty, and
rarely do we seek the death penalty in all
those cases that are eligible. In only
certain cases do we choose to seek the
death penalty.” ECF No. 16-4 at 137.
(2) “There are mean and evil people in this
world who do not deserve to continue to
live with the rest of us, regardless of how
confined they may be. The law limits the
right to seek the death penalty to a very
select number of cases, very few, and we
seek the death penalty in only a few, but
the circumstances where we seek it is
available for mean and evil people who
commit atrocious acts of murder; the
worst of the worst. That is what the death
penalty is reserved for. Those whose
behavior sets them apart even from the
criminal world, and that is Freddie
Owens, and this murder and his behavior
are one of those cases.” Id. at 140-41.
(3) “Big prison is like a little city. In prison
he will have all the necessities of life.
Sure, he will be in solitary, but he will
still have food to eat. They will provide
him clothes. He will have books to read.
He will be able to recreate and exercise.
He will have doctors to take care of him.
He will have the clothing that they
provide, and he will have contact with his
family and loved ones, and TV at times,
and he will have family business. Not

App-125
much more than a change of address for
Freddie Owens. So don’t think putting
Freddie Owens in prison for the rest of
his life is going to be a significant
punishment for him. Id. at 146.
(4) “They have said earlier that the solicitor
is not satisfied with a life sentence, and I
am not, and that’s why we have asked for
the death penalty. They told you that I
was going to want the death penalty, and
I do.” Id. at 140.
See ECF No. 16-5 at 4. 7
Owens argues that sentencing counsel were
ineffective in failing to object to these statements. He
asserts that evidence regarding general prison
conditions is not relevant and that it was improper for
the solicitor to inject his personal opinion into the
jury’s decision. ECF No. 117 at 98. He also asserts that
the solicitor’s arguments “undermined the concept of
discretion afforded to a jury as required by the Eighth
Amendment,” and that “[t]hey are inconsistent with
the Court’s mandate in Caldwell [v. Mississippi, 472
U.S. 320 (1985)] that the jury cannot be ‘. . . led to
believe that the responsibility for determining the
appropriateness of the defendant’s death sentence
rests elsewhere.’” Id. at 99. Finally, he asserts that
“the PCR court refused to consider the cumulative
7 To the extent Owens now seeks to challenge any other
statements made in closing, such a challenge is procedurally
defaulted because no other statements were raised in the PCR
application, and he has not set forth cause and prejudice to
excuse the default. See Gray, 518 U.S. at 162. Accordingly, the
above statements are the only ones the Court will address.

App-126
impact of constitutional error and instead erroneously
addressed each of the Solicitor’s comments in turn.”
Id. at 104.
2.

PCR order

In the PCR order, the judge concluded that the
solicitor’s first and second statements quoted above, to
the effect that the State pursues a death sentence only
rarely, were not improper, as the solicitor was merely
explaining that the State does not pursue the death
penalty in every death-eligible case. ECF No. 16-14 at
167.
The judge concluded that the third statement
quoted above, to the effect that the death penalty was
appropriate because a life in prison would have been
too easy on Owens, was also not improper, as “[t]hese
arguments were tailored to the specific crimes that
Owens committed and to Owens himself.” Id. The
judge determined that, given some of Owens’
statements to investigators after the Graves murder—
that he “was born to be in jail” and “If I go to jail, I go
to jail, I don’t give a shit”—it was appropriate to argue
that life in prison would not be a significant
punishment for him. Id. at 168.
The judge also concluded that the fourth
statement quoted above, to the effect that the solicitor
himself wanted the death penalty, was not improper
given the context in which it was made. Id. The judge
determined that this was simply a statement that he
was seeking the death penalty because it was
appropriate under the facts of the case and that these
comments merely explained the State’s position. Id.
Additionally, the judge found that, even if Owens
could establish deficiency, he could not prove

App-127
prejudice, as the challenged comments were only a
small portion of a lengthy closing argument and the
trial court told the jury that they were not required to
return a death sentence. Id. The judge concluded that
“[g]iven the admitted evidence of guilt, the
circumstances of the crime, the curative jury
instruction, and the great amount of evidence in
aggravation, Owens is unable to prove that there is a
reasonable probability that the jury would have
returned a life verdict had the solicitor not made these
comments.” Id. at 169.
3.

R&R

In the R&R, the magistrate judge concluded that
“Owens has failed to show that the PCR court’s
conclusions rest on unreasonable factual findings or
an unreasonable application of federal law.” ECF
No. 193 at 54. The magistrate judge found that the
PCR court’s reasoning was consistent with federal law
and that Owens failed to demonstrate how the PCR
court’s conclusions were contrary to or an
unreasonable application of federal law. Id. As to
Owens’ assertion that the PCR court did not consider
the cumulative impact of constitutional error, the
magistrate judge determined that “[w]hile the PCR
court considered the propriety of each comment
separately, it considered the comments together when
determining whether [Owens] was prejudiced by
sentencing counsel’s failure to object.” Id. at 55.
4.

Objections

Owens argues that the solicitor’s arguments
“suggested that the jurors should defer to his expertise
in evaluating the gravity of [Owens’] crime relative to
other murders,” and that the arguments “misle[d] the

App-128
jury into believing that a lifetime in prison would
amount to a comfortable, easy life” for Owens. ECF
No. 199 at 37. He argues that sentencing counsel were
deficient in failing to object to these statements “both
as they were individually stated during the course of
the trial and in view of the cumulative impact it had.”
Id. at 38. He asserts that the PCR court did not
address the cumulative impact of the asserted errors
and that the R&R erroneously “continue[d] this
piecemeal analysis rather than evaluate the
cumulative effect the misstatements had on the jury’s
view of its role and responsibility.” Id. at 39. 8
5.

Analysis

As to the solicitor’s statements that the State only
rarely pursues the death penalty, the PCR court did
not unreasonably apply federal law in concluding that
these statements were not improper. Owens does not
cite any cases holding that it is improper for a
prosecutor to explain that while most cases do not
warrant pursuit of the death penalty, the particular
case in question does warrant it.
Regarding the solicitor’s statements about the
relative ease of life in prison for Owens, the PCR court
did not unreasonably apply federal law in concluding
Owens also argues that the solicitor misstated the law by
arguing that it was Owens’ burden to prove that he deserved a
life sentence rather than the death penalty and that he
improperly urged the jury to impose a death sentence for the
greater good of the community. ECF No. 199 at 38. However, as
noted above, these arguments were not raised to or ruled on by
the PCR court and are therefore procedurally barred. See Gray,
518 U.S. at 162. Furthermore, in considering the argument in full
and the judge’s charge on the law, no relief is warranted.
8

App-129
that these statements were not improper. The PCR
court properly recognized that, given Owens’
statements to the effect that he was not concerned
about being incarcerated, there was nothing wrong
with the solicitor arguing that prison would not be an
adequate punishment for him.
As to the solicitor’s statements that he wanted the
death penalty, the PCR court did not unreasonably
apply federal law in concluding that these statements
were not improper. As the PCR court recognized, these
statements were merely the solicitor explaining the
State’s position that the death penalty was
appropriate, and Owens has not cited any cases to the
effect that such a statement is improper.
Finally, the PCR court did not unreasonably apply
federal law when it concluded that, even if Owens
could show deficiency, he could not show prejudice. He
repeatedly asserts that both the PCR court and the
R&R erred in not considering the cumulative impact
of the statements, ECF No. 199 at 39, but that
assertion is not accurate. As the magistrate judge
noted, the PCR court evaluated each comment
separately for deficiency purposes, but properly
considered them together when evaluating prejudice.
ECF No. 193 at 55 (citing ECF No. 16-14 at 167-69).
For these reasons, Owens has failed to establish
that the PCR court’s denial of his claims in Ground 5
was contrary to or involved an unreasonable
application of clearly established federal law, or was
the result of unreasonable factual findings. See 28
U.S.C. § 2254(d); Harrington, 562 U.S. at 101.
Accordingly, the Court concludes that he has not met

App-130
his burden and is therefore not entitled to relief on
Ground 5.
F. Ground 6 - Failure to present evidence of
institutional negligence
Ground 6 of the amended petition is as follows:
Trial and collateral counsel were ineffective
to the prejudice of the applicant by failing to
investigate, develop and present evidence of
institutional negligence which would have
mitigated the State’s theory that the incustody death of Mr. Lee conclusively
established future dangerousness and the
only sentencing option for the petitioner was
death. Evidence from expert witnesses
available at the time of the petitioner’s
sentencing
trial
demonstrated
that
institutional negligence in failing to classify,
and detain the petitioner in accordance with
that classification, was the proximate cause
of the death of Mr. Lee. 5th, 6th, 8th and 14th
Amendments to the Constitution of the
United States of America; Skipper v South
Carolina, 476 US 1 (1986).
ECF No. 117 at 6-7. 9
1.

Owens’ claims

In Ground 6, Owens alleges that sentencing
counsel were ineffective in failing to present evidence
of Greenville County Detention Center’s institutional
negligence regarding the murder of Christopher Lee
9 Owens acknowledges that this ground has not been exhausted
and is being advanced pursuant to Martinez. ECF No. 117 at 112.

App-131
that Owens committed in the early morning hours of
February 16, 1999, which was immediately after his
conviction but before his first sentencing. 10 He
Owens gave the following written confession later that
morning:
10

At eleven p.m., on 2-15-99, myself and the other
inmates in my cell block watched the news and saw
that I was found guilty. I then worked out and took a
shower. I went to bed and woke up whenever they
came to get one of the other inmates to take him to
Perry. This was around three a.m. While they were
getting the guy ready to go to Perry, Christopher Lee
said you won’t be the only one because Freddie is
coming down there with you. I told him to shut the fuck
up. He told me his cousin was on the jury. I asked him
if he knew that they convicted me. He said fuck you, I
know because my cousin was on the jury. End quote. I
then walked into his cell and hit him in the eye. He fell
down on his back. I got on top and started hitting him
mostly in the face and throat. I took a pen from his
right hand and my right hand and stabbed him in his
right eye. I then tried to stab him in his chest but the
pen would not go in. I then stabbed him in his throat.
I don’t know if the pen went into his throat or not. He
started bleeding out of his mouth. There was a sheet
tied into a snare laying on his bed. I reached and got it
and put it over his head onto his neck. I wrapped it
around my left hand and pulled it tight. I started
hitting him in the face with my right hand. Then I
started choking him with my right hand and pounding
his head against the floor. He never fought back after
the first punch he was out of it. He was still breathing
and the stuff coming out of his mouth stunk, so I stood
up and stomped his head and body with my feet. I saw
a black and blue lighter under the bunk. I grabbed it
and burned him around the eye and on the left side of
his head. I rammed his head into the wall. He was still
moaning and breathing. I walked out of the cell to
leave him alone. I heard the crazy moaning again, so I

App-132
acknowledges that this claim is procedurally
defaulted, but attempts to overcome that bar by
asserting that his PCR counsel was ineffective in
failing to raise this issue. He also ties this claim in
with Ground 7 by alleging that counsel should have
“weav[ed] together” evidence of institutional
negligence with evidence of brain damage. Id. at 109.

grabbed the pen off the floor where I had thrown it and
went back into his cell. I got back over him and
rammed the pen up his right nostril. I closed his left
nostril with my left hand and started choking him with
my right hand. The sheet was still around his neck. I
was choking him above the sheet. Throughout all of the
above he was moaning and breathing. I kept checking
him to see if he was dead. I would check his pulse on
his wrist, and I put my ear beside his neck and chest
to hear if he was breathing. I wanted him to be dead at
that time. I finally thought he was dead, so I threw him
on his bunk and covered him up. The first time I put
him on the bunk he fell off. I then packed my stuff and
put my mattress on the table and went to- sleep. While
I packed my stuff, the black guy that had been on the
top bunk of Christopher’s cell the whole time this went
on got down and put his mattress on the other table
and sit down. Everyone in the cell block was awake
when I left Christopher. I woke up when Hefner
opened the door to bring in breakfast. When I got in
the line I was third in line and Sergeant McNeill
walked by and I told him to cuff me. He said he would
not, and I told him he would if he with [sic] go into
Christopher’s cell. He looked into the cell and Hefner
went into the cell. Sergeant McNeill told Hefner to cuff
me, which he did. Sergeant McNeill then called
someone on the radio. I really did it because I was
wrongfully convicted of murder.
ECF No. 16-3 at 405-08.

App-133
Regarding the murder, Owens alleges, upon
information and belief, that there was no correctional
officer assigned to the cell block where Owens and Lee
were housed, and that the visual security system was
not in operation at that time. Id. at 104-05. Two years
after the murder, Lee’s personal representative
brought a civil action against several defendants,
including Greenville County and the Greenville
County Detention Center. Lee v. Greenville County, et
al., No. 6:01-cv-00427-TLW (D.S.C.). 11 Owens was not
a party to the case. Prior to jury selection, the case
settled for $600,000.
2.

R&R

In the R&R, the magistrate judge began by
recounting the facts of Lee’s murder, including Owens’
written confession explaining in graphic detail how he
carried out the murder. ECF No. 193 at 62-63. She
then distinguished the facts in Rompilla v. Beard, 545
U.S. 374 (2005), cited by Owens, from the facts of this
case. Id. at 65-66. She noted that, in contrast with
Rompilla, sentencing counsel in this case were wellaware of the Lee murder and attempted to mitigate it
by showing a change in Owens from the Lee murder
in 1999 to the third sentencing in 2006. Id. at 66. Thus,
she concluded that, although sentencing counsel were
Owens asserts that he was unable to obtain a copy of the
complaint in that case because the Court denied him permission
to conduct discovery regarding that file. ECF No. 117 at 106. No
order from this Court or the magistrate judge prevented him from
obtaining the public filings in that case. Even if filed documents
in older cases are not available on PACER, they are still readily
available,
as
explained
on
the
Court’s
website:
https://www.scd.uscourts.gov/Records/record.asp.
11

App-134
not aware of the civil suit, they “were not willfully
ignorant of the facts of his aggravating crime,” and
were therefore not deficient. Id. at 66-67.
Regarding PCR counsel’s performance, the
magistrate judge concluded that PCR counsel made
reasonable efforts to investigate the issue, though her
efforts to obtain Lee’s family’s litigation file were
ultimately unsuccessful. Id. at 67.
The magistrate judge also concluded that
sentencing counsel were not deficient in “failing to
pursue a trial strategy that is borderline frivolous and
potentially inflammatory.” Id. She found that even if
the detention center was negligent, that “does not
diminish Owens’s own criminal culpability in beating,
burning, stomping, and choking Lee until he was sure
that Lee was dead.” Id. at 68.
Finally, the magistrate judge determined that
even if sentencing counsel were deficient, Owens could
not show that he was prejudiced because he had not
shown that evidence of institutional negligence,
whether or not in combination with evidence of a brain
abnormality, would have rendered the Lee murder
less aggravating. Id. at 69. She noted that attempting
to shift blame for the murder to the detention center
could have invited the idea that if he were sentenced
to prison and he was not properly confined at all times,
the result could be fatal. Id.
For these reasons, the magistrate judge concluded
that Owens failed to present a substantial Strickland
claim and that the procedural default therefore could
not be excused pursuant to Martinez. Id.

App-135
3.

Objections

In his objections to the R&R, Owens argues that
mitigating the Lee murder was essential to obtain a
life sentence and that his petition (with the attached
affidavits) made a threshold showing that the claim
had some merit. ECF No. 199 at 47. He also argues
that the magistrate judge misapprehended “both the
issue and the evidence” regarding institutional
negligence. Id. He claims that “[t]he R&R in essence
finds that future dangerousness in this case is
irrebuttable and conclusive as a matter of law because
of the brutality of the crime.” Id. at 47-48. He argues
that his evidence establishes that but for the
institutional negligence by the detention center, Lee’s
death would not have occurred. Id. at 48.
4.

Analysis

The Court agrees that attempting to mitigate the
Lee murder was important to Owens’ attempt to avoid
the death penalty. But where his argument fails is
that, unlike in Rompilla, his sentencing counsel were
well-aware of the issue. Recognizing that they could
not keep it from the jury, they attempted to mitigate
it by arguing that he had changed in the time between
the Lee murder in 1999 and the third sentencing
proceeding in 2006. See ECF No. 16-6 at 130-32. While
sentencing counsel did not know about the civil suit by
Lee’s family, they knew that the jail’s security
decisions that night were less than stellar. See id. at
133 (“For the jail to put him back in a pod with general
population after being found guilty of murder under
these circumstances was incredibly stupid.”). Thus, as
the magistrate judge concluded, they were not
willfully ignorant of the facts of his aggravating crime,

App-136
and were therefore not analogous to counsel in
Rompilla. ECF No. 193 at 66-67.
The magistrate judge also properly recognized
that sentencing counsel were not deficient because
trying to mitigate the Lee murder by blaming it on the
jail would have been “borderline frivolous and
potentially inflammatory.” Id. at 67. Owens’ prison
expert’s report on the incident concluded that “[i]f only
basic necessary measures were taken regarding the
above listed system issues leading up to the critical
event, it is reasonable to conclude that the critical
event involving the death of Mr. Lee would have been
prevented.” ECF No. 117-7 at 11. Taking this
conclusion as correct—that Lee’s murder would not
have occurred if the jail had taken “basic necessary
measures”—does not absolve Owens or mitigate his
actions. While the jail’s failure to keep Owens away
from other inmates after his conviction may have
contributed to Lee’s death, it should go without saying
that Lee would not have met his untimely death had
Owens not murdered him. As the magistrate judge
aptly recognized,
The possibility that the detention center was
negligent under a civil tort standard in failing
to prevent Owens from having the
opportunity to murder Lee does not diminish
Owens’s own criminal culpability in beating,
burning, stomping, and choking Lee until he
was sure that Lee was dead. And it would
have been easy for a jury to see through such
an attempt to shift blame.
ECF No. 193 at 68.

App-137
Furthermore, making such an argument to the
jury may well have had an unintended result because,
as the magistrate judge noted, it would have invited
the idea that if he were sentenced to life and any
mistakes were made by the prison system, the result
could be fatal. See Moody, 408 F.3d at 151-52, 154
(finding no prejudice where the proposed evidence was
as likely to harm the petitioner as to help him). This
is particularly so when combined with the violence
depicted in his prison disciplinary records, which
included multiple assaults and stabbings, and
multiple weapons possessions. This is also so
regardless of whether evidence of the jail’s negligence
had been offered in combination with evidence of a
brain abnormality.
For these reasons, the underlying ineffective
assistance claim for this ground fails on the merits and
Owens therefore cannot rely on Martinez to overcome
the procedural default. Accordingly, he is not entitled
to relief on Ground 6.
G. Ground 7 - Failure to present evidence of
brain damage
Ground 7 of the amended petition is as follows:
Trial and collateral counsel were ineffective
to the prejudice of the applicant by failing to
investigate, develop and present objective
and scientific evidence of structural and
functional brain damage resulting from early
childhood trauma and materially limiting the
applicant’s ability to make informed
decisions, learn from past behavior, and
control impulses resulting from recurrence of
situation prompts in daily living which were

App-138
the same or similar to those of his early
childhood. 5th, 6th, 8th, and 14th
Amendments to the Constitution of the
United States of America; Wiggins v Smith,
539 US 510 (2003).
ECF No. 117 at 7. 12
1.

Owens’ claims

In this claim, Owens alleges that sentencing
counsel were ineffective in “failing to investigate,
develop[,] and present objective and scientific evidence
of structural and functional brain damage resulting
from early childhood trauma[,] which materially
limits [his] ability to make informed decisions, learn
from past behavior, and control impulses . . . .” ECF
No. 117 at 113. He bases his argument on two reports.
The first report, by Dr. Ruben C. Gur, is a
volumetric analysis of an MRI scan and a quantitative
analysis of a PET scan performed by Dr. Gur and his
colleagues at the University of Pennsylvania. 13 ECF
No. 117-17. This report concluded that Owens has
brain abnormalities that “indicate diminished
executive functions such as abstraction and mental
flexibility, planning, moral judgment, and emotion
regulation, moderating limbic arousal, and especially
impulse control.” Id. at 4.

Owens acknowledges that this ground has not been
exhausted and is being advanced pursuant to Martinez. ECF
No. 117 at 125.
12

13 The MRI and PET scans were performed at the Medical
University of South Carolina, but the analyses were performed
at the University of Pennsylvania.

App-139
The second report, by Dr. Stacey Wood, is a
neuropsychological review and evaluation of Owens.
ECF No. 117-18. Based on her review of various
materials and evaluation of him, she concluded that
he has “significant brain impairment.” Id. at 17. She
also stated that “[e]arly indicators of brain injury were
present during the developmental period and
warranted further investigation. As such, the
possibility of an organic cause for some of Mr. Owen’s
[sic] profile should have at least been considered and
explored during previous phases of this matter.” Id. at
21.
Owens argues that sentencing counsel were
ineffective in failing to further investigate whether he
had brain deficiencies. He claims that sentencing
counsel should have been alerted to investigate
further because of two medical factors—the diagnosis
of a seizure disorder and the thirteen-point difference
between his verbal and performance IQ. ECF No. 174
at 126. He also claims that the sentencing testimony
of Drs. Brawley and Schwartz-Watts undermines the
claim that sentencing counsel’s investigation was
sufficient. Id.
2.

R&R

In the R&R, the magistrate judge concluded that
sentencing counsel were not deficient for failing to
further investigate and present evidence regarding
Owens’ mental health and brain function. ECF
No. 193 at 72. The magistrate judge determined that
sentencing counsel, after an investigation by three
mental health experts into Owens’ mental health,
were not presented with a reason to perform further
investigation. See id. at 75-76. She noted that there

App-140
were “no indications that any of those experts advised
sentencing counsel to obtain neuroimaging, and the
conclusion
of
sentencing
counsel’s
retained
neuropsychologist was that Owens did not have any
significant brain dysfunction.” Id. at 75.
For these reasons, the magistrate judge concluded
that Owens failed to present a substantial Strickland
claim and that the procedural default therefore could
not be excused pursuant to Martinez. Id. at 79.
3.

Objections

In his objections to the R&R, Owens asserts that
evidence was available to sentencing counsel that
establishes that he “suffers with organic brain damage
that material [sic] impacts his cognitive functioning
including his ability to reason.” ECF No. 199 at 49. He
further asserts that sentencing counsel “did not
consider investigating, developing and presenting
such evidence.” Id. He argues that the R&R excused
these failures by pointing to what sentencing counsel
did do rather than considering what they did not do.
Id. He also asserts that the Court denied him the
opportunity to present this evidence at an evidentiary
hearing, which prevented him from presenting this
evidence as it relates to moral culpability. See id. at
50.
4.

Analysis

As the magistrate judge recognized, sentencing
counsel developed a mitigation strategy that focused
on how Owens’ difficult childhood led him to the point
where he committed the Graves murder, but argued
that he had since reached out for help and was trying
to better himself. ECF No. 193 at 73 (citing ECF
No. 16-6 at 89-91). As part of that strategy, sentencing

App-141
counsel presented the testimony of three mental
health experts—Drs. Cobb, Brawley, and SchwartzWatts—who evaluated him and could testify
regarding his past, present, and future. Nothing in the
record indicates that any of these experts advised
counsel to obtain neuroimaging, and Dr. Brawley’s
evaluation resulted in her concluding that Owens did
not have any significant brain dysfunction. See ECF
No. 16-4 at 18. Sentencing counsel were not ineffective
in failing to pursue neuroimaging when none of their
experts believed it to be necessary. See Byram v.
Ozmint, 339 F.3d 203, 210 (4th Cir. 2003) (“[A] failure
to ‘shop around’ for a favorable expert opinion after an
evaluation yields little in mitigating evidence does not
constitute ineffective assistance.”); Wilson v. Greene,
155 F.3d 396, 403 (4th Cir. 1998) (“To be reasonably
effective, counsel was not required to second-guess the
contents of [their expert’s] report. . . . [C]ounsel
understandably decided not to spend valuable time
pursuing what appeared to be an unfruitful line of
investigation.”) (citation omitted). The Court cannot
conclude
that
counsel’s
failure
to
pursue
neuroimaging in light of these facts “so undermined
the proper functioning of the adversarial process that
the trial cannot be relied on as having produced a just
result.” Strickland, 466 U.S. at 686.
Additionally, as the magistrate judge noted,
sentencing counsel had in their possession evidence
very similar to what Owens now says they should have
obtained. Specifically, they had the evaluation and
prior testimony from Dr. James Evans, who testified
at the second sentencing. His evaluation described
certain brain abnormalities that “could be relatively
severe in terms of temper-impaired attention,

App-142
behavioral impulsivity.” ECF No. 15-7 at 420.
However, sentencing counsel declined to use him as a
witness for two primary reasons: (1) sentencing
counsel wanted a witness whose testimony would
“more easily dovetail in with Donna Schwartz-Watts
and what Donna Schwartz-Watts had to say”; (2) Dr.
Evans had sent his test “out west, like to California,”
and sentencing counsel were concerned about how
that might play in front of a local jury. ECF No. 16-6
at 137-39. Thus, while sentencing counsel had similar
evidence to what Owens now seeks, sentencing
counsel made a strategic decision to not use that
evidence and instead pursue a different mitigation
angle, which is a decision that is entitled to great
deference. See Strickland, 466 U.S. at 690 (“[S]trategic
choices made after thorough investigation of law and
facts relevant to plausible options are virtually
unchallengeable . . . .”).
For these reasons, the underlying ineffective
assistance claim for this ground fails on the merits and
Owens therefore cannot rely on Martinez to overcome
the procedural default. Accordingly, he is not entitled
to relief on Ground 7. 14
H. Ground 8 - Failure to object to jury
charge
Ground 8 of the amended petition is as follows:
Trial and collateral counsel were ineffective
to the prejudice of the applicant by failing to
object to the court’s recurring jury charge that
a finding of life without parole must be
14 Owens’ concerns about the lack of an evidentiary hearing are
discussed later in this order.

App-143
unanimous when that charge was not in the
sentencing statute, was false, materially
misleading, coercive, abusive and irrelevant
to the sentencing function. (5th, 6th, 8th and
14th Amendments to the Constitution of the
United States of America; (Winkler v South
Carolina not yet decided)
ECF No. 117 at 7. 15
1.

Owens’ claims

In this claim, Owens asserts that sentencing
counsel were ineffective in failing to object to five
statements the trial court made during the jury
instructions to the effect that the jury could
recommend a life sentence and that any such
recommendation had to be unanimous. The five
statements that he points to are as follows:
“Ladies and gentlemen, any decision that you
make with regard to any sentence for this
defendant must be unanimous. All twelve of
you who deliberate must agree.” Trans. p.
1585 [ECF No. 16-4 at 170].
“However, a decision to impose a life
sentence, like a decision to impose one of
death, must be unanimous.” Trans. p. 1594
[ECF No. 16-4 at 179].
“Now the next document I believe that you
have is the unanimous recommendation of a

15 Owens acknowledges that this ground has not been
exhausted and is being advanced pursuant to Martinez. ECF
No. 117 at 133.

App-144
sentence for life.” Trans. p. 1597 [ECF No. 164 at 182].
“Now, ladies and gentlemen, any decision
that you make in this case must be
unanimous. All twelve of you have to agree.”
Trans. p. 1598 [ECF No. 16-4 at 183].
“You may impose a sentence of life
imprisonment only if you unanimously find
beyond a reasonable doubt one, or both, of the
aggravating circumstances and agree that
the sentence should be life imprisonment.”
Trans. pp. 1598-99 [ECF No. 16-4 at 183-84].
ECF No. 117 at 126. Owens asserts that these
instructions were not consistent with S.C. Code Ann.
§ 16-3-20(C), which provides in relevant part as
follows:
The jury shall not recommend the death
penalty if the vote for such penalty is not
unanimous as provided. If members of the
jury after a reasonable deliberation cannot
agree on a recommendation as to whether or
not the death sentence should be imposed on
a defendant found guilty of murder, the trial
judge shall dismiss such jury and shall
sentence
the
defendant
to
life
imprisonment . . . .
Based on Owens’ interpretation of this statute, he
asserts that the trial court erred in telling the jury
that any recommendation of life must be unanimous.
ECF No. 117 at 128. He asserts that these instructions
violated his rights under the Fifth, Sixth, and Eighth
Amendments and that sentencing counsel were
ineffective in failing to object to them. Id.

App-145
2.

R&R

In the R&R, the magistrate judge concluded that
there was no merit to Owens’ argument. The
magistrate judge noted that the following language in
the statute contemplates the possibility of a
unanimous recommendation of life: “If members of the
jury after a reasonable determination cannot agree on
a recommendation as to whether or not the death
sentence should be imposed . . . .” ECF No. 193 at 80
(quoting S.C. Code Ann. § 16-3-20(C)) (emphasis
added). The magistrate judge also points out that the
South Carolina Supreme Court has repeatedly
concluded that the statute contemplates a unanimous
recommendation of life. Id. at 81. Accordingly, the
magistrate judge concluded that counsel were not
ineffective in failing to object to the challenged
instructions, as any such objection would have been
overruled because the instructions were correct
statements of the law. Id.
For these reasons, the magistrate judge concluded
that Owens failed to present a substantial Strickland
claim and that the procedural default therefore could
not be excused pursuant to Martinez. Id. at 81-82.
3.

Objections

In his objections to the R&R, Owens asserts that
the R&R “fail[s] to appreciate the insidious nature of
an instruction that divests and coerces a minority
juror into abandoning his or her view of the mitigation
evidence and their decision to vote for life. The jury
charge that a life without parole sentence must be
unanimous is extra-judicial, contradicted by the
statute and misleading.” ECF No. 199 at 52. He
asserts that “requiring a recommendation of life be

App-146
unanimous is inherently ambiguous, inaccurate and
coercive and prevents a minority juror from giving full
meaning to the mitigation evidence by voting and
maintaining a minority position on the sentence.” Id.
Owens cites Boyde v. California, 494 U.S. 370
(1990) for the proposition that “if there is a ‘reasonable
likelihood’ that a minority juror would apply the
instruction to mean that he or she would have to
persuade the majority to change their opinion before
the minority juror could give meaning to his or her
own view then the charge violates the Fifth and
Eighth, and Fourteenth Amendments.” ECF No. 199
at 52-53. Similarly, he asserts that “[a]ny charge that
a juror could reasonably interpret as restricting his or
her review and use of mitigation evidence violates the
Constitution.” Id. at 53.
4.

Analysis

At the outset, the Court notes that, as Owens
acknowledges, the South Carolina Supreme Court has
repeatedly rejected his interpretation of S.C. Code
Ann. § 16-3-20(C). See Winkler v. South Carolina, 795
S.E.2d 686, 694 (S.C. 2016); State v. Copeland, 300
S.E.2d 63, 70 (S.C. 1982); State v. Adams, 283 S.E.2d
582, 587 (S.C. 1981), overruled on other grounds by
State v. Torrence, 406 S.E.2d 315 (S.C. 1991). Thus,
had sentencing counsel objected to the challenged
instructions, the trial court would have overruled the
objection.
Owens argues that the statute, as interpreted by
the
South
Carolina
Supreme
Court,
is
unconstitutional, but there is no merit to that
objection. His position that it is unconstitutional for a
court to tell a jury that their sentencing decision,

App-147
whether for death or life, must be unanimous finds no
support in case law. His analysis misapplies the cases
he cites in his objections. For example, as noted above,
he cites Boyde for the proposition that “if there is a
‘reasonable likelihood’ that a minority juror would
apply the instruction to mean that he or she would
have to persuade the majority to change their opinion
before the minority juror could give meaning to his or
her own view then the charge violates the Fifth and
Eighth, and Fourteenth Amendments.” ECF No. 199
at 52-53. That proposition finds no legal support in
Boyde.
In Boyde, the jury was given a list of ten specific
factors and a general catch-all factor to consider in
making its decision on whether or not to recommend a
death sentence. Boyde, 494 U.S. at 373-74. The jury
was also told that, after considering all applicable
aggravating and mitigating circumstances, the jury
“shall impose” a death sentence if the aggravating
circumstances
outweighed
the
mitigating
circumstances or “shall impose” a life sentence if the
mitigating circumstances outweighed the aggravating
circumstances. Id. at 374. The defendant argued that
none of the listed factors allowed the jury to consider
factors such as his background and character, which
were the bulk of his mitigation case. Id. at 378. The
Court held that, in a situation where “the instruction
is ambiguous and therefore subject to an erroneous
interpretation[,] . . . the proper inquiry in such a case
is whether there is a reasonable likelihood that the
jury has applied the challenged instruction in a way
that prevents the consideration of constitutionally
relevant evidence.” Id. at 380. Applying this standard,
the Court concluded that there was not a reasonable

App-148
likelihood that the jury interpreted the instructions to
prevent consideration of his mitigating evidence of
background and character. Id. at 381. That decision
has no relevance to the issue Owens raises in this
case—whether it is constitutional to inform a jury that
its ultimate decision, whether for death or for life,
must be unanimous.
The other primary case cited by Owens in his
objections—Mills v. Maryland, 486 U.S. 367 (1988)—
also affords him no relief. There, the United States
Supreme Court reviewed a situation where a
reasonable jury could have interpreted the jury
instructions and verdict form “to require the
imposition of the death sentence if the jury
unanimously found an aggravating circumstance, but
could not agree unanimously as to the existence of any
particular mitigating circumstance.” Mills, 486 U.S. at
371. The Court reversed because reasonable jurors
“may have thought they were precluded from
considering any mitigating evidence unless all 12
jurors agreed on the existence of a particular such
circumstance.” Id. at 384. Like the holding in Boyde,
this holding in Mills has no relevance to the question
in this case, as there is no reasonable argument that
the jurors here were prohibited from considering
Owens’ mitigating evidence.
Furthermore, Owens does not explain how this
situation—where a jury must unanimously decide
whether to impose a sentence of death or life
imprisonment—is different from the guilt phase of the
trial where the jury also must unanimously agree
whether the defendant is guilty or not guilty. The fact
that the South Carolina legislature decided to codify

App-149
the result of a hung jury in a capital sentencing—
namely, that the defendant will be sentenced to life
imprisonment—does not mean that the Constitution
requires the jury to be informed of that outcome.
For these reasons, the underlying ineffective
assistance claim for this ground fails on the merits and
Owens therefore cannot rely on Martinez to overcome
the procedural default. Accordingly, he is not entitled
to relief on Ground 8.
I.

Ground 9 Failure to present evidence of
early childhood trauma and sexual
abuse

Ground 9 of the amended petition is as follows:
Trial and collateral counsel were ineffective
to the prejudice of the applicant by failing to
investigate, develop and present mitigation
evidence that the applicant suffered from
repeated early childhood trauma and sexual
abuse. These abusive experiences resulted in
organic brain injury, ambiguous sexual
identity, and created within the applicant a
sensitivity to common adult situational
prompts that, in his case, lead to a recurrence
of the earlier trauma and extreme preemptive
fear aggression as the only behavioral
response known to the applicant. 5th, 6th,
8th, and 14th Amendments to the
Constitution of the United States of America;
Rompilla v Beard, 545 US 374 (2005).

App-150
ECF No. 117 at 7. 16
1.

Owens’ claims

Ground 9 is related to Ground 1. In this claim,
Owens argues that sentencing counsel were
ineffective in failing to conduct a full investigation into
his background, which he says would have revealed
more detailed information about the significant
physical abuse suffered by his mother and him at the
hands of his father and step-father. Specifically, he
says that a further investigation would have
uncovered evidence of beatings that his mother
suffered during each of her pregnancies (including
when she was pregnant with Owens) and an incident
where his father violently shook him when he was
about one year old.
In addition, Owens argues that a full
investigation would have provided “a window into
[his] hidden life that was never found, developed or
presented; a life conflicted with shame, guilt, selfdoubt and lack of self-esteem . . . .” ECF No. 117 at
139. Specifically, he says that evidence regarding the
shooting of Reverend Davenport, discussed in Ground
1, should have prompted sentencing counsel to more
fully investigate Owens’ sexual history, which “would
have at last given weight to this significant part of his
life.” Id. at 141.
2.

R&R

In the R&R, the magistrate judge concluded that,
as discussed in more detail in Ground 1, “sentencing
16 Owens acknowledges that this ground has not been
exhausted and is being advanced pursuant to Martinez. ECF
No. 117 at 142.

App-151
counsel and their team performed an extensive and
thorough investigation.” ECF No. 193 at 84. She noted
that the investigators hired by sentencing counsel
spoke with a number of his family members, including
his mother, both sisters, one brother, and stepfather,
as well as a number of non-family witnesses. Id. She
also noted that, while the jury did not hear about the
specific violent incidents that Owens now references,
the jury did hear general testimony about the violence
his mother and he experienced. Id.
In addition, the magistrate judge concluded that,
even if Owens could show deficient performance, he
could not show prejudice, as “there is no reasonable
probability that the jury would have returned with a
different sentence had they heard the evidence
regarding in utero and early childhood physical abuse
and Owens’s full sexual history.” Id. at 85. She notes
that Dr. Schwartz-Watts was concerned about
potential
brain
damage
and
requested
a
neuropsychological evaluation, which revealed no
major brain malfunction. Id.
For these reasons, the magistrate judge concluded
that Owens failed to present a substantial Strickland
claim and that the procedural default therefore could
not be excused pursuant to Martinez. Id.
3.

Objections

In his objections to the R&R, Owens asserts that
the magistrate judge “[did] not have the evidence to
make that determination at this point because the
case is at its beginning and not at its end.” ECF
No. 199 at 54. He further asserts that the magistrate
judge “fail[ed] to assume that the substance of the
affidavits and their inferences are true and then apply

App-152
those truths to the issue of whether [he] articulated a
claim of some merit.” Id. at 55.
4.

Analysis

Though Owens asserts that the magistrate judge
did not properly consider the affidavits that he
submitted, that belief is not supported by the record.
The R&R disputes neither the allegations of extreme
violence perpetrated against his mother and him by
his father and step-father, nor the allegations
regarding his sexual history. The magistrate judge
simply concluded that “sentencing counsel and their
team performed an extensive and thorough
investigation,” that the investigators had appropriate
discussions with his family members and other
individuals, and that the witnesses put on by
sentencing counsel adequately conveyed to the jury
that violence was a significant part of Owens’ life. ECF
No. 193 at 84. The Court agrees.
As discussed in more detail in Ground 1, the jury
heard about many troubling aspects of Owens’ life,
including the significant violence his family and he
suffered at the hands of his father and step-father.
Regarding his sexual history, as discussed in Ground
1, there were no records of him suffering any sexual
abuse and he denied it when asked. And as previously
noted, it is unclear how it would have been helpful to
him to confess to the attempted murder of a clergyman
during the short time between his release from prison
and the Graves murder.
For the reasons discussed above and in Ground 1,
the underlying ineffective assistance claim for this
ground fails on the merits and Owens therefore cannot

App-153
rely on Martinez to overcome the procedural default.
Accordingly, he is not entitled to relief on Ground 9.
J.

Ground 10 - Failure to object to prison
disciplinary infractions

Ground 10 of the amended petition is as follows:
Trial, direct appellate and collateral counsel
were ineffective to the prejudice of the
applicant by failing to include as reversible
error an objection to the trial court’s decision
to
allow
testimony
of
in-custody
administrative
rules
violations
as
aggravation evidence supporting a sentence
of death when those violations were
disproportionate to the crime for which the
jury was sentencing the petitioner, did not
result in injury, were in part administrative
violations common to every inmate and were
not characterological of the petitioner’s
propensity for future violence.
ECF No. 117 at 7. 17
1.

Owens’ claims

Ground 10 is related to Ground 2. As noted above,
at sentencing, the State attempted to introduce a list
of Owens’ prison disciplinary infractions. The trial
court excluded a number of the infractions and some
specific details of others, but ultimately allowed the
State to introduce the following list of twenty-eight
infractions:
17 Owens acknowledges that this ground has not been
exhausted and is being advanced pursuant to Martinez. ECF
No. 117 at 146.

App-154
April 13, 2001:

breaks toilet, sink,
and sprinkler

May 26, 2001:

throws hot water on
another inmate

May 27, 2001:

had a six-and-a-halfinch shank made
from fencing and
toothbrush

June 14, 2001:

spat on a correctional
officer

February 8, 2002:

had a fourteen-inch
solid brass shank

March 29, 2002:

stabs
correctional
officer Smith in the
face with a shank

June 12, 2002:

stabs Undra Golden
in the shower

June 15, 2002:

kicks an inmate who
is restrained in a
restraint chair

August 5, 2002:

slaps a male nurse in
the face

August 17, 2002:

throws a food tray
and hits officer Guess
in the head

August 23, 2002:

struck officer in the
face with his fist

October 22, 2002:

hits officer Eaton in
the face with the fist

October 23, 2002:

sets fire to cell

App-155
December 22, 2002:

shank made
fencing

from

December 30, 2002:

a ten-inch [shank]
made from a push rod
of the sink

July 17, 2005:

spits in the face of
officer Jones

August 26, 2005:

slaps officer Henley
in the face

August 31, 2005:

sets fire to cell

September 11, 2005: threatens officer
Jones
January 1, 2006:

a twelve-inch
homemade knife

January 3, 2006:

breaks
cell
door
window with broom
stick

January 13, 2006:

throws
feces
on
officer
Williams,
hitting him in the
face

February 3, 2006:

spits in the face of
another inmate

February 4, 2006:

orally
threatens
officer Jones

February 28, 2006:

a twelve-inch weapon
hidden between the
mattresses

App-156
April 4, 2006:

an eight-and-a-halfinch shank made
from
flat
metal
sharpened at the
edge and wrapped
with Ace bandage

May 1, 2006:

sets fire
mattress

to

his

May 20, 2006:

throws
coffee
officer Smith

on

ECF No. 16-3 at 458-60.
Owens asserts that sentencing and PCR counsel
were ineffective in failing to object to the admission of
these records on relevance grounds, as he asserts that
they are “disproportionate to the type [of] violence
necessary to sustain the State’s stated purpose for
their admission, that Owens is so violent that he
cannot be safely managed while in custody.” ECF
No. 117 at 143. In making his argument, he asserts
that these violations are “administrative regulatory
in-custody violations common to most every inmate.”
Id. at 145. Thus, he asserts that these violations were
irrelevant to the issues before the jury, particularly
his future dangerousness. Id.
2.

R&R

In the R&R, the magistrate judge concluded that
sentencing counsel were not ineffective on this claim
because there was no legal basis for the objection that
Owens asserts that sentencing counsel should have
made. See ECF No. 193 at 89. Additionally, the
magistrate judge concluded that even if sentencing
counsel had been deficient in failing to make the

App-157
objection, Owens could not show prejudice because the
disciplinary violations were considered and testified to
by his own mitigation witness, Dr. Schwartz-Watts.
Id. at 89-90. Finally, the magistrate judge noted that
even those infractions that could be characterized as
non-violent could go to different sentencing
characteristics,
such
as
character,
future
dangerousness, and prison adaptability. Id. at 88.
For these reasons, the magistrate judge concluded
that Owens failed to present a substantial Strickland
claim and that the procedural default therefore could
not be excused pursuant to Martinez. Id. at 90.
3.

Objections

Owens objects to the R&R “on the grounds that it
fails to parse evidence of administrative infractions
against the issue to which they apply.” ECF No. 199
at 55. He asserts that custodial infractions are
relevant in support of a death sentence only if they
“establish that the defendant may kill again.” Id. at
56. He also asserts that the impact of this alleged
deficiency and the impact of the testimony regarding
the in-custody murder of Lee “renders the sentencing
decision untrustworthy” based on the “cumulative
prejudice” of those asserted errors. Id.
4.

Analysis

Owens’ petition does not set forth a clear basis for
his belief that the prison disciplinary records that
were read to the jury were not relevant to their
determination of the appropriateness of the death
penalty. The South Carolina Supreme Court has
clearly and repeatedly held that information of this
type is relevant at capital sentencing. See State v.
Hughes, 521 S.E.2d 500, 503 (S.C. 1999) (“[I]t is well-

App-158
settled [that] evidence of the defendant’s behavior in
prison is admissible in capital sentencing because it
bears upon his character.”); State v. Whipple, 476
S.E.2d 683, 688 (S.C. 1996) (“[T]he disciplinary
records were relevant to [the defendant’s] future
adaptability in prison, a matter which was clearly
proper for the sentencing jury.”). Similarly, in the
context of considering whether a defendant’s prior
convictions for rape and escape were properly
admitted, the South Carolina Supreme Court noted
that, “[w]hat is essential is that the jury have before it
all possible relevant information about the individual
defendant whose fate it must determine. The jury’s
attention must be focused on both the specific
circumstances of the crime and the characteristics of
the person who committed it.” State v. Tucker, 478
S.E.2d 260, 270 (S.C. 1996) (citations omitted). Owens
does not cite any authority calling into question the
proposition that a capital defendant’s prison
disciplinary record is relevant at sentencing.
In his objections, Owens argues that evidence
regarding custodial misconduct is relevant only if the
evidence is offered to establish that “the most probable
result” of not imposing the death penalty is that “the
defendant may kill again.” ECF No. 199 at 56. Again,
he cites no specific authority for this proposition, nor
is the Court aware of any.
Furthermore, despite Owens’ characterization of
his many violations as “administrative regulatory incustody violations common to most every inmate,”
ECF No. 117 at 145, his misconduct was serious,
violent, and certainly probative of issues relevant at
capital sentencing, including his character, future

App-159
dangerousness, and adaptability to prison. See
Hughes, 521 S.E.2d at 503; Whipple, 476 S.E.2d at
688. To reiterate, over a span of about five years, he
stabbed an officer with a shank, stabbed an inmate
with a shank, possessed shanks seven other times,
assaulted officers eight times (in addition to the one
officer stabbing), assaulted other inmates three times
(in addition to the one inmate stabbing), verbally
threatened officers twice, assaulted a nurse, and
destroyed property in his cell five times (including
setting fire to it three times). See ECF No. 16-3 at 45860.
Finally, as the magistrate judge found, even if
Owens could show deficient performance in
sentencing counsel’s failure to object on relevance
grounds, he cannot show prejudice because the
disciplinary violations were considered and testified to
by his own mitigation witness, Dr. Schwartz-Watts.
ECF No. 193 at 89-90.
For these reasons, the underlying ineffective
assistance claim for this ground fails on the merits and
Owens therefore cannot rely on Martinez to overcome
the procedural default. Accordingly, he is not entitled
to relief on Ground 10.
K. Ground 11 - Failure to object to Brady
violation
Ground 11 of the amended petition is as follows:
Trial counsel duly requested that the State
disclose all evidence which might be favorable
to the defense. Nonetheless, the State failed
to disclose evidence that impeaches material
witnesses against the applicant in violation of
the
Fifth,
Eighth
and
Fourteenth

App-160
Amendments to the Constitution of the
United States of America; Brady v Maryland,
373 US 83 (1963) and Wearry v Cain, 136 S.
Ct. 1002 (2016). Collateral counsel were
ineffective to the prejudice of the applicant in
failing to recognize that the State did not
disclose material items that would have
substantially improved the mitigation case
and changed cross-examination tactics had
the materials been timely disclosed.
ECF No. 117 at 7.
In his petition, Owens acknowledged that this
claim had not been exhausted and was being advanced
pursuant to Martinez. ECF No. 117 at 155. However,
in response to the State’s motion for summary
judgment, he conceded that this claim is not
cognizable under Martinez. ECF No. 174 at 154.
Accordingly, the magistrate judge recommended that
the State’s motion for summary judgment be granted
as to this claim, ECF No. 193 at 60-62, and he
conceded the point in his objections, ECF No. 199 at
57.
For these reasons, the underlying ineffective
assistance claim for this ground has been procedurally
defaulted and Owens cannot rely on Martinez to
overcome the procedural default. Accordingly, he is
not entitled to relief on Ground 11.
L. Ground 12 - Failure to challenge the
State’s decision to seek the death
penalty
Ground 12 of the amended petition is as follows:

App-161
Trial and collateral counsel were ineffective
to the prejudice of the applicant by failing to
challenge the State’s decision to seek the
death penalty as the decision was motivated
by arbitrary factors since the crime was
disproportionate to the rare and exceptional
case as required by the narrowing features of
Furman v Georgia and Gregg v Georgia and
the Fifth, Sixth, Eighth and Fourteenth
Amendments to the Constitution of the
United States of America.
ECF No. 117 at 7. 18
1.

Owens’ claims

In Ground 12, Owens argues that sentencing
counsel were ineffective in failing to challenge the
solicitor’s decision to seek the death penalty in this
case. ECF No. 117 at 156-57. He asserts that, had
sentencing counsel filed such a motion, there is a
reasonable probability that the trial court would have
not allowed the State to pursue the death penalty
against him. Id. at 157. His basic argument is that the
murder of Graves was “the type of crime that
commonly populates the criminal trial docket in
Greenville County Court of General Sessions.” Id. at
161. As such, he believes that this was not a case that
warranted the death penalty. See id.
2.

R&R

In the R&R, the magistrate judge concluded that
there was no legal or factual basis for sentencing
18 Owens acknowledges that this ground has not been
exhausted and is being advanced pursuant to Martinez. ECF
No. 117 at 162.

App-162
counsel to have raised the objection. ECF No. 193 at
90. She concluded that Owens did not show that using
armed robbery and larceny with a deadly weapon as
aggravating circumstances to support the death
penalty was incompatible with the Supreme Court’s
requirements for a death penalty case. Id. at 90-91.
She noted that, while he characterized the event as a
murder that occurred during an “unfortunate, but
ordinary armed robbery,” ECF No. 117 at 159, the
State presented evidence that made this case unusual,
including a lack of remorse from Owens and
statements attributed to him to the effect that he
wanted to murder a great number of people, see ECF
No. 193 at 91. In addition, the magistrate judge noted
that he had previously been incarcerated for burglary
and assault with intent to kill. Id.
For these reasons, the magistrate judge concluded
that Owens failed to present a substantial Strickland
claim and that the procedural default therefore could
not be excused pursuant to Martinez. Id. at 92.
3.

Objections

In his objections, Owens asserts that the
magistrate judge failed to recognize his explanation of
the legal principles that apply to a proportionality
review. See ECF No. 199 at 58. He also asserts that
S.C. Code Ann. § 16-3-20(C)(a), which is a list of the
statutory aggravating circumstances that could
support application of the death penalty, “does not
restrict the crimes for which death is a possible
sentence but rather is an exhaustive list of virtually
every conceivable murder.” ECF No. 199 at 59. He
characterizes the offense as an “unfortunate, but
ordinary armed robbery.” Id. at 60. Additionally, he

App-163
notes that proportionality review is mandated by
statute in South Carolina. Id.
4.

Analysis

Owens appears to be arguing that sentencing
counsel were ineffective in failing to argue that the
death penalty would be a disproportionate penalty
given the facts of the case. This argument is not
persuasive, as the South Carolina Supreme Court
conducted the proportionality review required by S.C.
Code Ann. § 16-3-25(C)(3). The court concluded that
“the death penalty was not the result of passion,
prejudice, or any other arbitrary factor,” and that it
“was neither excessive nor disproportionate.” Owens
III, 664 S.E.2d at 82. Though he may disagree with
that court’s determination, this Court cannot conclude
that sentencing counsel were ineffective in allegedly
failing to request something that Owens received.
Furthermore, while Owens asserts that he was
unable to find any factually similar case that resulted
in a death sentence, ECF No. 117 at 157, his query
was directly answered by the South Carolina Supreme
Court in his own direct appeal. In considering whether
the death penalty in his case was disproportionate, the
court cited two prior decisions affirming death
sentences for individuals who committed murders
during the commission of convenience store robberies.
See id. (citing State v. Simpson, 479 S.E.2d 57 (S.C.
1996); State v. Humphries, 479 S.E.2d 52 (S.C.
1996)). 19 In addition, Simpson and Humphries cited
19 In fact, like the murder Owens committed, both of these
murders occurred in the Upstate region of South Carolina—
Simpson in Spartanburg County and Humphries in Greenville

App-164
three other factually similar cases where the court
affirmed death sentences. See State v. Young, 459
S.E.2d 84, 88 (S.C. 1995) (murder committed during
an armed robbery); State v. Sims, 405 S.E.2d 377, 37980 (S.C. 1991) (double murder committed during an
armed robbery of a Domino’s Pizza); State v.
Thompson, 292 S.E.2d 581, 583 (S.C. 1982) (murder
committed during an armed robbery of a small grocery
store), overruled on other grounds by Torrence, 406
S.E.2d 315.
For these reasons, the underlying ineffective
assistance claim for this ground fails on the merits and
Owens therefore cannot rely on Martinez to overcome
the procedural default. Accordingly, he is not entitled
to relief on Ground 12.
IV. Motion for Evidentiary Hearing
Owens requests an evidentiary hearing as to both
his exhausted and unexhausted claims.
A. Exhausted claims
As to each of his five exhausted claims (Grounds
1-5), Owens asserts that there is “a genuine dispute of
material fact that requires an evidentiary hearing on
the merits.” ECF No. 174 at 5, 55-56, 66, 76, 87. Under
the AEDPA, evidentiary hearings on habeas petitions
are generally limited. See Cullen, 563 U.S. at 181 (“We
now hold that review under § 2254(d)(1) is limited to
the record that was before the state court that
adjudicated the claim on the merits.”). However,
§ 2254(e)(2) contains an exception to this general bar:
“A petitioner who has diligently pursued his habeas
County. See Simpson, 479 S.E.2d at 57; Humphries, 479 S.E.2d
at 52.

App-165
corpus claim in state court is entitled to an evidentiary
hearing in federal court, on facts not previously
developed in the state court proceedings, if the facts
alleged would entitle him to relief, and if he satisfies
one of the six factors enumerated by the Supreme
Court in Townsend v. Sain, 372 U.S. 293, 313
(1963).” 20 Conaway v. Polk, 453 F.3d 567, 582 (4th Cir.
2006).
Here, the magistrate judge properly concluded
that Owens “failed to identify what particular factual
disputes he believes entitle him to a hearing,” and he
has not “identified any circumstances that would
entitle him to an evidentiary hearing based on any of
the above exceptions to the general prohibition on
evidentiary hearings in federal habeas corpus cases.”
ECF No. 193 at 58. The Court concludes that he is not
entitled to an evidentiary hearing because, even
assuming that he could meet at least one of the
Townsend factors, he has not demonstrated that the
facts alleged would entitle him to relief. In evaluating
his exhausted claims, the Court considered as true the
facts he alleged, but for the reasons set forth above,
20

The six Townsend factors are:
(1) the merits of the factual dispute were not resolved
in the state hearing; (2) the state factual determination
is not fairly supported by the record as a whole; (3) the
fact-finding procedure employed by the state court was
not adequate to afford a full and fair hearing; (4) there
is a substantial allegation of newly discovered
evidence; (5) the material facts were not adequately
developed at the state-court hearing; or (6) for any
reason it appears that the state trier of fact did not
afford the habeas applicant a full and fair fact hearing.

Townsend, 372 U.S. at 313.

App-166
those facts still did not entitle him to relief.
Accordingly, his request for an evidentiary hearing as
to his exhausted claims is denied.
B. Unexhausted claims
As to Owens’ unexhausted Martinez claims
(Grounds 6-10, 12), 21 he seeks to expand the record
and requests an evidentiary hearing. As the
magistrate judge recognized, “a court may exercise its
discretion to expand the record when considering
whether cause and prejudice excuse a petitioner’s
defaulted claim.” ECF No. 193 at 93 (citing Fielder v.
Stevenson, No. 2:12-cv-00412-JMC, 2013 WL 593657,
at *3 (D.S.C. Feb. 14, 2013)). Here, the magistrate
judge exercised her discretion to expand the record
and consider information not presented to the state
court in determining whether Martinez excuses the
procedural default of these claims. Id. at 94.
Though the magistrate judge expanded the record
as Owens requested, for the reasons set forth above,
he failed to establish a substantial claim of ineffective
assistance of counsel as to each claim. As the
magistrate judge noted, he had an ample opportunity
to submit evidence in support of his claims, and he has
done so. 22 The magistrate judge and this Court fully
As discussed above, Owens now concedes that Ground 11 is
not cognizable under Martinez. ECF No. 199 at 57.
21

22 Owens implies that he is entitled to an evidentiary hearing
because the affidavits that he submitted were not detailed
enough. See ECF No. 199 at 46 (“[The affidavits] are not
exhaustive of either credibility of the witnesses nor are they a
complete statement of the evidence to be developed during an
evidentiary hearing.”). A party cannot submit threadbare
affidavits and then use those inadequate affidavits to justify an

App-167
considered the evidence he submitted and took all of
the new facts to be true, but concluded that he is not
entitled to relief for the reasons set forth above.
Accordingly, his request for an evidentiary hearing as
to his unexhausted claims is denied.
V. Motion to Stay
Owens filed a motion to stay this case pending the
Supreme Court’s consideration of the Fifth Circuit’s
decision in Ayestas v. Stephens, 817 F.3d 888 (5th Cir.
2016). ECF No. 186. That motion is now moot, as the
Supreme Court issued its decision in that case on
March 21, 2018. Ayestas v. Davis, 138 S. Ct. 1080
(2018).
The Supreme Court’s decision has no impact on
this case. There, the Court concluded that the district
court applied the incorrect standard when it outright
denied a federal habeas petitioner’s request for service
provider funding to assist with the litigation of his
petition. See id. at 1095. In contrast, this Court
authorized substantial service provider funding in
order to allow Owens to fully litigate his habeas
petition. See ECF No. 79 (ex parte order authorizing
evidentiary hearing. Here, the affidavits and documentation
submitted were sufficient to evaluate his claims. See
Runningeagle v. Ryan, 825 F.3d 970, 990 (9th Cir. 2016) (“Where
documentary evidence provides a sufficient basis to decide a
petition, the court is within its discretion to deny a full hearing.”).
Furthermore, as the magistrate judge recognized, an evidentiary
hearing could only have weakened his petition because his
witnesses would have been subject to vigorous cross-examination
by the State, which may have called into question their opinions
and factual statements. ECF No. 193 at 95 (citing Runningeagle,
825 F.3d at 990-91).

App-168
service provider funding). Accordingly, his motion for
a stay is denied as moot.
VI. Conclusion
For the reasons stated, the R&R, ECF No. 193, is
ACCEPTED, and Owens’ objections to it, ECF
No. 199, are OVERRULED. The State’s motion for
summary judgment, ECF No. 147, is GRANTED.
Owens’ amended petition for relief pursuant to § 2254,
ECF No. 117, and motion for an evidentiary hearing,
ECF No. 164, are DENIED. Owens’ motion for a stay,
ECF No. 186, is DENIED AS MOOT. This action is
hereby DISMISSED.
The Court has reviewed this petition in
accordance with Rule 11 of the Rules Governing
Section 2254 Proceedings. In order for the Court to
issue a certificate of appealability, Rule 11 requires
that a petitioner satisfy the requirements of 28 U.S.C.
§ 2253(c)(2), which in turn requires the petitioner to
make “a substantial showing of the denial of a
constitutional right.” The Court concludes that Owens
has not made such a showing, and it is therefore not
appropriate to issue a certificate of appealability as to
the issues raised in this petition. He is advised that he
may seek a certificate from the Fourth Circuit Court
of Appeals under Rule 22 of the Federal Rules of
Appellate Procedure.
IT IS SO ORDERED.
s/ Terry L. Wooten
Terry L. Wooten
Chief United States District Judge
May 29, 2018
Columbia, South Carolina

App-169
Appendix D
SOUTH CAROLINA DEPARTMENT
OF CORRECTIONS
DIVISION OF MEDICAL & PROFESSIONAL
HEALTH SERVICES
MEDICAL CLEARANCE FOR TRANSFER
DATE [handwritten: 7.25.06] TRANSFERRING
INSTITUTION [handwritten: Lieber C.I.]
HEALTH SUMMARY REVIEWED  Yes  No
HEALTH SUMMARY UPDATED  Yes  No  N/A
If transfer is inappropriate, Institutional Operations
notified  Yes  No Explain_______________________
MEDICATION
AND
CORRESPONDING
MEDICATION ADMISSION RECORD SENT  Yes
 No  N/A
PENDING APPOINTMENTS: [handwritten: 0]
NUMBER OF CONSULTS SENT: [handwritten: 0]
COMMENTS: [handwritten: 0 meds]
Signature/Title [handwritten: signature]
DATE [handwritten: 7-27-06]
RECEIVING INSTITUTION [handwritten: Perry]
ACTIVE PROBLEMS [handwritten: Hx. of seizures,
mental health problems (impulse control D/O, ASPD)]
CURRENT MEDICATIONS [handwritten: Vistaril
50mg 2 tabs at AM, Depakote ER 500mg 1 tab PO
BID, Risperdal M-Tab 1mg, 1 tab PO BID]
PRESCRIBED DIET [handwritten: regular]
MEDICAL SUPPLIES/PROSTHETICS____________
PENDING APPOINTMENTS: [handwritten: none]

App-170
DATE OF LAST TB SCREENING [handwritten:
5/1/06]
FOLLOW-UP NEEDED  Yes  No _______________
DATE OF LAST RPR [handwritten: 4/11/06]
FOLLOW-UP NEEDED  Yes  No _______________
LIST CHRONIC CARE
[handwritten: seizure]

CLINIC

COMMENTS: [handwritten:
completed, NKDA]

REFERRALS

referral

to

CCC

Signature/Title [handwritten: signature]
SCDC #: [handwritten: 250460]
INMATE NAME [handwritten:
Eugene]

Owens,

Freddie

